<html>
<title> - THE TREAD ACT REVISITED</title>
<body><pre>[Senate Hearing 108-1033]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-1033

                        THE TREAD ACT REVISITED

=======================================================================

                                HEARING

                               BEFORE THE
                               
                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 3, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
 
 
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-959 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 
                                 ------                                

            SUBCOMMITTEE ON COMPETITION, FOREIGN COMMERCE, 
                           AND INFRASTRUCTURE

                   GORDON H. SMITH, Oregon, Chairman
CONRAD BURNS, Montana                BYRON L. DORGAN, North Dakota, 
SAM BROWNBACK, Kansas                    Ranking
PETER G. FITZGERALD, Illinois        BARBARA BOXER, California
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 2004.....................................     1
Statement of Senator Smith.......................................     1
    Prepared statement...........................................     1

                               Witnesses

Claybrook, Joan, President, Public Citizen and former 
  Administrator, National Highway Traffic Safety Administration..    62
    Prepared statement...........................................    64
Runge, M.D., Hon. Jeffrey W., Administrator, National Highway 
  Traffic Safety Administration, U.S. Department of 
  Transportation.................................................     2
    Prepared statement...........................................     4
Shea, Donald B., President and CEO, Rubber Manufacturers 
  Association....................................................    53
    Prepared statement...........................................    54
Starr, Hon. Bruce, Oregon State Senator, Smart Tread, LLC........    38
    Prepared statement...........................................    40
Strassburger, Robert, Vice President, Safety and Harmonization, 
  Alliance of Automobile Manufacturers (Alliance)................    46
    Prepared statement...........................................    47

                                Appendix

Association of International Automobile Manufacturers, Inc., 
  prepared statement.............................................    93
Consumers Union, prepared statement..............................    89
Response to written questions submitted by Hon. Byron L. Dorgan 
  to Hon. Jeffrey W. Runge, M.D..................................    95

 
                        THE TREAD ACT REVISITED

                              ----------                              


                         THURSDAY, JUNE 3, 2004

                               U.S. Senate,
Subcommittee on Competition, Foreign Commerce, and 
                                    Infrastructure,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Gordon Smith, 
Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Ladies and gentlemen, we'll convene this 
hearing of the Subcommittee on Competition, Infrastructure, and 
Foreign Commerce to consider the Transportation, Recall, 
Enhancement, Accountability, and Documentation Act, known as 
TREAD. I apologize to all our witnesses and those who have 
prepared much and traveled long distances to be here that we 
have had this hearing brutally interrupted by four stacked 
votes. In the interest of time, because I may be scheduled to 
preside over the Senate at 4, I'm going to place my statement 
in the record as if read and I want to give a special welcome 
to my colleague from the Oregon State Senate, Bruce Starr, who 
will be one of our witnesses to testify today, and we thank him 
for coming all this way.
    Our first witness then will be Dr. Runge. Thank you for 
being here, Doctor, we appreciate it, and we look forward to 
your testimony. And for all those who will be testifying, 
whatever you can do to summarize them in the interest of time, 
we thank you for that.
    [The prepared statement of Senator Smith follows:]

              Prepared Statement of Hon. Gordon H. Smith, 
                        U.S. Senator from Oregon
    I thank the witnesses for being here today. Today's hearing will 
examine the status and effectiveness of the Transportation Recall 
Enhancement, Accountability, and Documentation Act--also known as 
TREAD--which was signed into law in 2000.
    I have always been an avid fan of cars. I know the purr of well-
tuned auto and the roar of a racing engine. For most of my life, I 
remember cars being relatively simple machines. When I growing up, if 
you had a problem, you could open your hood, take a look, and if you 
knew something about cars, fix your problem.
    Nowadays, you hear a knock, or a strange whir, and a mechanic hooks 
your car up to the automotive equivalent of an MRI machine. Technology 
has changed dramatically, and it seems that mechanics are more computer 
technicians than anything else.
    Congress passed the TREAD Act in response to the Ford/Firestone 
tire recall, which served to highlight serious deficiencies with the 
ability of the Department of Transportation, and more specifically, the 
National Highway Traffic Safety Administration, to adequately detect 
and investigate safety-related defects in motor vehicles and motor 
vehicle equipment. I am pleased to say that all but a few of the TREAD 
Act's requirements have been implemented.
    The tire recall also raised consumer awareness concerning the 
importance of tire safety and proper tire maintenance. As we saw as a 
result of that recall, the failure to ensure proper tire use or 
inflation can have deadly consequences as we saw a month ago in my home 
state when a family of five was killed as a result of a tire failure.
    However, despite the importance of proper tire use and maintenance, 
the best advice commonly given to consumers to check their tires for 
wear is to get down at eye-level with the tire, stick a penny in the 
groove of their tire's tread, and see whether Abe Lincoln's hairline is 
visible. Not to sell our greatest President short, but there's got to 
be a better system. Tread wear warning systems are simply not working.
    During today's hearing, the Subcommittee will discuss the status of 
the TREAD Act's many mandated rulemakings and will examine the 
effectiveness of the TREAD Act, including any safety shortcomings that 
may require the attention of Congress. In addition, the Subcommittee 
will discuss what actions have been taken by the automobile and tire 
industries since the enactment of TREAD, as well as any technological 
advancement that has occurred.
    I want to especially welcome one of my constituents, State Senator 
Bruce Starr, who is here to testify about the role of technology in 
this effort to prevent tragedy on our highways.
    Again, I want to thank the witnesses that are here today and I look 
forward to an enlightening hearing that will point us in a positive 
direction toward safer highway travel for all Americans.

           STATEMENT OF HON. JEFFREY W. RUNGE, M.D.,

            ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC

             SAFETY ADMINISTRATION, U.S. DEPARTMENT

                       OF TRANSPORTATION

    Dr. Runge. Thank you, Mr. Chairman. I appreciate the 
opportunity to update you today on the TREAD Act. 
Transportation safety is one of the top priorities for 
President Bush as well as Secretary Mineta. We appreciate this 
Subcommittee working with us.
    The TREAD Act was challenging to the agency in many ways. 
It required us to complete 15 separate rulemaking actions, 
three reports, two studies, and a strategic plan. Of the eight 
final rules regarding defects and enforcement, I think the most 
significant is the requirement that manufacturers report 
various types of information to NHTSA that could give us clues 
about the existence of a safety defect. We developed and built 
an automated system to receive and house these data, which we 
have been receiving from the manufacturers for about the last 6 
months, and the system is working well.
    In the standards area, TREAD directed us to update our tire 
performance standards to change the way tires are labeled and 
to require a tire pressure monitoring system in new vehicles, 
and we published final rules in all these areas.
    It also directed us to develop and implement a dynamic 
roll-over resistance test, which we completed last year. We 
began using those ratings this past fall for model year 2004.
    TREAD also had a child safety focus. We undertook a 
comprehensive review of our child restraint performance and 
use, and in response, we created a system for ease of use as 
well as a final rule to improve performance during a crash for 
child safety seats, which we expect to save the lives of 40 to 
50 children per year.
    We've submitted a chart, Mr. Chairman, that shows a status 
report on each of the requirements of the TREAD Act for the 
record along with my written testimony.
    Senator Smith. That will be included.
    Dr. Runge. Now that I've provided the Subcommittee an 
update on TREAD, I want to take a moment to describe some of 
the collateral benefits we've seen because of the law. When 
TREAD was enacted on November 1, 2000, NHTSA had no rulemaking 
plan, no process of regular review of our rules and 
regulations, and it took about 4 years to complete an average 
rule.
    When I became Administrator in August 2001, I challenged 
the agency to improve our rulemaking operations and we have 
done so. We created a rule-making priority plan, which is based 
on real world injury and fatality numbers. We reorganized the 
agency to streamline our work flow, allowing our research 
priorities to support our rulemaking efforts, and we set a goal 
that the entire rule-making process should take no more than 2 
years from the 4 years that it was.
    Inspector General of the DOT, Ken Mead, performed an audit 
in March of this year and found that we have met that goal, 
which was accomplished with careful attention to time lines, 
milestones, and internal deadlines that we imposed on 
ourselves. Since completing the TREAD mandates, we've been able 
to refocus our efforts on those actions that offer the greatest 
potential for saving lives and preventing injuries, which we've 
detailed in the rule-making priority plan also submitted for 
the record with my written testimony, Mr. Chairman.
    Senator Smith. We'll include that as well.
    Dr. Runge. These priorities reflect the size and severity 
of the various parts of the traffic injury problem as well as 
their costs to society. The Administration believes that 
setting rule-making priorities based on injury data produces 
better results and is more cost-effective than politically 
mandated rule-makings that can displace data-driven priorities 
by consuming scarce agency resources.
    Very briefly, Mr. Chairman, in the minute that I have left, 
I'd like to highlight two problems that we are focusing on: 
vehicle compatibility and rollover. While the vehicle fleet has 
been changing toward the purchase of light trucks, there is an 
increasing danger to passenger car occupants who are struck in 
the side. To deal with this, we recently proposed a new vehicle 
side impact standard that will require manufacturers to provide 
head protection in side crashes for the first time. We estimate 
that this new requirement will save 700 to 1,000 lives a year. 
And we're also engaged actively in the necessary research to 
improve the characteristics of the striking vehicle during a 
crash as well.
    The second problem is rollovers, an extremely lethal type 
of crash. Less than 3 percent of passenger vehicle injuries--
sorry, crashes--account for more than 30 percent of fatalities, 
which is more than 10,000 people a year. To address this 
problem, we have taken a comprehensive look at protecting 
people in a rollover, the most immediate component of which is 
our efforts to get people to buckle their safety belts. Nearly 
half of rollover deaths are the result of full or partial 
ejections from the vehicle and nearly all ejections are 
unbelted.
    Over the last 3 years of this Administration, we've raised 
the national usage rate from 73 percent to 79 percent through a 
nationwide high visibility enforcement program. We expect the 6 
percentage point increase to result in the savings of nearly 
1,500 lives a year and $4.8 billion savings in national 
economic impact.
    But in addition to increasing belt use, there is work to be 
done on the vehicle as well. We are working toward improving 
the structural integrity of vehicles in rollovers, safety belt 
performance, and reducing ejections, in addition to studying 
new technologies to prevent those rollovers in the first place.
    Mr. Chairman, that's a very quick summary of my written 
testimony. I'd be happy to answer any questions.
    [The prepared statement of Dr. Runge follows:]

   Prepared Statement of Hon. Jeffrey W. Runge, M.D., Administrator, 
  National Highway Traffic Safety Administration, U.S. Department of 
                             Transportation
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to speak about the National Highway Traffic Safety 
Administration's (NHTSA) implementation of the Transportation Recall 
Enhancement, Accountability, and Documentation (TREAD) Act and various 
motor vehicle safety issues.
    I want to express my appreciation for this subcommittee's long-
standing support of motor vehicle programs. Transportation safety is a 
top priority for President Bush and Secretary Mineta. We are grateful 
to this subcommittee for its continuing leadership and for scheduling 
this hearing.
Overview of TREAD Act
    As you know, the TREAD Act was enacted on November 1, 2000, as a 
direct consequence of hearings held before the House and the Senate, 
including this committee, on the safety of tires and related matters. 
In the course of the hearings, the committees determined that NHTSA 
might have detected the problems with the tires in question sooner, if 
reports of the problems with these tires had been obtained in a 
timelier manner.
    The TREAD Act challenged us to do a lot of work. The TREAD Act 
required us to complete 15 separate rulemaking actions, three reports, 
two studies, and one strategic plan. Many of these required actions had 
tight deadlines, some as short as 30 days. Some of the actions had not 
been on our rulemaking agenda before the TREAD Act, so our priorities 
changed to accomplish what the Act mandated. These changes also 
required a shift of agency efforts away from several important 
priorities.
    In the Defects and Enforcement areas, we have issued 8 final rules. 
These rules included a comprehensive regulation requiring vehicle and 
equipment manufacturers to report periodically to NHTSA on a wide 
variety of information that could indicate the existence of a potential 
safety defect and to advise NHTSA of foreign safety recalls and other 
safety campaigns. We have developed a computer system to receive and 
house this data, and manufacturers have already begun to submit the 
required data to the agency. We also implemented a host of other 
provisions of the TREAD Act, including those relating to increased 
civil penalties, the acceleration of vehicle remedy programs, consumer 
reimbursement procedures, and the disposition of recalled tires. In 
addition, NHTSA undertook a comprehensive review of the way in which 
the agency determines whether to open a defect investigation.
    In the Federal Motor Vehicle Safety Standards area, the TREAD Act 
also directed the Secretary to conduct rulemaking actions to revise and 
update the standards for tires and tire labeling, and to require Tire 
Pressure Monitoring Systems (TPMS) in new motor vehicles. Final rules 
were published in all of these areas and we will conduct another 
rulemaking relating to TPMS in accordance with a 2003 court reversal of 
our final rule. We plan to publish an NPRM with a new TPMS proposal by 
September 2004. The new proposal is expected to save approximately 124 
lives and 8,722 injuries each year, based on our previous benefits 
assessments. The tire upgrade rule is expected to save 1 to 4 lives and 
23 to 102 injuries each year when all tires on the road meet the new 
requirements.
    The Act also directed the Secretary to develop a dynamic rollover 
test for motor vehicles, to carry out a program of dynamic rollover 
tests, and to disseminate the results to the public. The agency 
announced the final test program in 2003, and we began rating model 
2004 vehicles this past fall. Manufacturers have begun to make design 
changes to several popular sport utility vehicles (SUVs) to reduce 
their propensity to roll over.
    An extensive provision on child restraints required that the 
Secretary undertake a comprehensive review of the safety of child 
restraints, upgrade the safety standard for child restraints where 
appropriate, establish a rating system for child restraints, study the 
effectiveness of automobile booster seats for children, and establish a 
plan for saving lives and reducing injuries through the use of booster 
seats. We published the final rule to upgrade the standard in 2003, 
which is expected to save 36-50 lives per year. We have completed all 
of the actions required in the child safety provisions.
    I have attached a chart to this statement that provides a complete 
status report on each of the requirements of the TREAD Act.
Rulemaking Priority Plan
    When the TREAD Act was enacted on November 1, 2000, NHTSA had no 
formal rulemaking plan and no process to regularly review rules and 
regulations, and it took an average of about 4 years to complete a 
rule.
    When I became Administrator in August 2001, I committed the agency 
to improving our rulemaking operation. I began with the basics, such as 
realigning our research priorities to support our rulemaking efforts. I 
also directed that we develop a Rulemaking Priority Plan, and finally, 
I set a goal of a 2-year duration for the entire rulemaking process. A 
March audit by the Department of Transportation's Inspector General 
found that, based on a sample of significant rules for 2003, we have 
met our goal. This was accomplished with careful attention to 
timelines, milestones, and internal deadlines that we imposed upon 
ourselves.
    Since completion of the TREAD Act requirements, we have been able 
to devote our efforts toward activities that offer the greatest 
potential for saving lives and preventing injuries. To accomplish this, 
we published NHTSA's multi-year Rulemaking Priority Plan in the summer 
of 2003. It documents the agency's rulemaking goals through 2006. We 
defined these rulemaking priorities through extensive discussions both 
within the agency and through public comment. The agency works closely 
with Congress and the public to define our priorities openly and with 
ample public comment.
    We prioritized potential new rules and upgrades of existing rules 
according to the size and severity of the problems they address, and 
the best estimates of the cost and effectiveness. Once the rulemaking 
priorities were established, we then prioritized our research studies 
to make sure that those needed to support the priority rulemakings were 
also given the highest priority.
    We intend for our priority plan to be a living document and we will 
update it annually. We also are committed to reviewing all Federal 
motor vehicle safety standards systematically over a 7-year cycle. Each 
standard will be assessed according to a set of criteria related to 
safety problems, potential solutions, technology issues and enforcement 
issues.
    The Administration believes that setting rulemaking priorities 
based on data produces better results and is more cost effective than 
legislatively mandated rulemakings that displace valuable agency 
resources.
    Mr. Chairman, our priority rulemaking actions are detailed in our 
priority plan, which I am submitting for the record. Very briefly, I 
would like to highlight two vehicle-based programs that we are working 
on that we expect to greatly reduce fatalities: vehicle compatibility 
and rollover. We formulated and published a road map to address these 
concerns last year, and our Rulemaking Priority Plan reflects this 
effort.
    Of the 32,598 passenger-vehicle occupants killed in 2002, over 
9,000 were killed in side impacts. In side impacts involving two 
passenger vehicles, an occupant of the struck vehicle was about seven 
times more likely to die than an occupant of the striking vehicle.
    Just three weeks ago, we proposed a new vehicle side-impact 
standard that would require auto manufacturers to provide head 
protection in side crashes for the first time. It would also improve 
protection of the thorax and pelvis for more sizes of people involved 
in such crashes. We estimate that changes in vehicle design to satisfy 
these proposed requirements could save 700 to 1,000 lives a year. When 
this standard becomes final, it will address much of the problem with 
crash compatibility in side crashes.
    Beyond the side-impact proposal, we are continuing to research 
compatibility issues with the striking vehicle to control how vehicles 
interact in these crashes.
    Rollovers are another highly lethal type of crash and one of our 
highest priorities. Even though rollovers account for less than 3 
percent of passenger vehicles crashes, they account for about a third 
of all passenger vehicle occupant fatalities--over 10,000 people killed 
a year. In SUVs, rollovers account for more than 60 percent of occupant 
fatalities.
    To address this problem, we are taking a comprehensive look at 
protecting people in a rollover. One major component of this approach 
is to continue our efforts in getting people to buckle their safety 
belts. Nearly half of rollover deaths are the result of full or partial 
ejections from the vehicle, and nearly all ejections are unbelted. Last 
year, with the help of Congress, we were able to raise the national 
safety belt usage rate from 75 to 79 percent. Since higher safety belt 
usage rates translate into decreased fatalities, this 4 percent 
increase will result in a 1,000 lives saved annually.
    In addition to our safety belt efforts, we will work on optimizing 
the structural integrity of vehicles. Our Integrated Project Team 
report on Rollover Initiatives outlines our strategies to address this 
critical problem. We believe that our upgrade of the side-impact 
standard will also lead to reductions in ejection, since the 
countermeasures for side-impact protection we foresee could also 
prevent ejections in the event of a rollover. As our research matures, 
we will consider appropriate rulemakings on these matters.
    Longer term, to reduce the occurrence of rollover and other 
crashes, we will be exploring the new frontier in technology-assisted 
crash avoidance, including electronic stability control systems and 
driver-assist technologies. We are also pursuing an expanded research 
program to evaluate the potential of some of the more promising crash 
avoidance technologies. Further, we need to undertake research and 
development with respect to the safety of hydrogen-powered vehicles to 
support the President's Hydrogen Fuel Initiative and the FreedomCAR 
Program.
    Mr. Chairman, this concludes my overview of our actions to 
implement the TREAD Act and the agency's rulemaking goals as detailed 
in our priority plan. I will be glad to answer any questions you may 
have.
                               Attachment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [The information referred to follows:]

  NHTSA Vehicle Safety Rulemaking Priorities and Supporting Research: 
                        Calendar Years 2003-2006

Introduction

Table 1: Rulemaking and Potential Rulemaking Areas by Crash Modes and 
Special Issues

I. Prevent Crashes

        A. Data for Crash Avoidance Countermeasures
        B. Reduce Driver Distraction
        C. Improve Vehicle Visibility Factors
        D. Warn Drivers of Impending Crash Situations
        E. Improve Vehicle Control and Handling

II. Improve the Protection of Occupants

        A. Frontal Crashes
        B. Side Crashes
        C. Rollover Crashes
        D. Rear Crashes

III. Address Incompatibility Between Passenger Cars and Light Trucks

IV. Make Large Trucks Safer

V. Protect Special Populations

        A. Children
        B. People with Disabilities
        C. Older Population

VI. Appendix A: Other Active Areas, 2003-2006

VII. Appendix B: Vehicle Safety Information for Consumers

        A. Consumer Information on Child Restraints
        B. Consumer Information on Light Vehicle Rollover
        C. Consumer Information on Braking Performance
        D. Consumer Information on Light Vehicle Headlighting 
        Performance
        E. Consumer Information: Summary Safety Score

VIII. Appendix C. Regulatory Review Plan Description
                                 ______
                                 
Introduction
    The National Highway Traffic Safety Administration's (NHTSA) 
mission is to save lives, prevent injuries, and reduce traffic-related 
health care and other economic costs. The agency develops, promotes, 
and implements effective educational, engineering, and enforcement 
programs directed toward ending preventable tragedies and reducing 
safety-related economic costs associated with vehicle use and highway 
travel. In 2002, an estimated 6 million crashes were reported to law 
enforcement agencies, with more than 42,000 people killed and 2.9 
million people injured. In addition to the terrible personal toll, 
these crashes make a huge economic impact on our society with an 
estimated annual cost of $230.6 billion, or an average of $820 for 
every person living in the United States.
    The NHTSA Vehicle Safety Rulemaking Priorities Plan contained 
herein outlines the agency's vehicle safety rulemaking actions for the 
period 2003 to 2006 that offer the greatest potential for saving lives 
and preventing injury. NHTSA has made major strides in improving motor 
vehicle safety, and an important way in which it carries out its 
mandate is to issue and enforce Federal Motor Vehicle Safety Standards 
(FMVSS). Through these rules, NHTSA strives to reduce the number of 
crashes and to minimize the consequences of those crashes that do 
occur. NHTSA's rulemaking activities--via the Office of Rulemaking with 
support from the offices of Applied Research, Enforcement, Advanced 
Research and Analysis, Planning, Evaluation and Budget, and Chief 
Counsel--identify safety problem areas, develop countermeasures, and 
collect and analyze information to develop new FMVSS and amendments to 
existing FMVSS. As we continue into the new century, NHTSA will strive 
to improve the FMVSS to encourage the automotive industry to 
incorporate the rapidly accelerating pace of advances in vehicle and 
safety technology, while ensuring that the use of the new technologies 
enhances vehicle safety.
    In addition to addressing the most significant vehicle safety 
problems, we have considered the realistic likelihood for successful 
action in setting our priorities, especially in the context of numerous 
worthwhile options competing for limited budget dollars. The rulemaking 
and supporting research priorities in this plan were defined through 
extensive discussions within the agency, taking into account the views 
we have heard over several recent years at public meetings, and 
comments submitted to the agency via rulemaking notices and Requests 
for Comment. This includes 44 comments submitted in response to a 
Request for Comments on the draft plan published in July 2002. The 
final version of the plan incorporates changes prompted by some of 
these comments. The results produced by previous NHTSA rulemaking 
priority planning exercises also provided valuable input to this 
process. These assessments prioritized potential rules and upgrades to 
existing rules according to the size and severity of the problems being 
addressed, and best educated estimates of the cost and likelihood of 
effective solutions and of potential benefits.
    For the near term (2003-2004), NHTSA's regulatory priorities will 
address enhanced side crash protection; improved head restraints and 
fuel system integrity; occupant ejection prevention in rollover crashes 
through improved door locks and other means; reducing glare from 
vehicle lights; advanced air bags and dummies; upgraded roof crush 
resistance, and improved protection for children in school bus crashes. 
The agency also will implement a Congressional mandate (Anton's Law) by 
requiring lap/shoulder safety belts in light vehicles' center rear 
seating position, and will conduct testing and analysis to address rear 
end collision avoidance systems. Longer term (2005-06) potential 
rulemaking actions include electronic stability control; roadway 
departure collision avoidance systems; reducing driver distractions; 
and additional actions to address issues resulting from incompatibility 
between passenger cars and light trucks.
    It is important to note that any priority plan's execution depends 
on factors beyond its control--external factors such as petitions, 
budgets, and legislation. NHTSA's rulemaking resources and priorities 
can be affected by mandates and petitions. Also, plans must fit within 
budgets submitted by the President and enacted by Congress. For 
example, funding for the research activities projected for the plan's 
milestones beyond Fiscal Year 2003 are proposed but are not guaranteed 
and are subject to change. In some cases, developments in rulemaking 
actions after the submittal of information for the Unified Agenda, 
published in the Federal Register in May 2003, resulted in revision of 
these milestone dates to 2004 rather than the late 2003 dates published 
in the Agenda.
    This is the first of NHTSA's multi-year vehicle safety rulemaking 
priorities plans, and the agency intends to periodically update them. 
The plans will serve as internal management tools as well as means to 
communicate to the public our highest priorities to meet the vehicle 
safety challenges of the new century.
Background and Plan Components
    Driver behavior, such as driver error and impaired or aggressive 
driving and safety belt non-use, is at the root of most highway crashes 
and injuries, and NHTSA devotes considerable resources to address these 
problems. NHTSA also works with other government entities, including 
its sister agencies within the U.S. Department of Transportation (DOT), 
notably the Federal Highway Administration (FHWA) and the Federal Motor 
Carrier Safety Administration (FMCSA), to join forces for efficiency 
and mutual benefit in improving highway safety. Some of the initiatives 
in this plan involve significant coordination and communication with 
these agencies. For example, efforts to reduce vehicle rollover and 
improve visibility are pursued by NHTSA and by FHWA, via its mission to 
improve the quality of the Nation's highway system and roads. FMCSA, 
established in 2000 and formerly a part of the FHWA, works to prevent 
commercial motor vehicle-related fatalities and injuries. FMCSA's 
mission includes improving commercial motor vehicle technologies and 
increasing safety awareness, and many of NHTSA's initiatives to improve 
large truck safety are coordinated with FMCSA.
    The performance capabilities of motor vehicles play an important 
role in helping drivers to avoid collisions and in protecting occupants 
when vehicles crash. Substantial amounts of new technologies that 
enhance safety are being incorporated into modern vehicles. Some are in 
response to Federal requirements, such as air-bags/passive protection 
and uniform child safety seat installation. Over the years, despite 
more vehicles and more drivers on the roads, safety advances such as 
these have helped to reduce the annual number of traffic related 
deaths. For instance, the fatality rate per 100 million vehicle miles 
of travel dropped to 1.5 in 2001. This is significantly less than the 
1966 rate of 5.5 deaths per 100 million vehicle miles of travel and, 
for comparison sake, the 1990 rate of 2.1 deaths per 100 million 
vehicle miles of travel. Although there now are more than double the 
number of vehicles in the United States than there were in 1966, the 
number of annual traffic deaths has dropped from 50,894 in 1966 to 
44,599 deaths in 1990, and to 42,116 in 2001. Vehicle occupants 
comprised 86 percent of the 2001 fatality total, with the balance 
consisting primarily of pedestrians and pedalcyclists.
    Agency priorities emanate from many sources, including: the size of 
the safety problem and likelihood of solutions, Executive initiatives, 
Congressional interest and mandates, petitions to the agency for 
rulemaking and other expressions of public interest, recommendations by 
the National Transportation Safety Board and other groups, interest in 
harmonizing safety standards with those of other nations, and changes 
needed as a result of new vehicle technologies.
    The Transportation, Recall Enhancement, Accountability, and 
Documentation (TREAD) Act, enacted on November 1, 2000, required NHTSA 
to complete 21 actions relating to vehicle safety and the agency has 
completed 19 of those actions to date. NHTSA has completed Final Rules 
upgrading tire performance and labeling standards, requiring tire 
under-inflation warning systems, and strengthening child restraint 
labeling and performance requirements. Under this plan, the agency will 
write a new rule providing the first set of consumer information 
dynamic rollover ratings. TREAD-related regulatory activities are noted 
by a 4 in this report.
    The development or introduction of advanced technologies is another 
potential source for rulemaking action. The Intelligent Vehicle 
Initiative (IVI), part of DOT's Intelligent Transportation Systems 
(ITS) Program and coordinated by the FHWA, has been investigating 
vehicle safety products and systems designed to enhance vehicles' crash 
avoidance capabilities and effectiveness. Some of the new technologies 
under development may be applied to existing standards, or they could 
be the basis for new standards. Those rulemaking priorities in the 
following plan that may emanate from the ITS/IVI program are indicated 
by a r. The most promising of these involve efforts on driver 
distraction, vision enhancement, collision avoidance, truck electronic 
braking and drowsy driver sensing systems. Funding for IVI research is 
not entirely within NHTSA's control, and changes in reauthorization 
levels could eliminate funding for some IVI-related milestones in this 
plan.
    NHTSA also is striving to improve traffic safety throughout the 
world through the harmonization of global vehicle safety standards. The 
1998 Global Agreement, with 22 contracting parties including the United 
States, entered into force on August 25, 2000. In addition to this 
agreement, the United States has renewed a bilateral agreement with 
Canada and signed new bilateral agreements with Japan and the European 
Union to partner on vehicle safety research and rulemaking programs. 
Harmonization can be a catalyst for national and international 
technology transfer and exchange programs. With each new rulemaking, 
NHTSA determines how U.S. standards and those of the European 
Community, the countries of the North American Free Trade Agreement, 
Japan, and other countries can be harmonized to enhance, or at least 
not diminish, safety effectiveness in the United States. Fully aware 
that its overriding mission is to increase safety, NHTSA will pursue 
harmonization of a standard only if the harmonized standard would not 
result in a diminished level of safety. In some instances, certain 
aspects of a standard, such as a test procedure, may be harmonized, but 
other standard parameters may differ to account for varying 
environmental and fleet situations. With successful harmonization, 
increased uniformity can ensure necessary safety protection for the 
public, while minimizing unnecessary economic burdens.
    In February 2003, NHTSA published the schedule of meetings of the 
World Forum for the Harmonization of Vehicle Regulations (WP.29) and 
its working parties of experts for calendar year 2003. In that same 
notice, NHTSA listed the 1998 Global Agreement program of work--which 
vehicle safety regulations will be considered for establishment under 
that Agreement in the near future as well as those areas in which 
exchange of information will begin. Among the subjects to be examined 
are: installation of lighting and signaling devices; motorcycle brakes; 
controls and displays; door locks and door retention components, and 
head restraints. Other activities involve tires, side-impact dummies 
and compatibility, and controls and displays. In this rulemaking 
priority plan, rulemaking actions that have harmonization elements (not 
necessarily the entire standard, research project or other regulatory 
activity) are noted by a n.
    Attention also is given to addressing enforceability issues in the 
FMVSS. Rulemaking areas in this plan that will address enforceability 
elements are indicated by a v.
    An additional source for rulemaking priorities is concern for 
special populations. Cognizant of the Nation's changing demographics, 
the plan discusses actions that are especially significant to children, 
people with disabilities, and an aging population.
    Included in this document, in Appendix B, is a discussion of 
consumer information activities that NHTSA's Office of Rulemaking plans 
to pursue in the next few years, including the important New Car 
Assessment Program (NCAP) ratings programs. Such market-based consumer 
programs help to create consumer demand for safer vehicles and 
incentives to manufacturers to incorporate additional safety features 
and performance into their vehicles. They are an important complement 
to NHTSA's mandatory Federal standards, and provide a broader 
perspective on the range of vehicle safety improvements being pursued.
    We have included several potential rulemaking projects in this 
report. These are projects that require additional research to 
determine whether rulemaking action is needed, but are priorities based 
on their potential for significantly sizeable death and injury 
prevention benefits. Many of these are currently being investigated 
under the IVI program. These projects are noted in italics in the 
document, with milestones indicating when NHTSA plans to decide whether 
and how to proceed. Appendix A discusses several additional regulatory 
activities, particularly regulation-related research activities that 
may extend beyond the four-year horizon of this document. Although 
important regulatory (and potential regulatory) goals, these projects 
do not rise to the same level of immediate high priority as the 
activities included in the main body of this report.
    It is important to keep in mind that this document discusses only a 
portion of all rulemaking actions and associated research the agency 
plans to undertake in the coming four-plus years. To put this plan in 
perspective, as of May 2003 there were 143 active rulemakings. Some of 
the other rulemakings the agency currently is working on that do not 
appear in this plan involve fog lamps, windshield wipers, carbon 
monoxide, accelerator controls, radiator caps, LEDs, power-operated 
windows, side marker lamps, automatic door locks, wheelchair ramps, 
buses manufactured in more than one stage, and van conversions. Some 
standards are amended to keep up with technology changes or to achieve 
international harmonization of a standard. Still other amendments are 
minor changes, perhaps in response to petitions. The absence of a 
particular regulatory activity from this document does not necessarily 
mean that the agency will not pursue it.
    NHTSA is committed to reviewing and upgrading those motor vehicle 
safety standards that, while having served to advance safety, have been 
overtaken by technological change. The agency has instituted a new 
Regulatory Review Plan to systematically review the FMVSS on a 
regularly scheduled basis. The majority of the FMVSS were put in place 
by the early 1970s. Many of them have had significant upgrades since 
that time, although some have not. The Regulatory Review Plan 
establishes an assessment tool that will be used to review each FMVSS 
at least once in every seven-year period, to determine the need to 
update and/or upgrade a standard. Two of the most important components 
of the assessment are an analysis of the current status of the target 
safety problem and a technology assessment. The technology assessment 
will determine if there have been changes that have significantly 
altered the vehicle systems affected by the standard, thereby requiring 
changes to the standard. The results can be used to ``modernize'' 
standards so that they allow for innovations that could have beneficial 
effects on safety. These would be addressed on a priority basis subject 
to limited available resources. Another important function of 
regulatory reviews is to examine international standards that address 
the same safety problem as the FMVSS under review. Our review will 
analyze the foreign approach to the problem for ideas and approaches 
that would produce benefits in the U.S. A description of Regulatory 
Review Plan assessments is included in Appendix C.
    Notes of explanation about the milestones and the milestone dates 
in this report are necessary. Milestones listed as ``Decision on how to 
proceed . . .'' refer to internal NHTSA decisions whether or not to 
initiate formal rulemaking activity, i.e., publish a Notice of Proposed 
Rulemaking (NPRM), and perhaps the recommended next steps the Agency 
plans to take. Milestones listed as ``Final Regulatory Action'' refer 
to determinations, further along in the regulatory process after the 
publication of the NPRM, to proceed toward publication of a Final Rule 
or a rulemaking termination, either of which would be published in the 
Federal Register. A milestone indicating ``regulatory activity'' does 
not necessarily imply the issuance or revision of a regulation, but may 
only involve research or other activity short of a rulemaking. All 
milestone date references to years are calendar, not fiscal. We have 
provided milestone due date ranges for research or testing that may 
stretch over an extended period. A hyphen placed before a date 
indicates that the research program or other activity began prior to 
2003. Also, please note that the placement of the priorities in this 
plan are for organizational clarity but do not reflect any specific 
ordering in terms of importance or emphasis.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

I. Prevent Crashes
    NHTSA's crash avoidance vehicle safety standards mandate 
improvements in the crash-avoidance capabilities of vehicles to reduce 
the likelihood of collisions. The improvements may enhance the 
interaction of the driver with the vehicle; deliver more effective 
warnings to drivers about impending crashes; improve the driver's 
ability to avoid crashes and maintain control of the vehicle; or 
enhance driver vision through improvements in current systems or 
advanced technologies. The agency focuses its crash avoidance 
rulemaking activities on reducing the number of collisions through 
improvements in direct and indirect visibility, tires, braking, 
directional and rollover stability, vehicle lighting, signaling, and 
marking.
    A substantial effort has been made over the past several years to 
lay the foundation for continuing research and the development of 
collision avoidance systems. Under the Intelligent Vehicle Initiative 
(IVI), NHTSA is conducting research to develop systems that will use 
advanced sensors, computers and communications to reduce the likelihood 
of crashes. Some of the new technologies that may allow upgraded or new 
requirements derive from ITS research. The new National Advanced 
Driving Simulator (NADS) makes it possible to carry out research that 
has not previously been practicable. In the next few years, NHTSA will 
continue research on the potential effectiveness of several collision 
avoidance products and systems. However, there is a need to develop 
more reliable estimates of the problem size and potential benefits 
offered by these and more conventional crash avoidance technologies. 
This plan recognizes this need by placing Crash Avoidance Data near the 
top of the crash avoidance agenda.
A. Data for Crash Avoidance Countermeasures
    The NHTSA crash avoidance rulemaking program initiates actions 
based on assessments of crash causation factors and the potential for 
vehicle-related solutions. Crash avoidance problems are identified 
through research, petitions, and other information received from the 
public. In order to develop effectiveness and benefits data and to 
develop solutions, it is essential to estimate with some degree of 
certainty problem size and crash or injury savings as a result of 
changes in vehicle performance.
    While in-depth crash investigation has indicated that driver error 
is involved with the largest share of crashes, other factors, such as 
vehicle characteristics (e.g., handling, instrumentation, visibility) 
and the environment (e.g., weather, roadway conditions) are often 
associated with driver error in precipitating crashes. For many years, 
NHTSA has used data from the Indiana University ``Tri-Level Study of 
the Causes of Traffic Accidents,'' May 1979 (DOT HS 805 099) for 
information on pre-crash causation factors and the number of crashes 
and injuries caused by specific vehicle factors, driver/vehicle 
interactions, and/or the environment. However, since this study was 
published, there have been significant changes in vehicles, the on-road 
vehicle mix, and in-vehicle technologies. In addition, driving 
behaviors and crash reporting levels have changed significantly. 
Consequently, the collection of accurate, up-to-date crash avoidance 
data has become increasingly crucial.
    While pre-crash data elements have been added to NHTSA's ongoing 
data collection systems, these systems are still lacking in the crash 
avoidance area. In some key areas, a lack of data on the size and 
characteristics of safety problems hampers the development of effective 
remedies. Building on the methodology developed for the FMCSA-sponsored 
Large Truck Crash Causation Study (LTCCS), a new program is planned to 
collect crash causation data on all vehicles. While this new system 
will borrow from the experience of the LTCCS, it will be designed to 
gather the most information possible on all crashes. This work is aimed 
at uncovering the events that led up to the crash via on-scene 
investigation and interviews. In recognition of the need for more 
information on crash causation factors, Congress provided resources in 
FY 2003 to begin developmental work on a new crash causation data base. 
Future support hinges on Congressional action. Other research on crash 
causation and vehicle factors includes naturalistic driving projects. 
These projects involve in-vehicle cameras with volunteers driving 
vehicles with and without driver assistance systems.
    NHTSA also has developed a System for Assessing the Vehicles Motion 
Environment (SAVME), a roadside camera system to provide additional 
baseline non-crash driver performance data. In addition, the 
availability of the NADS will allow the study of issues related to 
driver, vehicle and environment interactions under highly controlled 
and safe conditions. Since this facility allows drivers to reach crash 
limit conditions, factors leading to crashes can be studied in great 
detail. Information collected by crash data recorders, which are being 
introduced by some manufacturers, also may provide the agency with 
useful information for crash and crash causation analysis.
    The Office of Rulemaking has begun compiling a database containing 
cleansed death certificate information from states to analyze 
fatalities in certain off-road incidents (driveway incidents, trunk 
entrapment, e.g.) and other issues. Other non-crash data collection 
includes a national survey by the Bureau of Transportation Statistics 
on adapted vehicle modifications and injuries associated with these 
modifications.
    Milestones:

  <bullet> Conduct Large Truck Crash Causation (LTCCS) study  -2003

  <bullet> Undertake development work for the new Light Vehicle Crash 
        Causation database applying the LTCCS methodology  2003-2004

  <bullet> Analysis of pilot crash and critical incident data in an 
        IVI-sponsored study of driver behavior to support development 
        of crash avoidance countermeasures  2003-2004

  <bullet> Analysis of large scale crash and critical incident data in 
        an IVI-sponsored study of driver behavior to support 
        development of crash avoidance countermeasures  2005

  <bullet> Support the Rulemaking non-crash database  2003-2006
B. Prevent Crashes by Reducing Driver Distractions r n
    The number of in-vehicle technologies and their potential for 
distractions is expected to increase as more electronic devices appear 
in cars. NHTSA estimates that driver distraction and inattention 
contribute to 20 to 30 percent of police reported crashes--about 1.5 
million crashes a year. Cell phones have become ubiquitous, and newer 
advanced technologies, such as heads-up and navigational displays have 
begun to appear in some vehicles. Rulemaking may be necessary to limit 
the availability of certain functions of these technologies that have 
the potential to distract drivers while a vehicle is in motion. In some 
cases, standardized design parameters may also be needed to reduce 
driver confusion and associated distraction. Development of protocols 
for evaluating the demands of specific devices will help educate 
drivers about their distraction potential. Driver distraction is an 
area of concern within the IVI program, and several research projects 
are underway and planned. The research will attempt to define and 
measure the demands by devices and how their use can distract drivers. 
Some of the research will be conducted using the National Advanced 
Driving Simulator (NADS), test track experiments, and on-the-road 
testing, which will allow researchers to safely apply a wide range of 
driving conditions and situations during which drivers are carrying out 
both technology and non-technology based tasks. In addition, the World 
Forum for the Harmonization of Vehicle Regulations (WP.29) has formed 
an informal working group under the 1998 Agreement to begin the 
exchange of information on intelligent vehicle technologies and the 
positive and negative impacts they may pose on safety (i.e., driver 
distraction).
    Milestones:

  <bullet> UN/ECE/WP.29 Roundtable discussion on ITS  2004

  <bullet> IVI research voice-based interfaces, hands-free issues and 
        effects on driver distraction  -2005

  <bullet> Pilot study of driver distraction & red light violations  -
        2005

  <bullet> Assess cognitive aspects of driver distraction from wireless 
        phones with emphasis on hand held versus hands free  -2005

  <bullet> Research on Adaptive Interface Technology (SAVE-IT)  -2006
  <bullet> Rulemaking decision on whether standards should address 
        distraction  2006
C. Prevent Crashes by Improving Vehicle Visibility Factors
1. Reduce Glare from Headlamps and Auxiliary Lamps n

    Thousands of public complaints target headlamp glare as being 
responsible for discomfort and disability glare. The three primary 
sources are (1) high-mounted headlamps on light trucks, (2) headlamps 
with high intensity discharge (HID) bulbs, and (3) fog lamps and other 
auxiliary lamps on the front of vehicles.
    NHTSA published a Notice of Request for Comments on headlamp and 
auxiliary lamp glare in September 2001. Beam intensity, aim, and 
electrical connections are all of concern in reducing this problem of 
discomfort and disability glare. (For additional discussion on glare 
reduction see section V.C.)
    Many manufacturers are developing various types of adaptive forward 
lighting (AFL) systems that seek to improve drivers' visibility at 
night by changing beam pattern and intensity in response to traffic, 
roadway, and ambient lighting. Some of these systems may not provide 
sufficient limits on glare to other drivers. NHTSA is participating in 
the WP.29 Lighting and Light Signaling (GRE) expert working group 
discussing HID and adaptive forward lighting system (AFS) related 
issues and their effects on disability glare. This working group is 
examining the potential for a Global Technical Regulation (GTR) on the 
installation of lighting and light signaling.
    Milestones:

  <bullet> Assessment of real world effects of glare on driving 
        behavior  2003-2004

  <bullet> Evaluation of visibility and glare from Adaptive Forward 
        Lighting  2003-2004

  <bullet> NPRM on headlighting glare reduction related to auxiliary 
        lamps  2004

  <bullet> NPRM on headlighting glare reduction related to headlamp 
        mounting height  2004

  <bullet> Final rulemaking actions on glare reduction  2005
2. Improvements in Rear View Mirrors

    Many lane change crashes may be prevented by improved rear 
visibility through mirrors. In addition, rear end collisions can occur 
when drivers take too long to assess rear view information, either by 
turning their head or taking too long to view mirror information. In 
consideration of updating FMVSS 111, ``Rearview mirrors,'' NHTSA is 
assessing aspheric mirrors, which increase the field of view, for 
consideration to be allowed under the standard. These mirrors are 
allowed in Europe. However, investigation of the impact on older 
drivers and other driver interactions with these mirrors is needed. 
NHTSA published a Request for Comments on this potential standard 
update in February 2003.
    Milestones:

  <bullet> Additional research on individual differences affecting 
        usability and safety of aspheric rear view mirrors  2004

  <bullet> Decision on whether and how to proceed on FMVSS 111 
        amendment  2004
3. Vision Enhancement r

    The future of indirect vision equipment--aids to help drivers sense 
the presence of nearby vehicles, pedestrians or objects--includes 
everything from basic mirrors to advanced technology devices that use 
non-vision sensing systems (sonar, radar, e.g.) or real-time video 
cameras and screens. They play useful roles when traveling forward, 
backward, and changing lanes--on roadways and off (parking lots, 
garages, driveways, and commercial yards, e.g.). Side view mirrors can 
be flat, convex or a combination, and although they can provide an 
excellent extension of a driver's visibility, a disturbingly large 
percentage of light vehicle drivers do not use them because they do not 
like the way they reproduce images. Both industry and the public have 
strong interest in expanded choices for mirror designs and performance. 
The technology that emerges as the future choice for indirect vision 
will have to prove itself to be sufficiently user friendly and 
effective, and agency efforts with indirect vision will focus on human 
factors research and failsafe issues to find the best choice. Agency 
efforts in electronically enhanced vision will emphasize a systems-
approach.
    Milestones:

  <bullet> Conduct research regarding problem definition, safety 
        issues, and potential solutions  2004-2006

  <bullet> Initiate rulemaking to implement these solutions  2004-2006
D. Prevent Crashes by Warning Drivers of Impending Crash Situations
    NHTSA and industry are working to develop system algorithms and 
performance requirements for vehicle electronic aids that can sense 
imminent crashes and warn drivers in time to take appropriate avoidance 
actions. The agency has a long term research program on intelligent 
systems under the Department of Transportation Intelligent Vehicle 
Initiative.
1. Rear End Collision Avoidance System/Stopped Vehicle Signal System r

    These systems for light vehicles would sense imminent crashes and 
warn drivers of slower moving or stopped vehicles ahead, thereby giving 
them time to take appropriate avoidance actions. NHTSA hopes to make 
drivers more aware of and to improve their car-following behavior. 
Driver diligence is a factor in the prevention of rear end collisions, 
and is affected by inattention, distraction, following too closely, and 
the use of cruise control systems. In 2001, an impact to the rear was 
the initial point of impact in 20 percent of passenger car and 24 
percent of light trucks involved in fatal crashes. These crashes 
frequently cause relatively less serious whiplash injuries, but the 
huge number of injuries to light vehicle occupants--673,000--in 
addition to 1,619 fatalities--account for a huge cost to society. From 
50 to 70 percent of rear-end crashes are into vehicles stopped for more 
than one or two seconds. NHTSA has developed and validated objective 
test procedures for these collision avoidance systems, and has worked 
with industry to evaluate and refine state-of-the-art systems.
    In addition to a warning system that warns oncoming drivers to 
avoid imminent crashes, other systems may actively control a vehicle to 
avoid a crash. Radar headway detection systems can be used to provide 
low-level deceleration to maintain proper headway or to warn drivers of 
potential rear end collision situations. New systems may incorporate 
automatic braking with adaptive cruise control and/or a warning of an 
impending crash. Systems may use warnings, actual braking, or a 
combination of the two. A successful remedy to the problem of vehicles 
crashing into the rear of slowed or stopped vehicles has the potential 
to prevent large numbers of crashes with significant reductions in 
deaths and injuries. The agency is considering a National 
Transportation Safety Board recommendation to initiate rulemaking on 
this topic.
    Milestones:

  <bullet> Research on human performance issues associated with 
        adaptive cruise control and forward collision warning systems  
        -2004

  <bullet> Field operational test of rear-end crash warning system/
        adaptive cruise control underway with General Motors and 
        related supporting research (funded by IVI) -2004

  <bullet> Research on enhanced rear lighting and signaling systems  
        2003-2005

  <bullet> Decision on how to proceed/next steps  2006
2. Roadway Departure Collision Avoidance Systems r

    Single vehicle road departure crashes represent the most serious 
crash problem based upon national highway accident data analysis. There 
were almost 900,000 crashes categorized as single vehicle off-roadway 
crashes in 2001; 11,711 of these were fatal crashes. There are many 
different causes of these types of crashes, including weather/vision 
problems, driver impairment, and other improper driving behaviors.
    Single vehicle roadway departure systems and lane keeping systems 
alert inattentive drivers when they are drifting off the roadway or out 
of their lane. Rulemaking may be needed to specify test protocols for 
assessing minimum safe levels of system performance and for specifying 
driver interface characteristics.
    Milestones:

  <bullet> NADS simulation of Lateral Road Departure Algorithm and 
        Warning system  -2003

  <bullet> Field operational test of road departure crash warning 
        system underway with the University of Michigan Transportation 
        Research Institute and related supporting research projects 
        (funded by IVI)  -2004

  <bullet> Decision on how to proceed/next steps  2005
E. Prevent Crashes by Improving Vehicle Control and Handling
1. Reduce Light Vehicle Tire Failures n 4

    Tire failure can cause loss-of-control of a vehicle that can result 
in a rollover or other crash. Tire failure also can be a hazard to 
motorists changing the tire on the side of the road. The highly 
publicized Firestone/Ford SUV tire recalls were prompted by tire 
failures associated with rollover and other crashes. More than 270 
deaths and 800 injuries have occurred in these crashes.
    Between July 1999 and March 2002, NHTSA was engaged in a program of 
global harmonization for light vehicle tire standards and was 
investigating tire bead unseating as a result of some cases of SUV 
tires coming off their rims in the agency's 1998-99 and 2001 dynamic 
rollover test programs. The Fiscal Year 2001-2002 tire research 
programs included testing to support the rulemaking called for in TREAD 
to revise and update the light vehicle tire standards. The agency 
issued the NPRM in March 2002, and the Final Rule in June 2003. NHTSA 
will continue research on tire strength for development and refinement 
of the test procedure, and it has initiated research on tire aging. 
Under the Program of Work under the WP.29 1998 Agreement, NHTSA 
continues to exchange information with its international partners on 
tire performance issues, including a potential aging test.
    TREAD also mandated improvements in tire labeling to assist 
consumers in identifying tires that may be the subject of a recall. 
NHTSA published an NPRM to upgrade tire labeling in December 2001 and a 
Final Rule in November 2002. NHTSA also developed and launched a tire 
consumer information program to help ensure the public is aware of the 
importance of observing tire load limits and maintaining proper tire 
inflation levels.
    One contributor to tire failure is tire under-inflation. A NHTSA 
survey released in August 2001 found that more than one out of four 
passenger cars, and one out of three light trucks, are driven with one 
or more significantly under-inflated tires. Per TREAD requirements, 
NHTSA published a rule in June 2002 requiring tire pressure monitoring 
systems (TPMS) for significantly under inflated tires. A second part of 
the TPMS Final Rule will be issued by March 1, 2005, and will establish 
performance requirements for the long-term, i.e., for the period 
beginning on November 1, 2006. The docket remains open until 2005 for 
the submission of new data and analyses concerning the performance of 
TPMS. The agency also is conducting a study comparing the tire 
pressures of vehicles without any TPMS to the pressures of vehicles 
with TPMS, especially TPMS that do not comply with the four-tire, 25 
percent compliance option.
    Milestones:

  <bullet> Research for accelerated tire aging test procedure 
        development  2003-2004

  <bullet> Research on tire aging  2003-2005

  <bullet> Decision on next steps for tire aging  2005
2. Light Vehicle Braking

    The growing number and fleet share of LTVs has raised concerns 
about stopping distance disparities between passenger cars and LTVs. 
While the higher weight and mass of LTVs pose some challenges in the 
realm of stopping distance compared to passenger cars, braking 
technology advances could make a difference.
    In addition, while the passenger vehicle brake regulations are 
substantially harmonized worldwide, additional work will need to be 
done to establish a GTR under the 1998 Agreement. NHTSA will continue 
to work with the Contracting Parties under the 1998 Agreement in order 
to complete harmonization in this area.

  <bullet> Evaluation of decreasing stopping distance for LTVs under 
        10,000 pounds  2005-2006

  <bullet> Decision on how to proceed/next steps for possible changes 
        to FMVSS 135  2006
3. Vehicle Handling/Rollover Prevention

    Vehicle handling is an important part of crash avoidance. For 
example, in cornering maneuvers, drivers may tend to steer 
insufficiently or too sharply, which can result in loss-of-control 
crashes.
Electronic Stability Control
    Rollover crashes are one of the most significant light vehicle 
safety problems, especially for pickup trucks, sport utility vehicles, 
and vans. A small portion of rollover crashes occur on paved surfaces, 
but a much larger number occur when a vehicle runs off the road and 
strikes a tripping mechanism such a soft soil, a curb or guard rail 
(FHWA is conducting related research on these physical attributes). 
Various types of electronic stability control systems are being 
marketed by several manufacturers. Some will have a direct effect on 
susceptibility to on-road untripped rollovers as measured by the 
dynamic tests being incorporated into the NCAP program.
    A greater potential safety benefit of Electronic Stability Control 
(ESC) is its effectiveness in reducing single vehicle crashes that 
involve driver error and loss of control. In this way, it can prevent 
the exposure of vehicles to off-road tripping mechanisms by helping the 
driver keep the vehicle on the road. This potential benefit is not 
``rollover resistance'' and will not be measured by the NCAP rollover 
resistance rating. It should be viewed as single vehicle crash 
reduction. It can affect both crashes that would have resulted in 
rollover because of poor rollover resistance and crashes where rollover 
would not have occurred but are nevertheless very harmful. A Mercedes 
study reported a single vehicle crash reduction for Mercedes vehicles 
of 30 percent in Germany as a result of electronic stability control.
    Milestones:

  <bullet> Research different types of electronic stability control 
        systems  2004-2005

  <bullet> Evaluate effectiveness of different ESC systems in 
        preventing single vehicle crashes based on U.S. crash data  
        2005

  <bullet> Perform benefit cost analysis of ESC and decision on how to 
        proceed/next steps 2005
II. Improve the Protection of Occupants
    If a crash does occur, the agency strives to reduce the severity 
and increase the survivability of the event. This is known as 
crashworthiness. Eighty percent of light vehicle occupant fatalities in 
2001 were the result of collisions in which the initial crash event was 
an impact to the front or side of the vehicle. These types of 
collisions can be severe enough to threaten the integrity of vehicle 
structures, in turn compromising the vehicle's ability to protect 
occupants from fatal and serious injuries. Vehicle structure must be 
able to manage crash energy to prevent occupant compartment intrusion, 
ejection of passengers, and vehicle restraint systems must be able to 
prevent injuries from occupant impact with interior surfaces. 
Structural crash performance also must be compatible with occupant 
restraint systems.
    NHTSA pursues the goals of crash survivability by encouraging 
safety belt use; supporting crashworthiness research; conducting 
compliance testing and defects investigations; conducting research for 
potential harmonization of similar standards or elements of standards 
around the world; providing information to consumers through the New 
Car Assessment Program (NCAP) on how different makes and models compare 
in safety performance during crash and performance tests; and as 
outlined below, establishing and keeping up-to-date vehicle safety 
standards for impact protection. NHTSA also is pursuing compatibility 
strategies to improve occupant protection (see Section III).
    In order to ensure that the occupant protection standards protect 
drivers and passengers in all types of crashes, NHTSA has developed and 
continues to improve anthropomorphic dummies that represent the widest 
possible range of vehicle occupant sizes. Milestones for the 
development of improved dummies for specific types of crashes are 
reflected in their respective sections. The following section provides 
additional information on NHTSA's dummy development program.
Improved Dummies
    A new generation of air bags and further occupant safety advances 
require improvements in and a broader range of crash test dummies to 
accurately measure various crash forces imparted to a range of occupant 
sizes in different crash situations. As we expand occupant protection 
requirements for men, women and children of varying sizes, we need 
appropriately sized and instrumented dummies to provide estimates of 
the severity and extent of injury. Also, in the future, we will use 
dummies that measure crash forces to several body parts or locations on 
particular body parts (head, neck, chest, arm, leg)--not just one or 
two parts or locations.
    Dummy improvements require considerable research and development 
prior to incorporation into Part 572 or a safety standard. Most agency 
work on particular crash dummies focuses on a particular type of 
crash--frontal, side, rollover, rear.
    Among NHTSA's most prominent dummy rulemaking priority projects are 
the SID-IIs, ES-2, and World-SID side impact dummies, and several new 
and more biofidelic child dummies, including those representing larger 
children (Hybrid III 10-year-old and upweighted Hybrid III 6-year-old). 
For the specifics on these and other dummies, please see the particular 
section of this plan for further particulars about dummy work in that 
area (e.g., ``Improve the Protection of Occupants--Frontal Crashes'' or 
``Protect Special Populations--Children.''
A. Improve the Protection of Occupants in Frontal Crashes
    This is one of the most active areas of research and rulemaking 
activity by the agency, involving active (safety belts) and passive 
(air bags) driver and passenger restraints. The mandated restraints are 
designed to protect vehicle occupants from violent frontal crash 
forces. Studies confirm the significant safety benefits of safety belts 
and air bags--thousands of deaths and injuries prevented annually, 
including and estimated 12,144 lives saved by belts alone in 2001. Lap 
and shoulder safety belts have advanced to react to crashes faster and 
better protect occupants, and two technologies that have improved their 
effectiveness are pretensioners and load limiters. Air bag technology 
is developing to protect people while minimizing the hazard air bags 
pose to small or out of position occupants. The agency recently 
completed a major upgrade to its air bag standard, FMVSS No. 208. The 
May 2000 rule improves the protection afforded both belted and unbelted 
occupants.
    NHTSA is looking at integrated seats, in which the safety belt 
anchorages are built into the seat instead of attached to the vehicle 
interior. They provide improved belt fit and effectiveness and offer 
promising potential safety benefits (see Appendix A). The agency also 
is looking at different ways to increase the use of safety belts, which 
are by far the most important vehicle safety features in the event of a 
crash. In 2002 and again in 2003, NHTSA sent letters to all the major 
vehicle manufacturers encouraging the installation of enhanced safety 
belt reminder systems. NHTSA also requested information on whether the 
manufacturers intended to install safety belt reminder systems, what 
type of technologies they intended to use, the appropriate time frame 
for installation and any customer feedback on their systems that they 
would be willing to share with the agency. The NHTSA applied research 
program is conducting studies of these systems in 2003-5 to obtain 
information for possible legislative or rulemaking initiatives.
1. Frontal Crashworthiness Research:

  <bullet> Develop a test procedure to evaluate the performance of 
        integrated seats in crash tests  2003-2004

  <bullet> Rulemaking decision/next steps on how to modify/upgrade 
        relevant FMVSS regarding integrated seats  2003

  <bullet> Study effectiveness of different safety belt reminders and 
        other technologies for increasing belt use  2003-2005

  <bullet> Rulemaking decision on safety belt reminder systems/other 
        vehicle technologies for increasing use  2005
2. Offset Frontal Protection n

    Real world crash statistics indicate that 79 percent of injuries in 
frontal crashes are from offset frontal crashes. Many of the resultant 
injuries are severe leg injuries, which are the result of the different 
forces offset crashes impart to vehicle occupants than those from full 
frontal crashes. Approximately 85,000 front seat occupants receive 
serious hip, leg and foot skeletal and joint injuries each year. More 
attention is being paid to reducing serious injuries, especially those 
that lead to life-long disabilities--such as foot/ankle and hip 
injuries. Depending on the assumptions used, a requirement for a 
frontal offset test requirement could prevent approximately 1,000 to 
3,000 moderate to serious injuries annually.
    Congress directed NHTSA to consider the European Union frontal 
offset test requirements (for harmonization). NHTSA's evaluation of the 
European frontal offset deformable barrier test demonstrates potential 
benefits with regard to lower leg injuries which would complement our 
current full frontal test requirements by addressing frontal crash 
modes and injuries and fatalities not addressed by current frontal 
requirements. NHTSA is conducting further testing to assess potential 
disbenefits in addition to these benefits. A summary of these findings 
will be published in Summer 2003 with a Request for Comments.
    Milestones:

  <bullet> Request for Comments on offset frontal crash test 
        requirements  2003

  <bullet> Complete testing to assess disbenefits of offset frontal 
        crash test requirements  2003

  <bullet> Decision on how to proceed/next steps for offset frontal 
        crash test requirements 2003

  <bullet> Regulatory proposal for offset frontal crash test 
        requirements or termination  2004
3. Advanced Air Bags

    Older designs of air bags have saved thousands of lives--NHTSA 
estimates 12,776 through June 2003. Unfortunately, over the same time 
span, air bags also have been linked with the deaths of 229 people, 
most of whom were children. NHTSA must ensure that future air bag 
designs continue to offer the life-saving benefits, while eliminating 
the possibility of death in low speed crashes. To achieve these goals, 
the next generations of air bags will include technology to control 
when and how they inflate, depending on factors such as the size of 
occupants and whether they are out of position for safe air bag 
deployment.
    In May 2000, NHTSA upgraded the requirements in FMVSS No. 208 for 
air bags in passenger cars and light trucks, to be phased in beginning 
in the 2004 model year. The upgrade was designed to meet the goals of 
improving protection for occupants of all sizes, belted and unbelted, 
in moderate to high speed crashes, and of minimizing the risks posed by 
air bags to infants, children, and other occupants, especially in low 
speed crashes.
    The rule also included a requirement that, beginning in 2007, the 
50th percentile adult dummy must meet the injury criteria when 
subjected to a 35 mph belted rigid barrier crash. The agency stated 
that there was insufficient data to incorporate the 5th percentile 
female dummy into the 35 mph crash, but that additional testing would 
be conducted to determine the feasibility of including it. That testing 
has now been completed, and preliminary results indicate that it is 
feasible for vehicles with the belted 5th percentile female dummy to 
pass the injury criteria when subjected to a 35 mph rigid barrier 
crash. NHTSA incorporated its resolution to initial FMVSS No. 208 
petitions for reconsideration in Final Rules in December 2001 and 
January 2003, and anticipates responding to additional petitions in the 
Summer and Fall of 2003.
    Milestones:

  <bullet> Issue NPRM to incorporate 5th percentile dummy into 35 mph 
        belted test  2003

  <bullet> Response to petitions for reconsideration on advanced air 
        bag rule  2003

  <bullet> Advanced air bag research (monitor advanced air bag 
        performance)  2003+
B. Improve the Protection of Occupants in Side Crashes
    Another way to reduce crash deaths and injuries is to improve the 
ability of vehicles to protect occupants from side crashes, which 
killed 9,048 light vehicle occupants and injured 773,000 in 2001. The 
dynamic side impact protection requirements for passenger cars (FMVSS 
No. 214) were established in 1990, with compliance phased in between 
1994 and 1998, and was extended to light trucks and vans in 1995, with 
full compliance by 1999. The agency granted a petition in November 1998 
to upgrade the standard to accommodate side air bags.
    To improve occupant protection in side crashes for passenger cars 
and light trucks and vans in both vehicle-to-vehicle and fixed object 
impacts, NHTSA plans a full upgrade of FMVSS No. 214. The proposal 
would consider addressing the growing number of light trucks in the 
U.S. fleet and to include protection against collisions with narrow 
objects, such as poles. The potential changes also would address 
upgraded and harmonized injury criteria and more precise biomechanical 
knowledge provided by second generation side impact dummies. For 
example, the existing standard does not address side impact head 
protection, since the SID dummy only measures chest and pelvic 
responses. The proposal will consider performance requirements for head 
protection in side crashes because our data show that head injuries are 
a significant safety concern in these crashes. The agency is evaluating 
any possible harmful effects by inflatable side air bags devices on in-
position and, possibly, on out-of-position child occupants. In 
addition, NHTSA is continuing to monitor the safety performance of side 
air bags and to conduct research on the test barrier.
1. Upgrade Side Impact Requirements n v

    Current activity includes further research and evaluation of 
thoracic and head protection air bag systems and efforts to extend 
protection against death and injury from side impact with narrow 
objects, such as poles. Although narrow object impacts involve eight 
percent of the occupants involved in side crashes, they account for 19 
percent of the fatalities and 16 percent of those seriously injured. 
Data over the time frame of 1988-1996 show that when the relative 
outcome severity is considered, a vehicle occupant has about three 
times the likelihood of being seriously injured when involved in a 
narrow object crash versus a vehicle-to-vehicle crash. NHTSA will 
consider the addition of a pole test in its proposed FMVSS No. 214 
upgrade.
    Real world crash statistics indicate that injuries to vehicle 
occupants vary with the size of occupant. In its upgrade proposal, 
NHTSA will consider the feasibility of incorporating second generation 
side dummies--the ES-2 (the update of Eurosid-1) dummy and the SID-HIII 
dummy. The upgraded standard may incorporate a 50th percentile male 
dummy (either ES-2 or SID-HIII) and possibly, an additional dummy, the 
5th percentile female side impact dummy, SID-IIs, which is specially 
designed and equipped for testing side air bag systems. Concurrent with 
ES-2 testing, the agency is conducting a test program to establish that 
the SID-IIs is repeatable and durable in side testing, and is 
reasonably representative of human responses. The new types of dummies 
are being subjected to a series of sled tests and vehicle crash tests 
to determine their structural and functional adequacy as assessment 
tools for the measurement of risk of occupant injury in side crashes. 
The agency is also closely monitoring the development of the WorldSID, 
a next generation side impact dummy, and is working with Contracting 
Parties of the 1998 Agreement on an exchange of information (test data 
and research) related to the development of this dummy. (Please see 
Section V.A. for information on side impact protection for children.)
    Milestones:

  <bullet> Research to support FMVSS No. 214 NPRM and benefits 
        assessment  2003-2004

  <bullet> NPRM to upgrade FMVSS No. 214  2004

  <bullet> Support work for ES-2 and SID-IIs NPRMs and Final Rules  
        2003-2005

  <bullet> SID-IIs and/or ES-2 Part 572 NPRM  2004

  <bullet> Final regulatory action to upgrade FMVSS No. 214  2005

  <bullet> Evaluation and testing of child Q series side impact dummies  
        2004-2006+

  <bullet> Research on advanced side impact dummy (World SID)  2005-
        2006+

C. Improve the Protection of Occupants in Rollover Crashes
    There were 276,000 light vehicles (cars, sport utility vehicles 
[SUVs], light trucks and vans) involved in rollover crashes in 2001. 
Rollover crashes are especially lethal; although they comprise only 
four percent of crashes, they account for almost one-third of light 
vehicle occupant fatalities, and more than 60 percent of SUV 
fatalities. The proportion of vehicles that rolled over in fatal 
crashes (19.5 percent) was nearly four times as high as the proportion 
in injury crashes and nearly 14 times as high as the proportion in 
property-damage-only crashes. Nearly two-thirds of all rollover deaths 
were caused by full or partial ejections. Rollover crashes cause 
approximately 10,000 fatalities and 21,000 serious injuries each year. 
NHTSA's crashworthiness efforts to reduce rollover fatalities and 
injuries have focused on reducing occupant ejections through doors and 
windows, and on providing improved roof crush protection and interior 
padding for occupants.
    In 2002, NHTSA identified rollover and vehicle compatibility as two 
of its highest safety priorities. The agency formed Integrated Project 
Teams (IPT) specifically to examine these issues and make 
recommendations as to how it could most effectively improve safety in 
these areas. The IPT Reports on Rollover and Compatibility were just 
published in the Federal Register. The Rollover IPT made wide ranging 
recommendations on ways to mitigate the rollover problem, including 
vehicle strategies covering both the crash avoidance and 
crashworthiness perspectives.
    To prevent rollover crashes, NHTSA envisions improving vehicle 
handling and stability via Electronic Stability Control and roadway 
departure warning systems. The Rollover IPT Team noted that NHTSA 
recognizes that regulating fuel economy, through its Corporate Average 
Fuel Economy (CAFE) Program, can have substantial effects on vehicle 
safety in addition to economic and other consequences. The current 
structure of CAFE can provide an incentive to manufacturers to 
downweight vehicles, increase production of vehicle classes that are 
more susceptible to rollover crashes, and produce a less homogenous 
fleet mix. NHTSA intends to examine possible reforms to the CAFE 
Program, and it is committed to ensuring that CAFE facilitates 
improvements in fuel economy without compromising motor vehicle safety. 
For improving the crashworthiness of vehicles that roll over, the 
Rollover IPT Team focused on ejection mitigation and roof crush 
protection. In addition, the team discussed roadway and behavioral 
strategies, that are outside the scope of this plan.
    Subsequent to NHTSA's formation of the IPT teams, the vehicle 
manufacturers asked the Insurance Institute for Highway Safety (IIHS) 
to chair groups of experts to make suggestions for ways the industry 
could voluntarily improve safety in the areas of compatibility and 
rollover. NHTSA welcomes the automotive industry's acknowledgement that 
rollover and compatibility are significant safety problems and their 
commitment to develop what they believe are effective approaches to 
addressing these problems.
1. Reduce Occupant Ejections n

    According to agency data, ejection is a major cause of death and 
injury in rollover crashes. In 2001, 9,062 people were killed and 
21,000 were injured when they were ejected from light vehicles, and 
two-thirds of these ejections occurred during rollovers. Occupants 
stand a much better chance of surviving a crash if they are not ejected 
from their vehicles. From 1994-1999 data, we estimate that almost 1,700 
people were killed and 2,000 seriously injured each year when they were 
ejected out the doors (mostly side-hinged doors) of light passenger 
vehicles.
    Among the promising technological innovations to prevent occupant 
ejections are the use of side or curtain air bags and improved glazing. 
NHTSA submitted a report to Congress on ejection mitigation using 
advanced glazing materials in November 2001. The National Academy of 
Sciences (NAS) is working on an evaluation of safety belt reminders. 
Increased safety belt use would immediately reduce ejections. NHTSA 
will review the NAS evaluation and take appropriate action to encourage 
safety belt reminders. A recent NHTSA study researched the potential 
benefits of safety belt pretensioning devices, which pull safety belts 
snug as a crash begins.
    NHTSA will update its current door latch requirements. The standard 
has not changed over 30 years. In many cases, it does not address 
failure mechanisms of current door and door retention components 
designs. In addition, the current standard does not specify a test 
procedure for evaluating the safety of sliding doors. To address this, 
NHTSA is upgrading its door lock standard, FMVSS No. 206. Believing 
this to be an excellent opportunity for the international community 
concurrently to develop a global technical regulation (GTR), NHTSA 
submitted a proposal for a GTR on door locks and door retention 
components to the 1998 Agreement executive committee in 2003. NHTSA is 
leading this effort working with other countries to have a GTR in place 
in time for its upgrade of FMVSS No. 206.
    Milestones:

  <bullet> Research toward Agency decision on whether to adopt 
        requirements for ejection mitigation through side windows, and 
        if so, what performance levels and tests to adopt  2003-2004

  <bullet> Component testing for the development of performance 
        requirements for publishing an ejection mitigation notice  
        2003-2004

  <bullet> Ejection mitigation notice  2004

  <bullet> Testing at Transport Canada of inertia and other test 
        procedures in support of FMVSS No. 206 Final Rule  2003-2004

  <bullet> NPRM to upgrade door systems  2004

  <bullet> Final regulatory action to upgrade door systems  2005
2. Upgrade Roof Crush Resistance

    FMVSS No. 216 establishes strength requirements/intrusion limits 
for passenger car and light truck roofs for protection in rollover 
crashes. Impact with the roof causes severe head and neck injuries to 
vehicle occupants during rollover crashes. NHTSA, based on analysis of 
its data, estimates that roof crush intrusion causes 1,339 serious or 
fatal occupant injuries among belted, unejected occupants each year. 
Unbelted occupants in rollover crashes are primarily injured by 
ejection from the vehicle, which is fatal in about half the cases. The 
agency cannot determine whether belted occupants in rollover crashes 
receive their most severe injuries by contacting the roof structure or 
due to belt slack and stretch when the roof is in contact with the 
ground, by the roof crushing in, or by both of these potential injury 
mechanisms. Therefore, even though safety belts are 73 percent 
effective in reducing fatalities in rollovers, their performance might 
be improved by holding the occupant down in his/her seat during a 
rollover. NHTSA will research the potential safety benefits of 
pretensioners, inflatable tubular belts, integrated belts, and other 
belt systems when activated with a rollover sensor. NHTSA will also 
research the potential benefits of increasing roof strength. The agency 
published a Request for Comments on roof crush in October 2001.
    Milestones:

  <bullet> Conduct tests to evaluate potential new test procedures and 
        performance requirements and evaluate the roof crush 
        performance of recent vehicles  2003

  <bullet> NPRM to upgrade FMVSS No. 216 test procedure  2004

  <bullet> Testing in support of FMVSS No. 216 Final Rule test 
        procedure and requirements  2004-2005

  <bullet> Final regulatory action to upgrade FMVSS No. 216  2005
D. Improve the Protection of Occupants in Rear Crashes
    Crashes in which one vehicle collides into the rear of a vehicle in 
front of it accounted for almost 30 percent of crashes in 2001. NHTSA 
plans several rulemaking actions over the next five years to attack 
this problem on three fronts: to help drivers avoid such crashes (see 
Section I.D.1.), to protect vehicle occupants from the effects of crash 
forces if a crash does occur, and to enhance fuel systems to reduce the 
additional hazard of fire from such crashes.
1. Improve Rear Impact Occupant Protection n

    NHTSA estimates that each year 272,088 occupants of vehicles struck 
in the rear by another vehicle receive whiplash injuries. Although 
whiplash injuries may be of a relatively minor severity, they entail 
large societal costs, estimated at $1.76 billion for rear impact 
whiplash. To reduce the frequency and severity of neck injuries in 
rear-end and other collisions, the agency plans to strengthen the 
requirements in the standards for head restraints and for seats and 
their attachment and installation. It is important to protect occupants 
in the rear seats from those in the front seats without increasing the 
injury risk to those in the front. NHTSA believes that with adequate 
head restraints and energy management, both goals can be met. The 
agency published in January 2001 an NPRM to upgrade the head restraint 
standard, FMVSS No. 202, Head Restraints. Once the Final Rule is 
published, NHTSA will lead the harmonization efforts under the Program 
of Work of the 1998 Agreement in order to establish a GTR that would 
better address neck injuries.
    Milestones:

  <bullet> Final regulatory action to upgrade FMVSS No. 202  2003

  <bullet> NPRM for FMVSS No. 207, ``Seating Systems,'' upgrade  2004

  <bullet> Comparative evaluation of advanced rear impact dummies 
        (BioRID II, RID-2, THOR) for their ability to replicate neck 
        kinematics and seat/head rest interaction in FMVSS No. 202/207 
        testing  2003-2005

  <bullet> Testing to develop test procedures for merging FMVSS No. 202 
        and 207--creating a combined head restraint/seatback strength 
        standard  2003-2005

  <bullet> Decision on how to proceed/next steps for advanced rear 
        impact dummy  2006

  <bullet> Final regulatory action for FMVSS No. 207 upgrade  2006
2. Improve Fuel System Integrity and Reduce Fire Risk n

    Fire in a crash is often associated with a breach in the integrity 
of a vehicle's fuel system. Although relatively infrequent, vehicle 
fires can have devastating consequences on fatalities and injuries. 
Although fire occurred in only 0.1 percent of the vehicles involved in 
traffic crashes in 2001, the occurrence of fire in fatal crashes rose 
to 3 percent. In 2001, fire occurred in an estimated 12,000 light motor 
vehicle crashes, including 1,348 light vehicle fatal crashes and an 
estimated 5,000 light vehicle nonfatal injury crashes.
    NHTSA has several standards to address post-crash fire hazards. One 
standard specifies requirements for vehicle fuel system integrity to 
prevent fires by limiting gasoline spillage, and also has provisions to 
prevent ingestion of fuel during siphoning. Two standards (FMVSS Nos. 
303 and 304) specify requirements for the integrity of compressed 
natural gas fuel systems and containers. Another rule (FMVSS No. 302) 
specifies the burn resistance requirements for materials used in 
vehicle occupant compartments to reduce the incidence of fires from 
sources such as matches and cigarettes. A new standard, FMVSS No. 305, 
regulating electric vehicle crash safety, was published in September 
2000. NHTSA published an NPRM in November 2000 proposing to upgrade 
FMVSS No. 301, ``Fuel System Integrity,'' including changing the 
standard's side impact test procedure. The proposed upgrade would 
replace the current 30 mph rear crash test with a moving deformable 
barrier crash test at 50 mph, and would replace the current 20 mph side 
impact test with the current FMVSS No. 214 dynamic test with a moving 
deformable barrier at 33.5 mph. This would reduce the risk of fire to 
occupants who survive crashes, and also allow NHTSA to conduct a single 
compliance test for the side impact and fuel system integrity 
standards.
    In addition to traditional gas fuel systems, NTHSA is also 
investigating issues concerning the storage of hydrogen fuel in 
hydrogen vehicles. NHTSA has been working with its international 
counterparts, including standards-setting organizations in order to 
develop international standards and global technical regulations for 
hydrogen vehicles. The agency will evaluate European and Japanese 
standards and regulations for liquid and gaseous hydrogen and assess 
the level of safety protection these regulations would provide.
    Milestones:

  <bullet> Final Rule to upgrade FMVSS No. 301 by improving fuel tank 
        integrity  2003

  <bullet> Regulatory review of FMVSS No. 302  2004

  <bullet> Assess risks associated with the operation of fuel cell 
        (hydrogen) vehicles and perform related testing  2003-2006+
III. Address Incompatibility Between Passenger Cars and Light Trucks n
    For decades, the light vehicle category consisted primarily of 
automobiles. The growing popularity over the past 10 years of light 
trucks, vans, and utility vehicles (LTVs), all weighing 10,000 pounds 
GVWR or less, has changed the marketplace as well as the safety 
picture. LTV sales have soared to almost eight million units sold in 
2002--49 percent of new passenger vehicle sales. In 2002, the number of 
registered LTVs in the United States exceeded 76 million units or 
approximately 36 percent of registered motor vehicles in the U.S. The 
majority of LTVs are used as private passenger vehicles and the number 
of miles logged in them increased 26 percent between 1995 and 2000, and 
70 percent between 1990 and 2000. Beyond the growth in sheer numbers of 
vehicles, LTVs also have grown larger, gaining about 700 pounds from 
1984 to 1999, whereas passenger cars gained only 300 pounds during that 
span.
    In the last decade, for the first time, more vehicle occupants are 
being killed in crashes between passenger cars and light trucks than in 
crashes involving only passenger cars. From 1980 to 2001, fatalities in 
car-to-car crashes decreased from 6,488 to 3,152, while LTV-to-car 
crashes increased from 3,718 to 5,233. An analysis of 2001 FARS data 
indicates that passenger car drivers are three and one-half times more 
likely to die than LTV drivers in front to front crashes between the 
two vehicle types, and the fatality rate for drivers of passenger cars 
struck in the side by LTVs is approximately three and one-half times 
greater than the fatality rate for drivers of LTVs struck in the side 
by passenger cars. The larger mass and size of LTVs, along with 
significant disparities in stiffness, compared to passenger 
automobiles, and recent studies of crash data, have raised a number of 
issues of concern. In the crash avoidance area, there are the problems 
of blocked vision of passenger car and motorcycle drivers due to the 
higher profile of LTVs and glare due to higher mounted headlamps on 
LTVs. In the crashworthiness area, there is concern that the protection 
of occupants in smaller vehicles is being compromised when their 
vehicles collide with the larger and heavier LTVs. As the trend toward 
greater private passenger use of light trucks continues, the agency has 
continued to extend pertinent passenger car standard requirements to 
LTVs, and it expects to continue to apply passenger car standards to 
LTVs.
    Reducing the hazards associated with vehicle incompatibility is one 
of the agency's uppermost objectives. NHTSA is attacking these problems 
through targeted research aimed at understanding the effects of 
incompatible designs, through implementing appropriate regulatory 
strategies, through developing consumer information to allow the 
marketplace to work, and through using the agency's position to 
encourage vehicle manufacturers and the purchasing public to do all 
they can to minimize the effects of vehicle disparity.
1. Learn the Extent of the Aggressivity and Compatibility Problem and 
        Potential Solutions

    As referenced in the rollover section, in 2002 NHTSA identified 
rollover and vehicle compatibility as two of its highest safety 
priorities, and formed Integrated Project Teams (IPT) to conduct in-
depth reviews of these and two other areas (safety belt use and 
impaired driving). The IPT Report on Vehicle Compatibility was recently 
published in the Federal Register (68 FR36534). The Compatibility IPT 
Team made wide ranging recommendations on ways to mitigate the 
compatibility problem, including several vehicle strategies, behavioral 
strategies, and roadway strategies (on which the FHWA has the lead). 
Vehicle strategies include partner protection, self protection, 
lighting/glare efforts, and the reform of the Corporate Average Fuel 
Economy (CAFE) program.
    The desired end results of NHTSA's efforts are vehicle designs that 
protect their occupants more and harm the occupants of struck vehicles 
less. NHTSA's analysis of 20 years worth of its NCAP crash test data 
reveals that a good measure of a vehicle's Aggressivity is Average 
Height of Force (AHOF). The AHOF is a single height measurement that 
represents the average height at which a vehicle transfers force to the 
rigid barrier. Initial vehicle stiffness is among other parameters that 
correspond well with real world data. NHTSA is pursuing a comprehensive 
crash test program to demonstrate the feasibility of prospectively 
measuring these characteristics in crash tests and quantifying 
compatibility levels. Initial fixed rigid barrier tests comparing 
vehicles of similar mass but different characteristics (i.e., AHOF) 
will attempt to quantify injury measurement differences attributable to 
the characteristics. Vehicle-to-vehicle crash tests will then be run to 
investigate the characteristics' injury effects on occupants of struck 
vehicles. NHTSA is pursuing refinement of its data through development 
of a higher resolution load cell barrier that the IHRA working group 
has evaluated, and is investigating the use of a deformable face on the 
rigid barrier. NHTSA and FHWA also are engaged in cooperative research 
that is investigating vehicle-to-vehicle and vehicle-to-roadside 
hardware safety.
    Another avenue the agency is pursing is via upgrading side impact 
protection under FMVSS No. 214, which is expected to reduce serious 
injuries and deaths from head and chest impacts. In addition, if an 
AHOF compatibility requirement appears feasible, NHTSA will investigate 
the desirability of modifying the FMVSS No. 214 static side door crush 
resistance test procedure to reflect that requirement.
    As discussed in more detail in the lighting section, glare from 
high-mounted headlamps on LTVs comprises a large proportion of the 
large number of complaints NHTSA has received in recent years. NHTSA 
anticipates proposing amendments to FMVSS No. 108 within a year to 
address headlight mounting height and auxiliary lamps. Furthermore, as 
described in the rollover section, NHTSA recognizes the effects on 
vehicle safety that regulation of fuel can have. The agency will 
examine possible reforms to the CAFE system--and their possible 
positive and negative effects--to ensure that future changes have 
positive impacts on vehicle safety.
    Subsequent to NHTSA's formation of these teams, the vehicle 
manufacturers asked the Insurance Institute for Highway Safety (IIHS) 
to chair groups of experts to make suggestions for ways the industry 
could voluntarily improve safety in the areas of compatibility and 
rollover. NHTSA welcomes the automotive industry's acknowledgement that 
rollover and compatibility are significant safety problems and their 
commitment to develop what they believe are effective approaches to 
addressing these problems.
    In addition to the above research, under the 1998 Global Agreement 
Program of Work as well as under bilateral agreements with Canada and 
Japan, NHTSA is also participating in an exchange of ideas on best 
regulatory approaches in the area of vehicle compatibility, including 
the possibility of conducting joint research and testing in support of 
potential solutions to vehicle incompatibility.
    Milestones:

  <bullet> Rigid barrier and vehicle-to-vehicle testing  2004

  <bullet> Proposal to amend FMVSS No. 108, ``Lamps, reflective 
        devices, and associated headlamps''  2004

  <bullet> Final rule to reduce glare  2005

  <bullet> Decision on initiating vehicle crashworthiness compatibility 
        rulemaking efforts 2004

  <bullet> Final regulatory action to upgrade FMVSS No. 214, ``Side 
        impact protection''  2005
IV. Make Large Trucks Safer
    In 2001, 429,000 large trucks (gross vehicle weight rating more 
than 10,000 pounds) were involved in traffic crashes. One out of 12 
vehicles involved in fatal crashes was a large truck, and they 
accounted for one out of eight traffic fatalities. These crashes 
resulted in 5,082 fatalities and 131,000 injuries: 86 percent of those 
killed and 77 percent of those injured were the occupants of other 
(light) vehicles, pedestrians or bicyclists. Both vehicle performance 
and driver/vehicle interaction can be significant factors in these 
crashes. Among these factors are insufficient braking capability, loss 
of control, driver fatigue and poor visibility. The involvement rate of 
large trucks in fatal crashes per 100 million miles of truck travel has 
declined from 3.3 in 1990 to 2.3 in 2001.
1. Shorten Stopping Distances and Improve Braking r

    Large trucks have longer stopping distances than light vehicles, 
increasing the chance of collisions in panic stopping situations. Truck 
brake performance has been identified as a major factor contributing to 
crashes involving large trucks.
    The major issue facing NHTSA is identifying what performance 
requirements should be established in FMVSS No. 121 to ensure a minimum 
requirement for stopping capabilities and fail-safe performance. As 
part of this effort, the agency is conducting test track evaluations 
and operational (fleet test) evaluations on ECBS-equipped vehicles. One 
promising method to shorten truck stopping distances may be through 
disc air brakes with electronic control. Stopping distances could be 
reduced by as much as 30 percent through the use of disc brakes and 
more powerful front axle brakes. Rulemaking revisions to FMVSS No. 121 
published in 2003 identified performance requirements for ABS on 
straight trucks/buses.
    Electronically controlled braking systems (ECBS) offer many 
potential benefits to the trucking industry in the areas of safety, 
reliability, enhanced driver feedback, and maintainability for heavy 
air-braked vehicles. ECBS are being tested by the Department and a 
number of manufacturers under the IVI program. These systems are 
intended to replace the current pneumatic brake application signal with 
an electronic actuation signal.
    NHTSA also will look at increasing foundation brake capacity and 
improving tractor-trailer brake compatibility. NHTSA also hopes to 
pursue rulemaking to improve heavy truck tire performance, including 
upgrading the requirements for FMVSS No. 119 and requiring the use of 
TPMS on commercial vehicles over 10,000 GVWR. The National 
Transportation Safety Board (NTSB) recommended that NHTSA assess the 
safety benefits of adding traction control to antilock brake systems. 
NHTSA is conducting related research on this recommendation.
    Milestones:

  <bullet> Research ABS braking-in-a-curve performance requirements for 
        trailers  -2003

  <bullet> NPRM for braking-in-a-curve performance requirements for 
        trailers  2004

  <bullet> Final regulatory action on braking-in-a-curve performance 
        trailers test requirements for  2006

  <bullet> ANPRM on truck tractor stopping distance  2003

  <bullet> ECBS field operational tests  2003-2006

  <bullet> NPRM on truck tractor stopping distance  2004

  <bullet> Final rule on truck tractor stopping distance  2005

  <bullet> Research on braking (reducing stopping distance) for 
        straight trucks/buses  2004-2005

  <bullet> Decision on how to proceed for reducing stopping distance 
        for straight trucks/buses  2006
2. Reduce Heavy Vehicle Tire Failures 4

    Heat buildup is the primary cause of tire failure. Heat buildup in 
tires may result from under-inflation, overloading, high speed 
operation, sub-par tire design, or a combination of these factors. 
Also, vehicles operating with low tire air pressure have reduced 
handling capability and fuel economy. Computer chip technology now 
exists that can monitor tire inflation and warn the driver of impending 
tire failure (TPMS--see Section I.E.1). Some of the advances in 
reducing tire failures on heavy trucks have begun and will continue to 
appear in passenger car tires.
    Milestones:

  <bullet> Testing for FMVSS 119 upgrade  2003

  <bullet> NPRM to upgrade requirements for new heavy truck tires  2004

  <bullet> Final Rule to upgrade requirements for new heavy truck tires  
        2005

  <bullet> Research on performance requirements for retreaded tires  
        2003

  <bullet> Decision on whether to develop new standard for retread 
        tires  2004-2005

  <bullet> Final rule for a new standard (tentative) for retread tires  
        2006

  <bullet> Research on heavy truck TPMS  2004

  <bullet> Decision on how to proceed on heavy truck TPMS  2005
3. Drowsy Driver Sensing System n

    NHTSA has been conducting advanced engineering development to 
develop a sensor for a warning system to alert drivers before they fall 
asleep. The purpose of this system is to reduce the more than 100,000 
injuries and deaths associated with drowsiness involving both 
commercial and passenger vehicles. NHTSA data suggests that 
approximately 100,000 crashes per year, including 1,357 fatal crashes 
and approximately 71,000 injury crashes, involved drowsiness. Drivers 
are often unaware of their deteriorating condition or, even when they 
are aware, are often motivated to keep driving. A drowsiness detection 
and warning system can help reduce alertness-related crashes by helping 
to maintain alertness until it is safe to stop and rest.
    Drowsiness is named as the top driving problem at trucking summit 
meetings. The role of drowsiness in crashes may be largely 
underestimated due to unreported off-roadway crashes, police inability 
to verify drowsiness, and driver reporting error. The Federal Motor 
Carrier Safety Administration, in a Final Rule published in April 2003 
on Hours of Service for Commercial Drivers, discussed its potential 
interest in drowsy driver sensing systems.
    Milestones:

  <bullet> Drowsy driver sensing system field operational test  2003-5

  <bullet> Decision on how to proceed/performance specification 
        requirements for heavy trucks  2006
V. Protect Special Populations
A. Children
    Four hundred and ninety-seven children under the age of five died 
and 60,000 were injured as occupants in light vehicle crashes in 2001. 
(Another 428 children from the age of five to nine were killed and 
73,000 were injured in light vehicle crashes.) Research shows that 
child safety seats, when used correctly, can reduce fatalities among 
children less than five years old by 71 percent. That makes child 
safety seats one of the most effective safety innovations ever 
developed. As more new vehicles with dual air bags enter the market, 
there are increased concerns about children who are riding 
unrestrained, incorrectly restrained, or in rear-facing child seats in 
front of an air bag. Use of child restraints is now required in all 50 
states and the District of Columbia. Data indicate that the combination 
of high-quality child restraints and the increased use of these 
restraints as a result of mandatory usage laws has significantly 
reduced the risk of child fatality in motor vehicle crashes. In 2001, 
an estimated 269 children under age five were saved as a result of 
child restraint use.
    NHTSA published a new rule in 1999 that requires motor vehicles and 
add-on child restraints be equipped with a means independent of vehicle 
safety belts for securing the child restraints to vehicle seats. These 
universal child restraint anchorage systems, Lower Anchors and Tethers 
for Children (LATCH), for attaching child seats to the vehicle are 
expected to significantly reduce deaths and injuries to infants and 
toddlers from improperly installed child safety seats. The agency 
issued a Final Rule in 2003 responding to petitions for reconsideration 
to FMVSS No. 225, ``Child Restraint Anchorage Systems.'' Dynamic side 
impact test research is continuing for requirements for child restraint 
systems to protect children during side impacts.
1. Upgrade Child Restraint Requirements n v 4

    To improve the protection of children in crashes, NHTSA has 
recently upgraded FMVSS No. 213, ``Child Restraint Systems.'' The 
changes address a number of areas, including use of improved test 
devices with upgraded biofidelity and the development of a bench seat 
fixture that is more representative of the seat geometry for the 
current vehicle fleet. NHTSA drafted a Child Restraint Plan, 
consolidating many of the agency's objectives for child restraints, but 
the 2000 TREAD Act overtook that plan and mandates many of the 
activities discussed in the plan. Under TREAD, NHTSA was directed to 
consider minimizing head injuries from side impact collisions, and 
whether to require improved protection in side and rear crashes. TREAD 
also mandated a child restraint rating program and a determination 
whether to add child restraint systems (CRS) to NCAP testing.
    NHTSA issued an NPRM for upgrading FMVSS No. 213 in May 2002, and 
the Final Rule in June 2003. The rule made a number of revisions to the 
Federal safety standard for child restraint systems, including 
incorporating improved test dummies (Hybrid III 3- and 6-year-old and 
CRABI 12-month-old) and updated procedures used to test child 
restraints, new or revised injury criteria to assess the dynamic 
performance of child restraints, and extension of the standard's 
requirements to apply it to child restraints recommended for use by 
children up to 65 pounds. Previously, the standard applied to child 
restraint systems for children weighing up to 50 pounds, but children 
must weigh approximately 80 pounds to fit properly in a safety belt 
without a booster seat. Part of NHTSA's efforts, therefore, was to 
extend FMVSS No. 213 to cover child restraint seats certified for 
children weighing between 50 and 80 pounds. Initially, NHTSA has 
developed a weighted six-year-old dummy, eventually to be replaced by a 
ten-year-old dummy. The action is intended to make child restraints 
even more effective in protecting children from the risk of death or 
serious injury in motor vehicle crashes. NHTSA issued the standard 
upgrade Final Rule in June 2003. The development of new standards 
requirements per TREAD for child restraint systems to protect children 
during side impacts will proceed once the agency has completed its 
research and testing and gathered sufficient information for 
rulemaking.
    NHTSA published a Final Rule to improve child restraint labels and 
instructions in October 2002 and a Final Rule announcing the final 
child restraint ratings program in November 2002. In August 2002, NHTSA 
completed a five-year strategic plan and budget for a booster seat 
education plan, and later in 2002 it completed a booster seat study and 
sent its report to Congress.
    NHTSA is conducting additional studies and rulemaking activities 
for child restraints under another legislative mandate, Anton's Law, 
which was signed into law in December 2002. Anton's Law aims to raise 
the level of protection for larger children, those over 50 pounds 
(approximately ages 4 to 8 or 10). The law requires NHTSA to: Establish 
performance requirements for child restraints, including booster seats, 
for children weighing over 50 pounds; develop and evaluate a 10-year-
old child dummy; require lap and shoulder belts for all seating 
positions (notably the center rear seat) for vehicles with a GVWR of 
10,000 pounds or less; and evaluate integrated child restraints and 
booster seats and report its findings to Congress. NHTSA also is 
working with Contracting Parties of the 1998 Agreement on the 
development of a GTR that would address the safe use of child 
restraints worldwide.
    Milestones:
    Upgrade FMVSS No. 213

  <bullet> Report to Congress on FMVSS No. 213 issues not incorporated 
        in the 2003 final regulatory action  2003

  <bullet> Testing to support making CRS more effective in protecting 
        children in frontal crashes and to support agency work in 
        support of Anton's Law  2003-2004

  <bullet> Research on new three-year-old dummy (Q3S) for side impact  
        2003-2004

  <bullet> Support for HIII-10C NPRM and Final Rule  2003-2004

  <bullet> NPRM establishing performance requirements for CRS for 
        larger children, per Anton's Law  2004

  <bullet> NPRM on HIII 10-year-old dummy  2004

  <bullet> Research on pediatric thorax, head and neck injuries to 
        better understand such injuries and contribute to the 
        development of next generation child dummies  -2004

  <bullet> Child injury tolerance investigation through case 
        reconstruction to provide improved injury assessment reference 
        values (IARVs) for use with child dummies  -2004

  <bullet> Decision on how to proceed/next steps for three-year-old 
        dummy (Q3S) for side impact  2004-2005

  <bullet> Testing to support making CRS more effective in protecting 
        children in side crashes, including determining the most common 
        side crash injury causes and developing a representative sled 
        test procedure  -2006

  <bullet> Decision on whether to propose side impact requirements for 
        CRS  2006

  <bullet> Final regulatory action on HIII 10-year-old dummy  2005

  <bullet> Final Rule establishing performance requirements for CRS for 
        larger children, per Anton's Law  2005

  <bullet> Testing, evaluation and harmonization of side impact dummies 
        (new child Q series and child HIII series)  -2006+

    FMVSS No. 208

  <bullet> NPRM proposing the requirement of rear center lap/shoulder 
        belts in vehicles with a GVWR less than 10,000 pounds  2003

  <bullet> Final regulatory action on rear center lap/shoulder belt 
        requirement  2004
2. Improve School Bus Safety

    The safety record for school bus transportation exceeds that of all 
other modes of travel. Students are nearly eight times safer riding in 
a school bus than in cars. Each school day, 440,000 public school buses 
transport 23.5 million children. On average, about seven passengers die 
in school bus crashes each year. In 2001, 12 school bus passengers and 
6 school bus drivers died and 7,000 were injured, and another 22 
pedestrians and 4 bicyclists were killed when struck by a school bus. 
NHTSA has several standards relating to school bus safety. NHTSA's 
requirements for compartmentalization on large and small school buses, 
plus safety belts on small buses contribute to the safe environment.
    NHTSA continues to search for effective ways to prevent these 
tragedies and to make school bus travel even safer. Amendments to the 
school bus standards have improved traffic control warning devices and 
emergency exits. To increase protection for disabled school bus 
passengers, the agency developed rules for occupant restraint systems 
and anchorages and wheelchair securement and anchorages that became 
effective in 1994. School buses are unique as the only class of 
vehicles with requirements for securing wheelchairs, and these 
requirements apply to all school buses regardless of size.
    The NTSB has recommended that NHTSA evaluate occupant restraint 
systems, including those presently required for small school buses, and 
add requirements based on its evaluation. In 1998, NHTSA developed a 
test plan for the next generation of school bus occupant protection, 
including testing various school bus child restraints so it could 
finalize its proposed guidelines on how to transport preschool-aged 
children on buses.
    NHTSA provided a report to Congress in May 2002 assessing occupant 
protection in school buses. In that report, NHTSA concluded that lap 
belts have little, if any, benefit in reducing serious or fatal 
injuries in severe frontal crashes, and could increase the incidence of 
serious neck injuries and possibly abdominal injury among young 
passengers in severe frontal crashes. Any increased risks associated 
with their use in small school buses is more than offset by preventing 
ejections. Small school buses weigh less, have different crash 
dynamics, and are more prone to rollover than large school buses. 
Combination lap/shoulder belts, if used properly, could save one life a 
year, but improper use could cause serious neck injury or abdominal 
injury. Lap/shoulder belts could reduce bus capacity and add more than 
$100 million in annual costs. Since school buses are the safest way to 
and from school, even the smallest reduction in the number of bus 
riders could result in more children being killed or injured when using 
alternative methods of transportation.
    NHTSA's research program is focusing on side impact protection. 
Other school bus safety improvements the agency is considering include: 
increasing seat back height to reduce the potential for passenger 
override in crashes; requiring lap/shoulder restraints on smaller buses 
(lap belts are now required); considering seat redesign for better 
restraint fit for passengers aged six and above; evaluating the 
efficacy of roof crush protection; and developing test procedures for 
voluntarily installed lap/shoulder belts.
    Milestones:

  <bullet> Conduct regulatory review of FMVSS 222  2003

  <bullet> NPRM for FMVSS No. 222 for improved passenger protection  
        2004

  <bullet> Testing in support of Final Rule and cost assessment  2003-
        2004

  <bullet> Final regulatory action on FMVSS No. 222 occupant protection 
        upgrades  2005

  <bullet> Decisions on how to proceed/next steps relating to the 
        sidewall padding requirements under FMVSS No. 222  2004
B. People with Disabilities
    NHTSA works to assure motor vehicle safety for the small but 
vulnerable population of persons with disabilities--without hindering 
their access to personal transportation.
    A Final Rule exempting businesses that modify vehicles to 
accommodate people with disabilities from the agency's ``make 
inoperative'' prohibitions was published in February 2001. Also, we 
have produced and distributed a consumer brochure, Adapting Motor 
Vehicles for Persons with Disabilities, about adaptive equipment and 
modified vehicles. As described in the previous section of this report 
(V.A.2), the agency has adopted requirements for securing wheelchairs 
and their occupants traveling in school buses to afford increased 
protection for disabled passengers.
    The original draft of this plan had milestones for rulemakings for 
vehicle platform lifts. Since then, in December 2002, NHTSA published a 
Final Rule that established two new safety standards: an equipment 
standard, FMVSS No. 403, Platform Lift Systems for Accessible Motor 
Vehicles; and a vehicle standard, FMVSS No. 404, Platform Lift 
Installation. The equipment standard establishes performance 
requirements for platform lifts, and the vehicle standard requires 
manufacturers who install lifts to use lifts that meet the equipment 
standard, to install them according to the lift manufacturer's 
instructions, and to provide certain information to lift users. Based 
on incomplete information, we estimate that at least 1,366 people were 
injured in lift-related incidents in 1991-1995. The regulation, 
applicable to all motor vehicles, should prevent deaths and injuries 
associated with the use of platform lifts for people with disabilities.
    Milestones:

  <bullet> Continue assessment of adaptive equipment safety issues  -
        2006+
C. Older Population n
    The nation's population of older adults--those more than 65 years 
old--will grow by more than 50 percent between now and 2020. The 
population age 70 and over grew nearly twice as fast as the total 
population from 1990 to 2000. By 2030, we will have more than twice the 
number of older drivers that we now have. Studies have predicted 
substantial problems if we fail to take adequate steps to meet the 
transportation needs of our changing population. At current crash 
rates, the number of fatalities involving older drivers in 2030 could 
be three to four times the 1995 rate. A portent of the future is that 
older drivers, though involved in relatively few crashes (due to 
factors such as driving fewer miles), have a statistically high risk of 
crashes when they do drive--and older drivers are driving more each 
year. Although societal fatality rates have been declining for several 
years, older drivers and vehicle occupants are dying at alarmingly 
increasing rates. Light vehicle occupants age 65 and up suffered 5,396 
fatalities and 218,000 non-fatal injuries in 2001.
    Older drivers frequently have slowed reaction times, greater 
sensitivity to glare, a narrowed field of view, and difficulty noticing 
all the critical objects in their visual field. Also, physical frailty 
contributes to older persons' over-representation in fatal and severe 
occupant injury rates. Crash statistics show that older drivers have a 
higher percentage of their crashes in intersections than drivers of 
other ages. A new agency study found two noticeable differences that 
help explain injury risk differences by age: 1) Older people are more 
likely to travel in passenger cars than younger people who frequently 
use light trucks; and 2) seriously injured older occupants are more 
likely to be involved in side impact crashes than their younger 
counterparts. This last finding may make a case for increased attention 
to vehicle engagement in side impact crashes and to vehicle 
technologies that can help drivers avoid side collisions. NHTSA's 
efforts to address compatibility problems between SUVs and passenger 
cars also could provide significant benefits in this area.
    In general, all rulemaking activities will consider the special 
needs of older drivers and occupants. NHTSA is conducting and 
evaluating research (in addition to behavioral research) on several 
fronts to use advanced in-vehicle technologies to help older drivers 
meet their driving needs while preserving their transportation 
mobility, freedom and convenience. Some of the new technologies are 
being developed under the Department of Transportation's Intelligent 
Transportation Systems program. These technologies include collision 
warnings, near-object detection systems while backing and changing 
lanes, night vision enhancement, and route guidance. Later possible 
advances include intelligent cruise control and forward collision 
avoidance systems. The success and practicality of these systems will 
depend in large measure on designing them to help drivers with special 
needs without distracting or confusing them, and NHTSA will carefully 
evaluate and weigh the benefits and liabilities to older drivers for 
safe vehicle operation. Also, FHWA is working to adapt roadway design 
to the older population.
    In addition, efforts have been and will continue to be made to make 
automobiles safer for fragile occupants, and their needs increasingly 
will be a factor to consider in assessments of vehicle crashworthiness 
standards. Older persons are generally less able to withstand and 
recover from the trauma of crashes, and they face a much higher 
likelihood that a crash will prove fatal. FMVSS No. 208, ``Occupant 
Crash Protection,'' has required the installation of driver and 
passenger frontal air bags in passenger cars and light trucks and vans 
(LTVs) since model years 1998 and 1999 respectively. To improve safety 
for older and small occupants, NHTSA allowed depowered air bags in 1997 
and amended the standard again to require vehicles to be equipped with 
advanced air bags starting in model year 2004. In addition, some 
manufacturers have installed force limiting and pretensioning devices 
in their safety belt systems that can help mitigate serious injuries to 
older occupants.
    The crash dummies the agency uses are sufficiently precisely 
instrumented to account for the frailer skeletal structures of older 
people, and the agency has and will continue to adjust the injury 
criteria it uses to better represent older people. Crash dummy 
enhancements and/or revised injury tolerance criteria for existing 
dummies that replicate the features of older motorists could be used to 
design and test improved air bag systems, inflatable safety belts, 
force limiting safety belts, side air bags, knee bolsters and other 
occupant protection systems to maximize protection for older users.
    A cross-agency working group was formed in 1999 to focus on older 
drivers and passengers. In addition to surveys already conducted, NHTSA 
will conduct surveys and research to identify additional problems 
specific to older drivers and occupants of motor vehicles. Candidate 
issues to be explored include: nighttime lighting and glare, controls 
and displays, vehicle features that create distractions to driving 
tasks, adequacy of mirrors, and comfort and convenience of safety 
belts. Based upon these activities, rulemaking plans can be developed, 
and the Office of Rulemaking will track technological developments in 
the auto industry that are designed for and marketed to the older 
driver. In addition, a data analysis study will be conducted once 
enough cars are on the road that have these features to see if they are 
producing lower crash or injury rates. One trend that may warrant study 
is that there has been a decline over that past five years in 
fatalities and incapacitating injuries to people between the ages of 65 
and 74.
    Older pedestrians have the highest fatality rates among different 
age groups, and NHTSA may consider the need for new requirements for 
exterior vehicle designs less injurious to pedestrians. The agency will 
conduct research over the next few years to gather information on 
pedestrian safety issues and injury mechanisms. Such efforts could lead 
to the development of internationally harmonized head and leg component 
test procedures.
    Milestones:

  <bullet> Data analysis to identify risk factors in fatalities and 
        injuries for the oldest occupants  2003

  <bullet> Targeted research to study the dynamic response of older 
        people to particular impact and consider age adjusting existing 
        age criteria  2004-2006+
VI. Appendix A: Other Active Areas, 2003-2006
    This appendix discusses several additional regulatory activities, 
particularly regulatory-related research activities, that may extend 
beyond the four-year horizon of this document. Although important 
regulatory (and potential regulatory) goals, these projects do not rise 
to the same level of immediate high priority as the activities included 
in the main body of this report.
Integrated Seats v
    Advanced seating and belt designs and systems present significant 
safety benefits in frontal and other crashes as well as in rear 
crashes. Some newer safety belts have adjustable upper belts that let 
occupants change the position of the shoulder strap to accommodate 
their size. Safety belt pretensioners retract the safety belt to remove 
excess slack, almost instantly, in a crash. Energy management features 
allow safety belts to yield during a severe crash to prevent forces on 
the shoulder belt from concentrating too much on the chest. These 
features include load limiters built into the shoulder belt retractor 
and/or tear stitching in the webbing that causes the safety belt to 
extend gradually.
    Integrated safety belt systems mount the entire safety belt system 
directly to the seat, rather than to the floor or pillar. This allows 
the safety belt to move with the occupant when they move the seat. 
Integrated systems provide a more consistent and comfortable fit and 
are intended to more effectively hold occupants in their seats during a 
crash. NHTSA has been petitioned to modify the current regulations to 
incorporate a more realistic test procedure for integrated seats. The 
agency is conducting research to develop a test procedure to evaluate 
integrated seats. After conducting research on integrated seats, we 
plan to decide in 2003-2004 on the next steps for FMVSS No. 207, 
Seating Systems, and FMVSS No. 210, Safety belt Assembly Anchorages, to 
accommodate improved seat designs such as integrated seats, as well as 
to address a related enforceability issue. In 2004 the agency will 
decide on how to proceed and next steps for amending FMVSS No. 207, 
Seating Systems and FMVSS No. 210, Safety belt Assembly Anchorages to 
address integrated seats, with final regulatory action in 2005-2006.
Improve Motorcycle Safety n
    The most common danger associated with motorcycles is head injury 
(and associated death). In 2001, 3,181 motorcycle drivers and 
passengers died and 60,000 were injured. These fatalities comprise 
eight percent of all traffic fatalities, although motorcycles represent 
approximately two percent of the total vehicle fleet. Motorcycle 
crashes are highly dangerous to their occupants, and these deaths and 
injuries, after many years of decline, have been increasing since the 
late 1990s. In 2001, 39 percent of all motorcycle drivers involved in 
fatal crashes were speeding, a figure twice that for passenger car and 
light truck drivers, and the percentage of alcohol involvement was 37 
percent higher for motorcyclists. Approximately half of those killed 
were not wearing helmets. Motorcycle helmet use has been the most 
effective countermeasure in the effort to reduce these injuries and 
deaths. NHTSA estimates that helmets saved the lives of 674 
motorcyclists in 2001, and could have saved an additional 444 lives if 
all motorcyclists had worn helmets. While other programs within NHTSA 
aim to increase helmet use, the agency's regulation, FMVSS No. 218, 
makes sure that helmets are as safe and effective as possible. The last 
update to the motorcycle helmet standard in 1988 extended its test 
requirements to all helmet sizes and established improved helmet test 
procedures. NHTSA is exploring the need to upgrade the standard, 
including addressing comfort and labeling requirements.
    The agency is considering undertaking a crash data collection 
effort that is jointly funded by the Offices of Traffic Injury Control, 
Applied Research, and Rulemaking. Various issues are being brought to 
the agency by means of petitions for rulemaking, interpretations and 
letters requesting action regarding motorcycle designs and associated 
injuries. To respond to these requests (and to contribute to the 
international effort to further the state of knowledge of motorcycle 
safety), we need research to assess literature to determine injury 
types and severity and to relate them to motorcycle design and 
operation. To evaluate motorcycle braking standards, NHTSA will 
research and collect crash data and literature. Then, the agency will 
initiate rulemaking to update the standards. NHTSA is undertaking 
conspicuity research, and it published a Final Rule to reduce the 
minimum hand lever and foot pedal force for fade and water recovery 
tests in August 2001.
Address Motorcoach Safety Issues
    The crash of a motorcoach in Canada that killed four U.S. school 
children has raised Congressional interest in motorcoach safety. On 
average, motorcoach crashes cause 10 deaths annually. In the 1990s, 20 
of 46 motorcoach crashes involved rollover, and occupant ejection was a 
significant cause of death. NHTSA has met with the motorcoach industry 
and held a public meeting in April 2002 with Transport Canada to 
explore motorcoach safety. It also is examining safety recommendations 
made by the NTSB. Among the potential issues explored at the public 
meeting were emergency evacuation and window glazing, improved braking 
and rollover stability control, occupant protection, roof crush 
improvements and advanced restraint systems. The Department of 
Transportation plans research on motorcoach safety issues in 2004-2005. 
After conducting research, NHTSA will consider rulemaking to upgrade 
motorcoach passenger crash protection. The agency also plans to conduct 
research on motorcoach stability control to prevent crashes.
Pedestrian Protection n
    In 2001, 4,882 pedestrians died and 78,000 were injured in traffic 
crashes, representing two percent of all traffic crash injuries and 11 
percent of traffic fatalities. The problem is even larger in developing 
countries around the world, and the international community, through 
the United Nations, is working on the development of a global technical 
regulation on pedestrian safety. The International Harmonization 
Research Activity (IHRA) pedestrian working group is developing test 
procedures for adult and child head impact and adult leg injury. The 
U.N. WP29 GRSP Committee has initiated an effort to develop a Global 
Technical Regulation under the 1998 U.N. agreement, and NHTSA is 
actively participating in this effort.
Underride Protection for Single Unit Trucks
    Many heavy truck crashes involve car-into-truck rear underride 
crashes, especially at night, which occur due to the car driver's 
inability to see the truck ahead until immediately prior to impact. 
Because of the truck's mass and geometry, the occupant compartment of a 
passenger car can be penetrated and severely damaged by the truck 
frame. Aside from crash avoidance improvements in vehicle braking, 
steering characteristics, conspicuity, and efforts to reduce alcohol 
and sleep related crashes, NHTSA also has enacted crashworthiness rules 
to improve underride protection. NHTSA has two standards that require 
and regulate rear impact guards for truck trailers and semi-trailers, 
but single unit trucks are exempted from these requirements. The agency 
conducts ongoing efforts to collect reliable data to support a 
regulatory decision to end or not end the exemption. One potential way 
to address the problem of vehicle crashes into the rear of single unit 
trucks could be to prevent such crashes from occurring. The agency 
might find that increasing truck conspicuity is a cost-effective method 
of preventing rear crashes involving single unit trucks and therefore 
work to extend the requirements of reflective devices from trailer 
trucks to single unit trucks. Following problem identification and data 
analysis, feasibility study of alternative countermeasures, and testing 
and research on countermeasure effectiveness and development in 2004, a 
decision on how to proceed and next steps will be made in 2004-5.
Electronic Data Recorders (EDR)
    Information collected by crash data recorders, which are being 
introduced by some manufacturers, can provide the agency with useful 
information for crash and crash causation analysis. EDRs allow 
investigators to gain direct pre-crash and crash information such as 
pre-impact vehicle acceleration and driver steering and braking, air 
bag deployment timing, and whether safety belts were buckled. EDRs can 
provide more specific information to crash investigators, which will 
lead to a more accurate account of the events leading up to and 
following a crash. This, in turn, can contribute to more effective 
safety rulemakings and other safety actions. NHTSA is looking at the 
future potential for EDRs in crashworthiness evaluations. The agency is 
conducting a research program in which it collects EDR data from real 
world crashes to analyze the data's accuracy and to compare it to 
traditional forensic crash investigation methods. The agency will 
provide feedback so EDR manufacturers can improve their systems. (For 
more information on EDRs, see NHTSA's website at http://www-
nrd.nhtsa.dot.gov/edr-site/index.html.)
Accelerator Controls
    Over the past several years, NHTSA has responded to interpretation 
letters from manufacturers by drawing analogies between traditional 
mechanical component and new electronic systems. Now that electronic 
accelerator controls are becoming increasingly commonplace, the agency 
determined that revisions to FMVSS No. 124, Accelerator control 
systems, were needed to accommodate electronic control systems. A NPRM 
was published in July 2002. The proposal neither increases nor 
decreases the scope of the standard, but makes the standard clear and 
adequate in its application to electronic accelerator controls. The 
NPRM proposed regulatory language that specifically addresses 
``throttle'' in the context of electronic control systems to explain 
how the standard applies to electronic control systems.
Low Speed Vehicles
    NHTSA published a final rule establishing a new FMVSS No. 500, 
``Low-speed vehicles (LSV),'' in 1998. This new FMVSS and vehicle 
classification responded to the growing public interest in using golf 
cars and other similarly-sized small vehicles to make short trips for 
shopping, social and recreational purposes primarily within retirement 
or other planned, self-contained communities. These vehicles, many of 
which are electric-powered, offer comparatively low-cost, energy-
efficient, low-emission, quiet transportation. Electric LSVs are also 
known as Neighborhood Electric Vehicles (NEVs). The original definition 
of a LSV excluded trucks--NHTSA is preparing a response, expected this 
summer, to petitions for rulemaking requesting the agency to remove 
that exclusion from the definition. The agency also will conduct 
research to develop performance requirements for safety belts, tires, 
braking and speed determination, leading to an NPRM later in 2003. 
NHTSA published an NPRM on LSV conspicuity in 2002 that proposes 
requiring lights on at all times, a slow moving vehicle symbol, warning 
label, and side marker lamps/retro reflectors, with the Final Rule 
expected in 2004.
VII. Appendix B: Vehicle Safety Information for Consumers
    NHTSA's New Car Assessment Program (NCAP) provides the public with 
comparative vehicle safety information. This program and other vehicle 
safety public information and education activities are crucial 
components in NHTSA's efforts to improve safety on the Nation's 
highways. The agency also spends and distributes to partners 
considerable resources to educate the public about safe highway 
behavior, such as using restraints properly and not driving when 
impaired by alcohol or drugs.
    An effective way to help consumers enhance the market for safety is 
to provide them with more comparative vehicle safety information, 
including crash test ratings and available safety features. 
Increasingly, consumers are demanding such information and are basing 
their purchasing decisions on it. Their choices, in turn, affect the 
extent and speed with which manufacturers incorporate new safety 
features and improved safety performance into their vehicles. Through 
these means, market forces, in lieu of regulations, improve the safety 
characteristics of vehicles on the road. The average number of visits 
to the popular NCAP section of the NHTSA website has increased from 
3,000 per week in 1997 to 40,000 per week in 2003.
    The NHTSA carries out considerable outreach efforts to partner 
private sector organizations and companies to provide vehicle safety 
information to the public and to enhance the market for safety. The 
agency produces and distributes brochures including: Buying a Safer 
Car, which includes comparative (NCAP) ratings and safety features by 
vehicle make/model; Buying a Safer Car for Child Passengers; Adapting 
Motor Vehicles for Persons with Disabilities; Tire Safety Information, 
and child safety seat Ease-of-Use Ratings. On an on-going basis, the 
NCAP program considers additional vehicle safety information that will 
help consumers make informed decisions. A recent example is the planned 
inclusion of information on enhanced safety belt reminder systems in 
NCAP new car safety features.
    NCAP frontal and side impact ratings programs provide crucial 
information to consumers about the relative crashworthiness of light 
vehicles. In FY 2003 testing of about 81 passenger vehicles will cover 
85 percent of new vehicles for these crash modes. The vehicles will be 
split almost evenly between the front and the side. In addition, the 
agency will consider potential changes to its frontal crash NCAP 
parameters to coincide with more stringent requirements under FMVSS No. 
208, which in 2008 will increase the speeds at which vehicles are crash 
tested for compliance with the standard. In MY 2008, the belted 50th 
percentile male test procedure in FMVSS No. 208 will increase from 30 
mph to 35 mph for 26 percent of the vehicle fleet, essentially becoming 
the frontal NCAP test procedure. Traditionally, the frontal NCAP 
testing program has been a more severe test than the standard. NHTSA is 
currently evaluating several test procedure options and is exploring 
ways to revise the frontal NCAP test program. The agency expects to 
publish a Request for Comments in the fall of 2003.
    As with the frontal crash test environment, NHTSA recognizes that 
the U.S. side impact environment has changed significantly in recent 
years. NHTSA plans to issue an NPRM in early 2004 to upgrade FMVSS No. 
214, to address emerging issues in the field such as head injuries in 
side crashes and small occupant protection in side crashes. The NCAP 
side impact testing program is modeled after FMVSS No. 214. As such, 
any changes to FMVSS No. 214 would be evaluated and explored for their 
merit in a consumer information test program. Additionally, NHTSA is 
currently exploring ways to incorporate the head injury data recorded 
during its side impact test into the side impact star rating.
    A demonstration of the dynamic rollover program will evaluate Model 
Year 2003 vehicles, followed by publication of the final test methods 
in the Federal Register. Implementation of the dynamic test program is 
slated for the Model Year 2004 NCAP. Plans are to rate approximately 70 
vehicles for rollover resistance which will provide rollover 
information for approximately 70 percent of the vehicle fleet.
    There are other potential candidates for handling-related NCAP 
information. Many crashes could be prevented if vehicles had greater 
capabilities to maneuver safely around dangerous situations. NHTSA is 
looking at the possibility of providing this additional information on 
vehicle handling after the time frame covered by this plan. The agency 
will develop handling and stability tests for dynamic driving maneuvers 
that could provide more complete NCAP consumer information on handling. 
NHTSA will conduct research in the 2006 to 2007 time frame, to be 
followed by a decision on how to proceed based on the research.
    NHTSA is developing a brake performance program to evaluate 
stopping distances for light vehicles 10,000 pounds and under. A 
demonstration program includes tests for 36 Model Year 2003 vehicles.
    Headlamp performance is a longer-term effort. Following the 
development program for a rating system, the next step is to 
demonstrate a potential rating scheme for NHTSA evaluation of whether 
an NCAP program should be considered.
    Finally, NHTSA implemented ratings of child restraint system (CRS) 
ease-of-use in 2003, and it is pilot testing CRS sled-testing and in-
vehicle programs for future implementation.
A. Consumer Information on Child Restraints 4
    NHTSA's strategy to protect children includes encouraging the use 
of child restraint systems (CRS), ensuring restraints provide optimal 
protection, and providing consumers with useful information on 
restraining their children. Approximately 80 percent of child 
restraints are used incorrectly. The TREAD Act contained several 
provisions that dealt with child restraints. Another provision mandates 
a review of CRS labels and instructions. In response to a provision on 
upgrading the labeling requirements for child restraints, in October 
2002, NHTSA published a Final Rule to improve child restraint labels 
and instructions. Other provisions require the agency to consider 
placing child restraints in vehicles NHTSA crash tests for NCAP and to 
establish a child restraint safety rating consumer information program. 
In November 2002, the agency issued a Final Rule that includes a child 
restraint ease of use safety rating program, the intent to explore a 
dynamic test based on FMVSS No. 213, ``Child Restraint Systems'' and 
the intent to place CRS in the frontal NCAP vehicle test. NHTSA posted 
its first ease-of-use ratings on its NCAP website in June 2003, and it 
expects to provide ease-of-use rating for approximately 95 percent of 
the child restraints on the market in its first year of ratings. In 
2003 and 2004 NHTSA will continue to evaluate the CRS dynamic and 
vehicle child protection pilot programs. Should the results of these 
two pilot programs prove to contain beneficial consumer information, 
NHTSA will issue a notice for a proposed safety rating program.
    Milestones:

  <bullet> Conduct frontal crash tests and sled tests with CRS  2003-4

  <bullet> Final agency decision on crash and sled tests for consumer 
        information  2004

  <bullet> Possible implementation of CRS dynamic and vehicle child 
        protection  2005
B. Consumer Information on Light Vehicle Rollover 4
    In December 1998, NHTSA decided to develop consumer information on 
rollover resistance as an addition to the existing NCAP. Based on 
driving maneuver (dynamic) tests conducted in 1997-98 and published in 
1999, NHTSA decided to use the static stability factor (SSF) measure 
(the relationship between a vehicle's center of gravity height and the 
width of its wheel track) as the measure of rollover resistance. This 
decision was made for a number of reasons: the SSF is a good measure 
for both tripped and untripped rollover; the SSF is highly correlated 
with actual crash statistics; the SSF has the least potential for 
unintended consequences; and the SSF can be measured accurately and 
explained to consumers.
    NHTSA published a Request for Comments in June 2000 on the SSF as 
the basis for a 5-star rating program on the rollover resistance of 
light vehicles. Subsequently, at the request of Congress, we engaged 
the National Academy of Sciences (NAS) to do a study of the SSF rating 
and the use of 5-star ratings for rollover resistance. The NAS study, 
which NHTSA received on February 20, 2002, concluded that the SSF was a 
valid measure but recommended dynamic rollover ratings as a valuable 
supplement to the SSF.
    In an additional development, the TREAD Act directs NHTSA to 
develop a dynamic test to rate light vehicle rollover resistance, and 
to carry out such tests by November 2002 and disseminate the results to 
the public. The agency began extensive research in April 2001 in 
support of TREAD, and completed research in December 2002. An NPRM was 
published in October 2002 announcing the proposal for the dynamic test.
    Milestones:

  <bullet> Begin dynamic rollover resistance demonstration test program  
        2003

  <bullet> Final Rule, Dynamic Rollover Rating Program for NCAP  2003

  <bullet> Publish combined SSF/dynamic rollover ratings  2004
C. Consumer Information on Braking Performance
    NHTSA has been conducting vehicle braking and consumer focus group 
testing to identify a test protocol for providing consumers with 
comparative brake performance information for light vehicles. The 
program, which includes measurements for stopping distance and ABS 
performance at speeds of 60 mph on different road surfaces, has the 
potential to improve vehicle brake performance through market forces. A 
Request for Comments on the braking NCAP test procedure was published 
July 17, 2001.
    If successful tests can be developed, program vehicles from the 
NCAP static and dynamic rollover tests would be evaluated for braking 
performance. A compilation of test results would provide comparison 
information for similar models of vehicles within a vehicle category 
and also highlight differences between major categories of light 
vehicles.
    Milestones:

  <bullet> Brake performance demonstration program  2003

  <bullet> Final agency decision on brake performance ratings 
        information  2004
D. Consumer Information on Light Vehicle Headlighting Performance
    NHTSA hopes to establish a headlighting NCAP-type system to provide 
consumers with information that will influence a safer vehicle 
purchase. NHTSA believes that the roadway illumination and glare 
performance of the lower and upper beams should be rated relative to 
their compliance robustness and the consumer pleasing aspects of the 
resultant illumination. If the agency proceeds with this program, it 
hopes to progress in time to collect and publish MY 2005 data.
    Milestones:

  <bullet> Protocol development, testing, and test data analysis  2003

  <bullet> Decision on whether to provide headlighting ratings, pending 
        results of testing 2004
E. Summary Safety Score
    In response to the National Academy of Sciences Shopping for Safety 
report, and in the interest of providing the most comprehensive vehicle 
safety information to consumers, NHTSA embarked on the development of a 
summary safety score using NCAP frontal, side, and static stability 
factor ratings (when the SSF ratings became available in 2001). 
Subsequent to the initial investigation of the methodology and analysis 
using NCAP results and real world data, it was determined to wait for 
final development of the measure until the dynamic rollover ratings 
were available and a feasible measure of vehicle aggressivity is 
developed. NHTSA will finalize the combined rating following completion 
of these elements. NHTSA will revise the summary safety score as 
necessitated by future (beyond the time frame for this plan) changes to 
FMVSS Nos. 208 and 214 crash tests, and new ratings programs, if any, 
added to NCAP.
    Milestones:

  <bullet> Publish latest version of Vehicle Size and Safety report  
        2003

  <bullet> Publish final notice on the dynamic rollover rating program  
        2003

  <bullet> Conduct development work incorporating dynamic rollover 
        ratings  2004

  <bullet> Final decision whether to incorporate a Summary Safety Score 
        into the consumer information program  2005-2006
VIII. Appendix C: Regulatory Review Plan Description
    The Regulatory Review Plan was developed in 2002. On a seven year 
cycle, each FMVSS is subjected to the following assessment components 
to determine the need to update and/or upgrade the standard.
    A. Safety Problem Assessment--NHTSA databases and other data are 
explored to identify safety problems that could be addressed through 
revised performance requirements for vehicle systems. Sources may 
include FARS, NASS, GES, Office of Vehicle Safety Compliance, and 
Office of Defects Investigation data, and other sources such as 
manufacturer data and technical reports.
    B. Other Societal Factors--A listing is included of other societal 
factors that might influence the need to amend a FMVSS or develop a new 
FMVSS. Factors may include: demographics (e.g., growth in certain 
population groups such as older drivers and passengers), societal 
values (e.g., protection of children), or vehicle safety problems in 
certain areas of the country (e.g., low speed vehicles)
    C. Technology, Enforceability and Other Standards Review--The 
technology review focuses on developments in the system(s) affected by 
the subject standard in the past 10 years, prospects for the immediate 
future (5 years out) and prospects for the longer term future (5+ 
years). Enforceability problems and issues of current standards are 
reviewed. A listing and brief description also is included of other 
standards related to the vehicle systems addressed by the FMVSS. These 
may include national and international standards (ECE, Canada, etc) or 
voluntary industry consensus standards (ISO, SAE, ASTM). Information 
sources may include manufacturers, suppliers, industry organizations, 
published sources, the Internet, and site visits.
    D. Summary Regulatory Review Report--The results of Sections A., B. 
and C. are combined into a summary report. The report includes an 
additional section, Recommendations, which also provides the reasoning 
and underlying bases for the recommendations on the need for (and 
recommended time frames) for updating and/or upgrading the standard.
Endnotes
    r ITS/IVI Initiatives
    n Harmonization issues
    v Office of Vehicle Safety Compliance enforceability issues
    4 TREAD issues

    Senator Smith. Thank you, Doctor. I think you're obviously 
showing you're making lots of progress and that there's more 
work to be done.
    Are you familiar with some of the testimony that will be 
submitted in the next panel, and if so, are you familiar with 
this color-coded tire and do you have an opinion about that?
    Dr. Runge. Well, I've not seen the testimony, but I did 
meet with the manufacturers of that technology earlier this 
year, and it certainly seems like it shows great promise toward 
showing evidence of tread wear. I did speak with the company at 
that time and told them that it looked like a wonderful 
opportunity to let the market work, that I might even be 
interested as a consumer instead of kneeling down looking for 
the bridge or putting a penny in the tire, actually to have a 
color change that will tell me when it's time to change tires.
    So I did see that this--I did not think this was right for 
regulation, however, but it certainly looked promising in the 
marketplace.
    Senator Smith. ARTEMIS has received criticism from consumer 
groups as well as DOT's Office of Inspector General for not 
having the analytical tools necessary to track motor vehicle 
defect trends. Is this criticism warranted in your view?
    Dr. Runge. No, sir, I don't believe that it is. I don't 
know how much history you want me to tell you about this, but 
when ARTEMIS was initially envisioned, it was proposed that 
there would be a brain inside the software that would 
automatically detect outliers in the data. NHTSA was under a 
tremendous amount of time pressure to come up with a system de 
novo, and so not having any experts in database design or 
development, we contracted with a contractor that we already 
had on contract who began to work on this on a cost-plus basis.
    It became apparent after about a year that this was not 
going to work, that cost-plus was simply not the way to go 
here, and when we--in the process of our reorganizing the 
agency, I was able to hire a CIO. In addition, we had a 
consultant come on board to give us some advice as a third 
party on this, and it became apparent that off-the-shelf 
software could do the job of surveillance as well as an 
embedded part of ARTEMIS that would require maintenance by the 
contractor on an ongoing basis and be much more expensive.
    So we have actually had an employment action in place now 
to find a math statistician, someone who understands SAS 
programming and analysis. We have collaborated with the CDC, 
with the Consumer Product Safety Commission, and currently with 
the FAA on developing a tool that will do this data mining for 
us.
    The first part of this was simply to get all of this new 
early warning data into a data system where we could readily 
find the information that we needed, and we've done so, not 
without a bit of pain and a bit of cost overrun, but it is 
turned around, it's right side up now, and I just don't agree 
with the assertion that we can't do data analysis and 
surveillance using off-the-shelf software. I think that's 
wrong.
    Senator Smith. One of the only rulemakings yet to be 
implemented by NHTSA under the TREAD Act is the tire pressure 
monitor requirement, and can you give us a status report on 
that?
    Dr. Runge. Mr. Chairman, we issued a final rule on tire 
pressure monitoring and the--most of the people in this room 
are very familiar with the saga of that rule. There were 
basically two ways we could go, and the Administration chose to 
go the way of a system that would satisfy the statutory 
requirement, but was not the more expensive system. The agency 
was successfully sued, and a judge, a Federal court judge, told 
us that we needed to put a system in our regulation that would 
detect one, two, three, or four tires that was deflated by 25 
percent or more.
    We are now in the process of redoing that rule. The 
analysis is a couple of years old. The new final rule would be 
significantly different from the old final rule, and therefore, 
requires us to issue a new NPRM, notice of proposed rulemaking. 
We have redone the analysis and that should be ready in a 
couple of months.
    Senator Smith. My only other question relates to the 
criticism that your rulemaking is precluding third parties from 
seeking defect information under Freedom of Information Act as 
it relates to ARTEMIS. How do you respond to the criticism 
you're putting the automobile industry ahead of consumers?
    Dr. Runge. Well, it's interesting, you can ask the 
automobile industry when they get up there. I don't think they 
feel that way. We walked a very fine line between protecting 
information that would cause competitive harm if it were made 
public and putting data together that is already public into a 
format that would be readily available to the public.
    Ultimately, we are working now through some petitions for 
reconsideration, and therefore, the information that we said 
would be public is not yet public. This will probably 
ultimately be decided by the courts. This is a--not a matter of 
policy so much as it is a matter of law, and that is what the 
statute actually says, and that's sort of out of my area of 
expertise. My Chief Counsel is working on it diligently.
    Senator Smith. Doctor, thank you very much for your time. 
We apologize again for the Senate voting schedule. We 
appreciate the work that you do.
    Dr. Runge. Thank you very much.
    Senator Smith. We'll call forward our second panel: the 
Honorable Bruce Starr, Oregon State Senator; Mr. Robert 
Strassburger, Vice President of Safety and Harmonization, 
Alliance of Automobile Manufacturers; Mr. Donald B. Shea, 
President and CEO of Rubber Manufacturers Association; and Ms. 
Joan Claybrook, President of Public Citizen.
    Thank you all for being here, and again, I sincerely 
apologize to you for having to wait, and I would ask your 
indulgence if you can state the essence of your testimony. We 
want to hear from all of you, it's very important, and your 
full testimony will be included in the record. And we'll start 
with Senator Starr.

                STATEMENT OF HON. BRUCE STARR, 
             OREGON STATE SENATOR, SMART TREAD, LLC

    Mr. Starr. Thank you, Senator Smith, for inviting Smart 
Tread to testify today on this critically important public 
safety matter. Your interest in tire safety is greatly 
appreciated in Oregon and throughout the country. I'd like to 
ask that my written testimony be entered into the record.
    Senator Smith. Without objection.
    Mr. Starr. Thank you. Smart Tread, LLC, is a small company 
in Portland, Oregon, founded in May 2003. Smart Tread's vision 
is to develop technology and promote ideas that save lives and 
prevent injuries by improving traffic safety on public roads 
and highways. Smart Tread's mission is to improve traffic 
safety by helping to remove dangerously worn tires from our 
public roads and highways. The best method to achieve this goal 
is the implementation of a system that everyone can easily 
identify and leaves no ambiguity for the driver or other 
highway users.
    One such option would be to use colored rubber within the 
tire tread to automatically alert the owner when their tires 
are unsafe. With this system in place, enforcement officials 
and consumers alike are given the tools to identify and remove 
from service dangerously worn tires.
    As you've heard from Dr. Runge, with the passage of the 
TREAD Act in 2000, Congress paved the way for improved road and 
tire safety. Since the TREAD Act was enacted, the National 
Highway Traffic Safety Administration has undertaken a series 
of rulemaking activities. As you've heard, NHTSA has completed 
11 of those 12 final rules. Work on the tire pressure warning 
system rule is ongoing. Overall, 41 out of the 43 requirements 
laid out in the TREAD Act have been completed, an enormous 
success traced back to the efforts of the Administration, 
safety advocates, and tire and auto manufacturers.
    Even with all of these improvements, and despite the 
additional educational outreach efforts by the government and 
industry, over 43,000 people lose their lives on America's 
roads and highways every year, and nearly 3 million people are 
injured. The pain and suffering of these families is tremendous 
and cannot adequately be expressed in words or calculations.
    Additionally, the economic cost of this problem is 
enormous. These injury and deaths cost over $230 billion or 2.3 
percent of GDP. Moreover, bald tires are 1\1/2\ to 1.8 times 
more likely to be underinflated. The cost of underinflated 
tires and lost fuel efficiency is in the billions, and we are 
acutely aware of the need for fuel efficiency as the price of 
gasoline has soared in recent months throughout the country.
    Tires play a critical role in the safety of drivers and 
passengers. Tire tread channels water in wet or slushy 
conditions, enhances traction in snowy conditions, and protects 
the casing from puncture and potential tire blowout. Low tire 
tread is a primary cause of hydroplaning. The tread depth on a 
typical new tire that's sold today is \10/32\ of an inch. 
According to a recent Consumer Reports study, a tire with only 
\5/32\ of an inch, or half its tread remaining, has a 
measurable decrease in function when driven in snow or rain.
    Industry and government efforts to educate the public on 
tire safety, including monthly checks of tire pressure and tire 
tread, are extensive, yet over half of all drivers cannot 
identify a wear bar, two out of three drivers do not know how 
to judge when a tire is bald, and 9 percent of the vehicles on 
the road today have at least one bald tire. This failure does 
not rest with the tire or auto industry or government. Rather, 
the problem is human nature. We all lead busy, hectic lives, 
and unfortunately, too many of us and our loved ones do not 
perform the simple steps it takes to make sure our tires are 
safe. Government and industry should seek out practical ways to 
empower consumers and to take responsibility for the 
maintenance of their tires.
    Smart Tread's solution is simple and will be effective. The 
Smart Tread solution builds a safety message into every tire. 
If I can turn your attention to the photograph here, by 
utilizing existing technology, we propose to embed a two-color 
system directly into the tire tread. When the first warning 
color appears, a driver knows to slow down and allow more time 
for stopping in wet road conditions. Some drivers may even 
decide to replace their tires at this point. Following the 
warning, the yellow warning color, a red ply would be inserted 
at \2/32\ of an inch, the point at which the tire is bald, no 
longer safe, or legal to be on the road.
    Smart Tread's ultimate goal is the same as others here 
today, to save lives and reduce injuries on our Nation's 
roadways. This hearing moves us toward that goal and we are 
thankful to be here today with this group of transportation 
professionals and have the opportunity to share our vision with 
you. Thank you.
    [The prepared statement of Mr. Starr follows:]

       Prepared Statement of Bruce Starr, Oregon State Senator, 
                            Smart Tread, LLC
    Thank you, Senator Smith, for inviting Smart Tread to testify today 
on this critically important public safety matter. Your interest in 
tire safety is greatly appreciated in Oregon and throughout the 
country.
    I would like to ask at this time that my written testimony be 
submitted into the record.
    Smart Tread, LLC is a small company in Portland, Oregon founded in 
May 2003. Smart Tread's vision is to develop technology and promote 
ideas that save lives and prevent injuries by improving traffic safety 
on public roads and highways. The company is held by the five founding 
members, the Safe and Sound Trust, and a group of individual, like-
minded investors.
    Smart Tread has undertaken a mission to improve traffic safety by 
helping to remove dangerously worn tires from our public roads and 
highways. The best method to achieve this goal is the implementation of 
a system that everyone can easily identify and that leaves no ambiguity 
for the driver or other highway users. One way to accomplish this is to 
standardize a system of tread wear identification that everyone can 
understand. One such option would be to utilize colorized rubber at 
levels within the tire tread to automatically alert the owner when 
their tires are unsafe. With such a system in place, dangerously worn 
tires can be easily identified, and can be removed from service before 
they cause injuries or fatalities on the highways.
    Over 50 percent of the company's profits will go to the Safe and 
Sound Trust, a non-profit organization, which has dedicated itself to 
child safety and children's issues. Smart Tread's founders have decided 
to reinvest over half of any of the company's profits back into the 
community, specifically focusing on improving the lives of children and 
their families in the following areas:

  <bullet> Vehicle safety;

  <bullet> Safety in the home;

  <bullet> Education;

  <bullet> Health; and

  <bullet> Poverty.

    With the passage of the TREAD Act in 2000, Congress paved the way 
to improved road and tire safety. Your dedication to securing America's 
highways through this critical piece of legislation has resulted in a 
number of accomplishments. Thank you, again, Mr. Chairman for holding 
this very important hearing today as you examine those accomplishments 
and look to the future on important transportation safety issues and 
the role that technology can play in enhancing highway safety.
    Since TREAD Act was passed in November 2000, the National Highway 
Traffic Safety Administration (NHTSA) has undertaken a series of 
rulemaking activities. According to NHTSA,\1\ the agency has 
promulgated 11 final rules including rules dealing with:
---------------------------------------------------------------------------
    \1\ TREAD Milestones, NHTSA website, May 18, 2004.

---------------------------------------------------------------------------
   1.  Reporting of defects in foreign countries;

   2.  Early warning reporting requirements;

   3.  Sale or lease of defective or noncompliant tire;

   4.  Civil penalties;

   5.  Criminal penalties;

   6.  Acceleration of manufacturer remedy program;

   7.  Sales of replaced equipment;

   8.  Endurance and resistance standards for tires;

   9.  Improved tire information; and

  10.  Two rules dealing with improving the safety of child restraints

    The rulemaking process for a tire pressure warning system was 
completed, but has since been struck down in the courts. A new 
rulemaking process is now underway.
    In addition, NHTSA has provided a number of reports to Congress 
that address important traffic safety topics including child restraint 
rating systems and rollover crash tests. Overall, 41 out of the 43 
requirements laid out by the TREAD Act have been completed, an enormous 
success traced back to efforts by the Administration and tire and auto 
manufacturers. Tire and auto manufacturers have also spent a great deal 
of time, resources and energy implementing the new standards developed 
as a result of the TREAD Act.
    Even with all of these improvements, and despite additional 
educational outreach efforts by the government and industry, over 
43,000 people lose their lives and more than three million people are 
injured on our Nation's highways each year.\2\ NHTSA reports that 
approximately 215 deaths each year result from tire failure.\3\ Many 
more people are injured.
---------------------------------------------------------------------------
    \2\ NHTSA, Feb. 2003 testimony before the Senate Commerce 
Committee.
    \3\ NHTSA reports that .5 percent of all fatal vehicle accidents 
are due to tire blowouts. Final Economic Assessment: Tire Pressure 
Monitoring System. FMV SS#138, Office of Regulatory Analysis and 
Evaluation Plans and Policies, March 2002.
---------------------------------------------------------------------------
    We all understand the critical role a tire plays in the safety of 
drivers and passengers on the road. Tire tread channels water in wet or 
slush conditions, enhances traction in snowy conditions, and protects 
the casing from puncture and a potential tire blow out.
    The number of hydroplaning accidents caused by low tire tread is 
not presently reported. Nonetheless, it is clear that low tire tread is 
the primary cause of hydroplaning.\4\ A typical new tire sold now has 
\10/32\ of an inch of tread depth. According to a recent Consumer 
Reports study, a tire with only \5/32\ of an inch of remaining tread 
has a significant decrease in function if driven in rain or snow.\5\ As 
the TREAD Act is fully implemented, reporting to the Fatality Analysis 
Reporting System (FARS) is enhanced, and the accuracy of accident 
reconstruction and reporting improves, we can only expect the reported 
number of tire-related deaths to increase.
---------------------------------------------------------------------------
    \4\ Conswner Reports, March 2003.
    \5\ Conswner Reports, March 2003.
---------------------------------------------------------------------------
    Americans continue to be encouraged to do a regular monthly check 
of their tire pressure and tire tread. The industry's efforts to 
educate the public on tire safety are extensive and Smart Tread 
commends the Administration and the industry for their efforts. Yet, 
research demonstrates that consumers are not diligent in this regard. 
Nine percent of vehicles on the road today have at least one bald 
tire,\6\ two out of three drivers do not know how to judge when a tire 
is bald,\7\ and over half cannot identify a wear bar.\8\ Simply put, 23 
million cars are on the road with dangerous tread wear, and most of 
those drivers have no idea that their tires are unsafe. This failure 
does not rest with the tire or auto industry or the government.
---------------------------------------------------------------------------
    \6\ DOT HS 809 359, October 2001.
    \7\ RMA Tire Safety Fact Sheet 2004.
    \8\ RMA Survey, February 2002 (FrederickPolls).
---------------------------------------------------------------------------
    Rather, the problem is human nature. Americans have busy, hectic 
lives and are unwilling to take the time to get out of their cars and 
check the tire pressure with the tire pressure gauge, which they 
typically do not have on hand. Even if consumers understood the penny 
test, they seem unwilling to put it to use on a regular basis or 
visually search for the wear bar in a routine way.
    In this world of ever-changing technology, we have seen a number of 
very successful safety features incorporated into automobiles that have 
saved tens of thousands of lives. The most highly recognized and 
effective of these have been the seat belt and air bags.
    Statistics from the U.S. Department of Transportation, Bureau of 
Transportation Statistics report that from 1975 to 2001 the use of seat 
belts saved 147,246 lives.\9\ It is estimated by the Click It Or 
Ticket/Operation ABC (America Buckles Up Children) campaign that the 
use of seat belts now saves 14,000 lives each year and about $50 
billion in medical care, lost productivity and other injury related 
costs.\10\ Clearly, the use of seat belts has had a tremendous impact 
on vehicle safety, but the effort to get people to buckle up continues. 
In a presentation given March 5, 2004 as part of the Distinguished 
Lecture Series at Ford Motor Company, the director of the National 
Center for Statistics and Analysis revealed that seat belt use 
increased from 75 percent in 2002 to 79 percent in 2003. This was the 
largest increase in seat belt use seen since the DOT began to track 
such use. This increase in seat belt use is largely attributed to the 
Click It Or Ticket/Operation ABC campaign sponsored by NHTSA, the 
National Transportation Safety Board, Mothers Against Drunk Driving and 
the Airbag & Seat Belt Safety Campaign. More than 12,000 law 
enforcement agencies are participating in this campaign today as the 
2004 public outreach effort runs from May 24 through June 6.
---------------------------------------------------------------------------
    \9\ National Transportation Statistics 2003, Bureau of 
Transportation Statistics, Table 2-30.
    \10\ Click It or Ticket/Operation ABC Press Release, May 2004.
---------------------------------------------------------------------------
    Air bags are credited with saving 8,369 lives between 1990 and 
2001.\11\ The technology used for air bags continues to improve as side 
air bags are now becoming standard on more vehicles and air bag 
inflation levels can adjust automatically based on different crash 
forces, occupant seat position and occupant restraint use.
---------------------------------------------------------------------------
    \11\ National Transportation Statistics 2003, Bureau of 
Transportation Statistics, Table 2-30.
---------------------------------------------------------------------------
    New technologies focus on all aspects of the vehicle. For example, 
side crash bars have become an added safety feature in the construction 
of automobiles. The use of computerized technology in automobiles has 
dramatically changed the way vehicles operate. Auto mechanics now run 
diagnostic reports to check our engine function and emission controls. 
We can get real-time fuel efficiency information as we travel down the 
road. On-board GPS systems make navigation easier. Everything from 
interior climate control to back-up warning systems are all controlled 
by computer.
    Technological advances in automobiles have been tremendous, and 
will continue as new and better ideas are advanced. The automotive 
industry has worked diligently with NHTSA and other private sector 
actors to develop new technologies and adopt new safety standards for 
automobile. The innovation found in the private sector has no bounds 
and should continue to be encouraged by this body and others.
    An integral part of every vehicle, tires are highly engineered, 
manufacturing marvels specifically designed for superior handling, 
traction on wet and dry surfaces, and a smooth and quiet ride. Tire 
manufacturers work continually to develop newer and improved safety 
features. The tread life of a tire has increased dramatically over the 
years, and the run-flat system is one of the newest safety features 
developed for tires.
    Michelin and Goodyear have both introduced Radio Frequency Tire 
Identification (RFID). The Michelin system utilizes a tiny transponder 
cured directly into the tire. The transponder can store vital tire 
identification information such as when the tire was made, the maximum 
inflation pressure, tire size, and the vehicle identification number of 
the vehicle on which it is mounted. Goodyear's TireIQ system relays 
specific tire information to drivers through the computer chip and 
sensor built into the tire. This system will warn the driver when 
improper inflation is detected. Goodyear is also looking at using the 
RFID system in its supply-chain operations by being able to track 
exactly where each tire is at all times. To insure consumer privacy, 
the RFID would be disabled at the point of sale.
    Nokian Tyres of Finland has developed an all-weather tire that 
incorporates what they call their ``driving safety indicator.'' This 
indicator is a series of numbers that are siped down the center of the 
tread. The numbers indicate the depth of remaining tread. For example, 
when the tire is new you will see the numbers eight, six and four on 
the tire. As the tread wears, the number eight will disappear, followed 
by the six and so on.
    A 2004 survey, conducted by the Rubber Manufacturers Association, 
shows that two out of three drivers still do not know how to tell if 
their tires are bald.\12\ A bald tire is defined as a tire with only 2/
32 of an inch of remaining tread depth.\13\ According to NHTSA, nearly 
one in 10 vehicles on the road have at least one bald tire.\14\ NHTSA 
projects that in 2003 there were 230,199,000 registered vehicles.\15\ 
That translates into nearly 23 million vehicles with at least one bald 
tire--a tire that is unable to function well in wet road conditions, a 
tire that is susceptible to puncture and blow out, and a tire that has 
a higher chance of being under-inflated. This is a dangerous situation 
that must not be ignored.
---------------------------------------------------------------------------
    \12\ RMA Tire Safety Fact Sheet 2004.
    \13\ DOT HS 809 359, October, 2001.
    \14\ DOT HS 809 359, October 2001.
    \15\ NHTSA 2003 Early Assessment Estimates of Motor Vehicle 
Crashes.
---------------------------------------------------------------------------
    Smart Tread's solution is very simple and it will be extremely 
effective. Utilizing existing technology, we propose to embed color 
directly into the tire tread. This can be done at any depth, but we 
recommend placing a yellow strip at 4/32 of an inch. This ``warning'' 
color will visually appear when the tread reaches that particular 
depth. The driver does not need to measure tread depth, because the 
color will automatically appear. At this point the driver knows to slow 
down and allow more time for stopping in wet road conditions. When the 
warning color emerges, some drivers may decide to go ahead and replace 
their tires depending on the time of year and their anticipated driving 
needs. Following this yellow warning, a red ply would be inserted at 
\2/32\ of an inch-the point at which the tire is bald and no longer 
safe to be on the road.
    This simple warning system will go a long way toward makit.6 our 
roads safer from tire blowouts and hydroplaning accidents.
    As I mentioned earlier, the technology already exists to utilize 
this color scheme. Michelin currently makes a tire for use on F5 and 
F16 Fighter jets. A red ply is inserted in various layers of this 
tire--which layers receive the red ply depend on the model of aircraft 
and the function of the tire (nose tire or main tire). When the color 
is visible, the ground crew knows to replace the tire.
    BF Goodrich produces a tire they call the ``Scorcher.'' This 
boutique tire has tread available in black, yellow, red or blue. BF 
Goodrich has also developed prototype tires for General Motor 
Corporation's Hummer vehicle that incorporates the use of color in the 
tread. The H3T prototype tire features a red line down the center that 
is designed for improved traction.
    In October 2001, JK Tyre of India launched an ``eco-friendly'' 
silica radial tire. The tire is called ``eco-friendly'' because silica 
lowers rolling resistance, which results in higher fuel efficiency. As 
part of its branding effort for this tire, JK Tyre uses green colored 
tread blocks in the tread. JK Tyre also attributes longer durability to 
the use of hyper bonding silica technology. These tires are currently 
on the market in India.
    Clearly, the technology is available to implement this simple 
safety feature for visually identifying tread wear. Smart Tread has 
been working with the Akron Rubber Development Lab (ARDL) to build 
sample tires for visual demonstration and testing. As you have seen in 
our presentation, tires with embedded color have been produced and 
initial testing results have demonstrated that tires with the universal 
tread wear identification system we propose perform as well as current 
black carbon tires. Of course, more study is needed and Smart Tread 
will work closely with NHTSA and the industry to ensure that the 
highest standards are met.
    When someone dies in a vehicle accident, no matter the cause, it is 
devastating to those left behind. Mr. Chairman, just recently in 
Oregon, five members of a family were tragically killed when the right 
rear tire on their car blew out. The out-of-control car careened into 
the path of an oncoming pickup truck. All five were pronounced dead at 
the scene. The family had been on an outing to pick up Easter supplies 
for their church. Killed in the accident were a 60-year-old woman, her 
25-year-old daughter, two granddaughters who were 18 and two, and a 
three-year-old great-granddaughter.\16\
---------------------------------------------------------------------------
    \16\ The Columbian, pg. C2, April 13, 2004.
---------------------------------------------------------------------------
    Last September, on Oregon State Highway 38 near Roseburg, a tanker 
containing more than 11,000 gallons of gasoline blew a tire, igniting a 
fire and stopping traffic for over two hours. Thankfully, there were no 
injuries.\17\
---------------------------------------------------------------------------
    \17\ Associated Press Newswires, September 9, 2003.
---------------------------------------------------------------------------
    Could these tire blowouts have been avoided? Possibly.
    These tragic stories are not limited to Oregon, but indeed can be 
found throughout the country. The tragedies described below highlight 
the danger related to blowouts and hydroplaning--which in many cases 
are attributed to insufficient tread.

  <bullet> In February, the Topeka Capital Journal described the 
        testimony of Ron Alexander in front of the State Senate 
        Transportation Committee. Alexander's 15-year-old daughter was 
        killed in 1998 when the church van in which she was riding blew 
        a tire and rolled three times on Interstate 70 near Junction 
        City.\18\
---------------------------------------------------------------------------
    \18\ IHTopeka Capital Journal, pg. C3, February 25, 2004.

  <bullet> The Chicago Daily Herald reported that an Aurora woman was 
        killed and a Batavia woman was hospitalized when one of the 
        cars hydroplaned on a wet road, spun out of control and crashed 
        into the other car.\19\
---------------------------------------------------------------------------
    \19\ Chicago Daily Herald, pg. F3, March 27, 2004.

  <bullet> A 19-year-old was killed and two 18-year-olds were injured 
        recently in Schaumburg, Illinois when their car hydroplaned on 
        the wet street and crashed into a traffic light pole.\20\
---------------------------------------------------------------------------
    \20\ Chicago Daily Herald, Cook, Lake, pg. 3, March 6, 2004.

  <bullet> Last September, the Las Vegas Sun described how a truck 
        carrying fertilizer and diesel fuel spilled its potentially 
        explosive cargo along Interstate 15 in Nevada, forcing 
        officials to dose the highway for six hours. The truck crashed 
        after the driver's side front tire blew out.\21\ Although there 
        were no injuries in this accident, the potential for a 
        catastrophic disaster from the explosive nature of the spilled 
        cargo became appallingly clear.
---------------------------------------------------------------------------
    \21\ Las Vegas Sun, pg. 2, September 17, 2003.

  <bullet> Nearly a year ago a Las Vegas woman lost control of her van 
        north of Barstow, California when a tire blew out. Her 8-year-
        old passenger was killed in the rollover accident. Traffic on 
        Interstate 15 was backed up four to six miles in each 
        direction.\22\
---------------------------------------------------------------------------
    \22\ The Press Enterprise, pg. B6, August 3, 2003.

  <bullet> A May 7, 2004 article, from The Press Enterprise, describes 
        the death of a 56-year-old businessman less than one mile from 
        his home. A rear tire blew out causing the car to roll.\23\ He 
        was pronounced dead at the scene.
---------------------------------------------------------------------------
    \23\ The Press Enterprise, pg. B3, May 7, 2004.

  <bullet> Last month, The Los Angeles Daily News described an accident 
        that left a 14-year-old boy dead. The boy was in a minivan 
        bound for Magic Mountain when a tire blew causing the van to 
        roll. Also injured in the accident were three teenage 
        girls.\24\
---------------------------------------------------------------------------
    \24\ Los Angeles Daily News, pg. AV1, April 26, 2004.

  <bullet> Two weeks ago, a Florida newspaper chronicled the lives of 
        two high school students who, a year ago, were involved in a 
        rollover crash as a result of a blown tire. The SUV they were 
        riding in rolled six to eight times. The driver, one of their 
        friends, was killed in the accident and both boys suffered 
        extensive injuries.\25\
---------------------------------------------------------------------------
    \25\ Sarasota Herald-Tribune, pg. C1, May 18, 2004.

  <bullet> A Washington state jury issued a multi-million dollar award 
        to a family whose minivan tire blew out, causing the van to 
        roll in an accident eight years ago near Chehalis. The jury 
        decided that the maker of the tire, Michelin, was not at fault 
        for the tire blow out. Instead, the jury found against the 
        father, who was ``negligent in failing to maintain the tire in 
        proper working order.'' The man's Canadian insurance company is 
        liable for the judgment. The blown out tire resulted in 
        extensive injuries to the five children and two parents in the 
        van.\26\
---------------------------------------------------------------------------
    \26\ Vancouver Sun, pg. B1, April 24, 2004.

  <bullet> A Port Townsend woman was killed on Interstate 5 near 
        Mayton, Washington when her station wagon veered across the 
        median into oncoming traffic. A tractor-trailer smashed into 
        her car and split the vehicle in two. State Patrol 
        investigators suspect the woman lost control of her car when it 
        hydroplaned on the wet road. Three others were injured in the 
        accident.\27\
---------------------------------------------------------------------------
    \27\ The Olympian, pg. B1, November 20, 2003.

  <bullet> In Lebanon Township, New Jersey an 18-wheeler crossed the I-
        78 median into oncoming traffic where it struck a car and 
        knocked another tractor-trailer into the woods. The November 
        2002 accident was caused by a tire blowout and the truck driver 
        was killed.\28\
---------------------------------------------------------------------------
    \28\ Courier News, pg. B2, April 14, 2004.

  <bullet> In Arizona, a tire blowout accident on Interstate 19 left a 
        10-year-old girl dead, and her father with internal injuries. 
        The left rear tire of the family's Ford SUV blew out causing 
        the SUV to roll.\29\
---------------------------------------------------------------------------
    \29\ The Arizona Daily Star, pg. B4, April 16, 2004.

  <bullet> In February a 19-year-old Army Reservist was killed after a 
        tire on the Humvee in which she was riding blew out causing the 
        vehicle roll on Interstate 10 in Tucson, Arizona. The vehicle 
        then burst into flames.\30\
---------------------------------------------------------------------------
    \30\ The Tucson Citizen, pg. 1A, February 9, 2004.

  <bullet> In 2000, eight people died on Interstate 26 near Chapin, 
        South Carolina when a delivery truck blew a tire and veered 
        across the median into a sport utility vehicle packed with 
        people headed for vacation.\31\
---------------------------------------------------------------------------
    \31\ Sun-News, TSN, pg. 4, July 24, 2003.

    These are the tragedies that must compel us toward a standardized 
visual tread wear identification system-a system that is uniform and 
easy for all to understand.
    Over the course of the past nine months we have shared our vision 
with a number of businesses, associations and elected and appointed 
officials. We have spoken to Secretary of Transportation Norman Mineta, 
NHTSA Administrator Dr. Jeffrey Runge, key leaders in the tire and auto 
industry and a number of other organizations. We shared our unique idea 
with these groups and discussed ways in which we can make even more 
progress in eliminating highway deaths and injuries. We look forward to 
a continued relationship with the tire and auto industry as we jointly 
strive to enhance the safety of America's roads.
    Smart Tread's ultimate goal is the same as so many others here 
today-to save lives and reduce injuries on our nations roadways. This 
hearing moves us toward that goal and we are incredibly thankful to 
share our vision with you.
    We thank you, again, for this opportunity to present our idea to 
you today.

    Senator Smith. Bruce, the yellow knobs are the top of the 
tread, right?
    Mr. Starr. That's correct. This tire is one, it's a 
prototype that we had built, and it's worn down to show the 
yellow color, much like it would be if our technology was 
adopted. It's pretty clear when you look at it.
    [Yellow color on tire is shown here.]
    Senator Smith. It really is. Can a consumer figure out that 
the tire's not inflated right by that, or out of alignment, and 
what does that mean for mileage?
    Mr. Starr. Absolutely. This is another benefit of this idea 
is as a tire wears, you can see certain things about your car, 
whether the car is out of alignment, whether your tires are 
overinflated or underinflated just based on the way that the 
tire wears, and this would be another positive benefit of 
having this kind of innovation in tires.
    Senator Smith. I don't know a lot about rubber, but is 
there a different type of rubber color, and is there any 
splitting or any safety issue using different colors?
    Mr. Starr. That's an outstanding question, Senator, and 
what we have is we have examples today of tire manufacturers 
that have used color in tires today. Mostly they used colored 
silica-based rubber, and because we have the examples of what 
tire manufacturers are already doing, we know that this kind of 
process can work. The tires that our manufacturers have out 
there today obviously meet Department of Transportation 
standards.
    We're suggesting that they use the technology in a way that 
would benefit the driving public so that everyone would know 
when their tires aren't safe. Two examples quickly. Michelin 
has a tire that they've manufactured for aircraft, and what 
that is, is they have a layer of red rubber when the tire 
wears. They know that they see the red, the tire's ready to be 
replaced. B.F. Goodrich as well has a tire called the 
``Scorcher'' that has colored rubber running vertically through 
the tire. These are just two examples of tire manufacturers 
that are using colored rubber in their tires.
    Senator Smith. Very good. Thank you, Bruce.
    Mr. Starr. Thank you.
    Senator Smith. Mr. Strassburger.

 STATEMENT OF ROBERT STRASSBURGER, VICE PRESIDENT, SAFETY AND 
 HARMONIZATION, ALLIANCE OF AUTOMOBILE MANUFACTURERS (ALLIANCE)

    Mr. Strassburger. Thank you, Mr. Chairman. I'll try to be 
brief with my statement.
    Senator Smith. You don't need to be anymore. I have been 
spared presiding at 4. I mean, I don't think you want to be 
here all afternoon, but you don't need to be in as big a rush, 
so it's still probably advisable to say what you need to 
without going too long.
    Mr. Strassburger. OK, thank you. Today we can be proud that 
consumers are benefiting from the greatest array of vehicle 
safety features in history. In stark contrast to 40 years ago 
when the Safety Act was first passed, consumers care more about 
safety and there now exists a tremendous demand for ever safer 
vehicles. Today, safety sells.
    According to J.D. Power and Associates, 9 out of the top 10 
feature most desired by consumers in their next new vehicle are 
designed to enhance safety. Manufacturers are responding to 
this increased demand across their entire product lines. Each 
new model year brings safety improvements in vehicles of all 
sizes and types. In fact, in 2003, the fatality rate was at an 
all-time low.
    Advancing motor vehicle safety remains a significant public 
health challenge, one that auto makers are addressing daily. 
Alliance members make huge investments in safer vehicle design 
and technology. Last year, before this committee I testified 
that the Administrator of NHTSA had challenged us to address 
the issue of crash compatibility quickly, and we did. Alliance 
members are already implementing a multi-phase program for 
enhancing the crash compatibility of passenger cars and light 
trucks. This program, developed by an international group of 
safety experts, will lead to significant improvements in 
vehicle occupant protection. It will be fully implemented by 
2009.
    Now let me turn to the matter at hand, the status and the 
effectiveness of the TREAD Act. The core element of the TREAD 
Act is Section 3, which includes early warning reporting 
requirements. NHTSA's early warning rule requires manufacturers 
to submit certain information and documentation to help 
identify defects related to motor vehicle safety. Auto makers 
have invested tens of millions of dollars each in specially 
designed computer systems to implement the early warning rule.
    In addition, teams of employees within each company are now 
assigned to gather, process, and review substantial quantities 
of data to prepare the required reports. Estimates are that 
thousands of companies must comply with the data reporting 
requirements. On a quarterly basis, auto makers must submit the 
required information to NHTSA covering each vehicle sold. The 
data must be sorted and filed in the manner specified by the 
agency. The data to be recorded include: deaths and injuries, 
warranty claims and goodwill adjustments, customer complaints, 
field reports, and property damage claims.
    The information to be reported is not limited to U.S. data. 
Manufacturers are also required to report information about 
foreign fatality claims involving vehicles that are identical 
or substantially similar to vehicles sold in the United States. 
To date, manufacturers have submitted three-quarters of data 
covering the period July 2003 through March 2004.
    In addition, this past January, automakers submitted a one-
time historical report consisting of 12 quarterly reports 
covering the period of July 2000 through June 2003. Thus, 
NHTSA's early warning system now contains 15 consecutive 
quarters of data, nearly 4 years' worth.
    However, the usefulness of this data to help determine the 
existence of a safety defect must be put into perspective. 
Studies have shown that vehicle factors contribute far less 
often to crashes than do human or roadway environmental 
factors. Thus, the early warning data only addresses a small 
portion of crashes. Providing data is only one step to 
improving vehicle safety. Analysis of the data and further 
investigation is necessary to determine if a safety defect 
exists.
    The Alliance understands that substantial quantities of 
data, including information on fatalities and injuries, will be 
available to the public through the NHTSA website. Automakers 
are also submitting some proprietary and competitive 
information.
    The Alliance agrees with NHTSA that the TREAD Act did not 
create a categorical exemption under the Freedom of Information 
Act preventing the disclosure of early warning data. Should the 
agency decide to open a defect investigation as a result of its 
review of early warning data, we understand NHTSA will make the 
relevant portion of the early warning data available as part of 
its public file.
    Finally, NHTSA has announced that it will review the early 
warning program in 2005 after it has been operational for 2 
years. We support this plan and we will cooperate with the 
agency's review to identify opportunities for improvement.
    Mr. Chairman, that concludes my statement.
    [The prepared statement of Mr. Strassburger follows:]

 Prepared Statement of Robert Strassburger, Vice President of Safety, 
            Alliance of Automobile Manufacturers (Alliance)
    Thank you Mr. Chairman. My name is Robert Strassburger and I am 
Vice President of Safety at the Alliance of Automobile Manufacturers 
(Alliance). I am pleased to be afforded the opportunity to offer the 
views of the Alliance at this hearing. The Alliance is a trade 
association of nine car and light truck manufacturers including BMW 
Group, DaimlerChrysler, Ford Motor Company, General Motors, Mazda, 
Mitsubishi Motors, Porsche, Toyota and Volkswagen. One out of every 10 
jobs in the U.S. is dependent on the automotive industry.
Significant Progress Has Been Made to Reduce Fatalities and Injuries 
        from Motor Vehicle Crashes, but Challenges Remain
    Over the past 20 years, significant progress has been made in 
reducing the traffic fatality rate. In 1981, the number of fatalities 
per 100 million vehicle miles traveled stood at 3.17. By 2003, this 
rate had been driven down by 53 percent to 1.50 fatalities per 100 
million vehicle miles traveled. The level of competitiveness among 
automakers, which key industry observers have described as ``brutal,'' 
has helped to accelerate the introduction of safety features ahead of 
regulation further aiding in the progress made.
    Product safety is now an area in which manufacturers compete and 
seek competitive advantage. Safety ``sells'' and manufacturers are 
leveraging their safety performance in an effort to distinguish their 
products from competitors. According to the J.D. Power and Associates 
2002 U.S. Automotive Emerging Technologies study, nine of the top 10 
features most desired by consumers in their next new vehicle are 
designed to enhance vehicle or occupant safety and manufacturers are 
responding to this increased consumer demand for safety across their 
entire product line.
    Despite the progress made, however, data show that 43,220 people 
lost their lives on U.S. highways in 2003 and almost 2.9 million were 
injured. Tragically, 58 percent of vehicle occupants killed in crashes 
were not restrained by safety belts or child safety seats. Alcohol was 
a factor in 40 percent of all fatalities. This is unacceptable. As a 
nation, we simply must do better.
    The Alliance and our members are constantly striving to enhance 
motor vehicle safety. And, we continue to make progress. Each new model 
year brings safety improvements in vehicles of all sizes and types. 
But, vehicle factors contribute less often to crashes and their 
subsequent injuries than do human or roadway environmental factors. We 
will never fully realize the potential benefits of vehicle safety 
technologies until we get vehicle occupants properly restrained and 
impaired drivers off the road.
Alliance Members Are Vigorously Pursuing Safety Advancements,
      Collectively and Individually
    Advancing motor vehicle safety remains a significant public health 
challenge--one that automakers are addressing daily, both individually 
and collectively. Alliance members make huge investments in safer 
vehicle design and technology. And they not only meet, but exceed motor 
vehicle safety standards in every global market in which vehicles are 
sold. Many safety features currently available on motor vehicles in the 
U.S. were implemented ahead of regulation. A partial list of 
voluntarily installed advanced safety devices, without or prior to 
regulation, is attached. See Attachment 1.
    The Alliance is pursuing a number of initiatives to enhance safety. 
We have redoubled our activities to collectively address light truck-
to-car crash compatibility. On February 11-12, 2003, the Alliance and 
the Insurance Institute for Highway Safety (IIHS) sponsored an 
international meeting on enhancing vehicle-to-vehicle crash 
compatibility. Immediately thereafter, the Alliance and IIHS sent NHTSA 
Administrator Runge a letter summarizing the results of this meeting, 
and indicating the industry planned to develop recommendations that 
auto companies could take to enhance crash compatibility.
    Ten months later, on December 2, 2003, we delivered to NHTSA a 
multi-phase program for enhancing the crash compatibility of passenger 
cars and light trucks. This program was developed by an international 
group of safety experts. At the same time, we also delivered to NHTSA a 
commitment made on behalf of the world's automakers to design cars and 
trucks according to the performance criteria specified in the group of 
experts' program. This commitment will lead to significant improvements 
in the protection afforded to occupants in crashes. It is the most 
comprehensive voluntary safety initiative ever undertaken by 
automakers.
    For the North American market, front-to-side crashes, where the 
striking vehicle is a light truck or sport utility vehicle (SUV), 
represent a significant compatibility challenge. We are placing a high 
priority on enhancing head protection and our efforts have lead to head 
protection air bags that auto manufacturers are incorporating in their 
vehicles. We are now working on evaluation criteria to drive 
improvements in car side structures to reduce side impact intrusion.
    For front-to-front crashes, the program sets criteria to enhance 
the alignment of front-end energy absorbing structures of vehicles. 
Manufacturers are improving compatibility by modifying light truck 
frames. The voluntary program governs structural alignment for the 
entire light-duty vehicle fleet and provides an industry-wide approach 
to frontal crash compatibility. The next phase of this program covers 
the development of a crash test procedure for assessing the crash 
forces that light trucks may impose on cars in frontal crashes. This 
procedure is expected to result in a comprehensive approach to 
measuring and controlling these frontal crash forces. We will also 
develop state-of-the-art test procedures for measuring and controlling 
the frontal stiffness characteristics of passenger cars and light 
trucks.
    These efforts to develop voluntary standards for crash 
compatibility and the commitment to design vehicles in accordance with 
them, are a model for voluntary industry action. These programs have 
proven to be a very effective way to bring significant safety 
improvements into the fleet faster than has been historically possible 
through regulation. The voluntary standards process also has the 
flexibility to produce rapid modifications should the need arise.
    The benefits of this voluntary approach is validated by the report, 
Recommended Procedures for Evaluating Occupant Injury Risk From 
Deploying Side Airbags, finalized by the industry in August 2000. In 
response to concerns about potential injury to out-of-position (OOP) 
women and children from deploying side airbags, the Alliance, the 
Association of International Automobile Manufacturers (AIAM), the 
Automotive Occupant Restraints Council (AORC), and IIHS formed a joint 
working group that developed test procedures with injury criteria to 
ensure that the risk of injury to OOP occupants from deploying side 
airbags would be minimized. Now, just 3 model years later, 60 percent 
of Alliance member company side airbags have been designed in 
accordance with the agreement.
    These Procedures were also used by Transport Canada as the basis 
for a Memorandum of Understanding (MOU) between automobile 
manufacturers and the Canadian government.
    Another Alliance initiative is examining how to further reduce the 
frequency and consequences of rollover. Rollovers represent a 
significant safety challenge that warrants attention and action. 
Alliance efforts to reduce the frequency and consequences of rollover 
involve passenger cars as well as SUVs, vans, and pickup trucks. Our 
efforts include developing a handling test procedure or recommended 
practice that will focus on an assessment of the performance of 
electronic stability control systems and other advanced handling 
enhancement devices. A typical rollover is one in which the driver 
becomes inattentive or distracted, loses control of the vehicle, and 
then strikes something that trips the vehicle, causing it to roll. 
Electronic stability control systems are designed to help drivers avoid 
trouble in the first place. However, these systems will not eliminate 
rollovers. For this reason, the Alliance is also examining ways to 
enhance rollover occupant protection in the event a rollover occurs. We 
are examining how injuries occur in rollover crashes and are assessing 
the feasibility of test procedures designed to further reduce the risk 
of occupant ejection in rollover crashes.
    Alliance members are also individually pursuing initiatives to 
enhance motor vehicle safety. One such initiative that has received 
widespread support is the installation of vehicle based technologies to 
encourage safety belt usage. Preliminary research on one system 
deployed in the United States by one Alliance member found a 
statistically significant 7 percent increase in safety belt use for 
drivers of vehicles equipped with that system compared with drivers of 
unequipped vehicles. NHTSA estimates that a single percentage point 
increase in safety belt use would result in 250 lives saved per year. 
Beginning in model year 2004, all members of the Alliance began 
deploying various vehicle-based technologies to increase safety belt 
use. The rollout of these technologies will continue over the next few 
model years. These actions--in addition to saving lives--will provide 
valuable field experience concerning effectiveness and acceptability of 
a range of safety belt use inducing systems. The experience gained will 
ultimately lead to future systems with enhanced effectiveness.
Implementation of the Transportation Recall Enhancement, 
        Accountability, and Documentation Act
    The Transportation Recall Enhancement, Accountability, and 
Documentation (TREAD) Act, Pub. L. 106-414, November 1, 2000, required 
the Secretary of Transportation to conduct a number of rulemaking 
actions, as well as several studies and reports, to address concerns 
that were raised in the fall of 2000 on the safety of Firestone tires. 
Implementing the Early Warning reporting requirements, Section 3(b), 
Pub. L. 106-414, is widely perceived as the core element of the TREAD 
Act. All Alliance members have cooperated with NHTSA on this rulemaking 
and have worked diligently to meet the requirements of the resulting 
Early Warning rule. Automakers have invested tens of millions of 
dollars each in specially designed computer hardware and software to 
implement the Early Warning system. In addition, teams of employees 
within each company have been assigned to gather, process and review 
substantial quantities of data to prepare the required reports covering 
the past three years. Estimates are that more than 1,000 companies must 
comply with the extensive data-reporting requirements that apply to 
auto, truck and bus manufacturers, and another 23,000 auto suppliers 
must comply with limited reporting requirements. NHTSA's Early Warning 
system is a massive database, larger than the IRS and is exceeded only 
by the U.S. military database. For example, automakers handle more than 
100 million warranty claims alone in each year, and most of these must 
be categorized, counted and reported according to NHTSA's rule.
    On a quarterly basis, automakers and parts suppliers must submit 
certain data to NHTSA. The data that automakers are required to gather 
during a reporting quarter include the counts of (a) warranty claims 
and goodwill adjustments; (b) customer complaints; (c) field reports; 
and (d) property damage claims. For each make, model and model year of 
motor vehicle manufactured for sale, for the current and past nine 
model years, the data must be sorted and filed in the manner specified 
by NHTSA. Quarterly reports must also include production counts for 
each make, model and model year, as well as information about injury 
and fatality claims and notices received during the quarter. The data 
is not limited to U.S. data. Manufacturers are required to report 
information about foreign fatality claims involving vehicles that are 
identical or substantially similar to the vehicles offered for sale or 
lease in the U.S.
    To date, manufacturers have submitted three quarters of data to 
NHTSA covering the period July 2003 through March 2004. In addition, in 
January 2004, automakers submitted to NHTSA a one-time historical 
report consisting of 12 quarterly reports covering April2000 through 
June 2003.
Early Warning Data Indicate Areas for Additional Research
      and Investigation
    Providing data is only one step to improve vehicle safety. Analysis 
and investigation of the data is critical to identifying possible 
problems. To put crash causation factors in perspective the United 
States General Accounting Office (GAO) found that, ``human factors were 
definite or probable causes in about 93 percent of crashes, while 
environmental and vehicle factors contributed to about 33 and 13 
percent respectively.'' Further the GAO says, ``. . . it is generally 
shown by data and studies and believed by experts that vehicle factors 
contribute less often to crashes than do human or roadway environmental 
factors.'' Therefore, the Early Warning data addresses only a very 
small portion of crashes. The massive amount of Early Warning data must 
be analyzed to determine if a safety defect exists.
    For example, a large number of claims related to a particular TREAD 
reporting category does not necessarily indicate a safety concern. For 
instance, a large number of complaints may be logged against the brake 
system for a particular vehicle, but if 95 percent are related to brake 
dust (dirty tire rims), the raw number of complaints does not indicate 
a potential safety concern.
    Another reason for careful examination of the data is that it does 
not lend itself to inter company comparisons, since different 
manufacturers record and maintain data differently. For example, 
Manufacturer A may account for warranty repairs at the labor operation 
code level, so that multiple warranty claims are paid for a single 
repair based on the individual service operations performed. Meanwhile, 
Manufacturer B may pay warranty claims submitted by dealers based on 
the parts that are repaired or replaced. In this example, Manufacturer 
A may well ``count'' far more warranty claims than Manufacturer B, 
since more individual operations would generally be performed than the 
number of parts replaced for a single repair. That could make it appear 
as though Manufacturer A's products exhibit lower quality, when, in 
fact, Manufacturer B true warranty repair count could be as high or 
even higher than Manufacturer A.
    Even within a single manufacturer's reports, different operations 
may record and maintain data differently. For example, a vehicle with a 
longer manufacturer's limited warranty period may have more warranty 
claims reflected over its life than a vehicle with a shorter warranty. 
Therefore, the ability to compare between different vehicles even 
within a single manufacturer's report will be somewhat limited.
NHTSA Will Release Early Warning Data to the Public as Appropriate
    The Alliance understands that substantial quantities of data, 
including information on fatalities and injuries, will be available to 
the public through NHTSA's website. Automakers are submitting some 
proprietary and competitive information to NHTSA for its review and if 
necessary for further investigation. This compendium of data should 
receive confidential treatment for several reasons.
    According to a study by Auto Pacific, the harmful effects of not 
treating the compendium of Early Warning data as confidential follows:

  <bullet> It is well known that auto manufacturers and component 
        manufacturers closely guard their warranty data for competitive 
        product design and pricing reasons. Public availability of this 
        data, used correctly or incorrectly, could seriously affect, 
        either positively or negatively, the market for specific 
        vehicles, and for both OEM and aftermarket components.

  <bullet> Actual working experience at various automotive companies 
        confirms that comparative component warranty experience, 
        reliability experience, and durability experience strongly 
        influences component pricing and sourcing decisions. Relatively 
        favorable reported comparative data could be expected to 
        positively affect sourcing decisions and pricing negotiations, 
        while relatively unfavorable reported data could result in loss 
        of business or reduced component pricing, for example. In 
        addition, if one original equipment manufacturer purchases a 
        component and obtains field experience with that component, it 
        can be expected to use that information to make decisions about 
        future purchases and the price it will pay. Providing that 
        field experience to other manufacturers effectively gives them 
        a ``free ride'' at the expense of the first manufacturer.

  <bullet> The availability of vehicle manufacturers' experience with 
        warranty claims at the component level could be of significant 
        value to component manufacturers as they prepare their bids for 
        new business, plan their new business marketing strategies, and 
        estimate the likely costs and pricing positions of the vehicle 
        manufacturers, with whom the component . manufacturers may 
        compete for aftermarket parts sales. Knowing the vehicle 
        manufacturers' warranty claims experience at the component 
        level could be very useful in helping to identify component 
        markets worth targeting, to the competitive detriment of the 
        vehicle manufacturers.

    The Alliance agrees with NHTSA that if the agency decides to open a 
defect investigation as a result of its review of Early Warning data, 
that NHTSA will ordinarily make the relevant portion of the Early 
Warning data available as part of the public file on the investigation.
    For the same reasons that NHTSA is granting confidentiality to some 
of the Early Warning data it would not be beneficial to the public to 
allow access to all of the Early Warning data. When NHTSA decided to 
protect some of the Early Warning data from public disclosure, NHTSA 
recognized that the simple comparisons of data from different companies 
could be misleading to consumers and competitively harmful to 
submitting manufacturers, for the reasons described above.
    NHTSA has recognized that there is not sufficient detail in the 
Early Warning reports to allow meaningful conclusions to be drawn 
simply from the data. The Early Warning data is a starting point, not 
an ending point for an investigation. NHTSA will review the Early 
Warning reports and, in some cases, the underlying data, and then 
decide whether a formal defect investigation would be appropriate. 
Given its resources and expertise, NHTSA is uniquely positioned to 
understand the data and provide a robust analysis.
    One last point, the TREAD Act provided additional funding for 
NHTSA. NHTSA's Office of Defects Investigation (ODI) has hired 18 
additional staff-a 39 percent increase-to help carry out its mission. 
The NHTSA Administrator has testified before the Subcommittee on 
Commerce, Trade and Consumer Protection of the House Energy and 
Commerce Committee that the agency has adequate resources in this area. 
We agree.
    NHTSA has announced an intention to review the Early Warning 
program in 2005 after it has been functioning for two years. We support 
this plan, and intend to cooperate with the agency's review to identify 
opportunities for improvement.
                                 ______
                                 
                              Attachment 1
                ``VOLUNTARILY INSTALLED SAFETY DEVICES''
    A partial list of voluntarily installed advanced safety devices (w/
o or prior to regulation)
Crash Avoidance Advances
Tire/suspension optimization
Automatic brake assist
Electronic stability controls to help drivers maintain vehicle control 
in emergency maneuvers
Anti-lock brakes
Traction control
Obstacle warning indicators Active body control Intelligent cruise 
control
Convenience controls on steering wheel to minimize driver distraction
Automatic obstacle detection for sliding doors on minivans
Head-up displays
Child-proof door locks
Automatic speed-sensitive door locks
Vision
Automatic dimming inside mirrors to reduce headlamp glare
Heated exterior mirrors for quick deicing
Rear defrost systems, wipers
Headlamp wiper/washers
Automatic-on headlamps
Automatic-on headlamps when wipers are used
Infinitely variable wiper (only 2 req'd by regulation)
Night vision enhancements
Advanced lighting systems
Right side mirrors
Crashworthiness Advances
Side air bags for chest protection
Side air bags for head protection that reduce ejection
Rollover triggered side/curtain air bags
Advanced air bags (e.g., dual stage inflators) several years in advance 
of regulatory requirements)
Safety belt pre-tensioners
Rear center seat lap/shoulder belts
Load-limiting safety belts to reduce chest injuries
Improved belt warning indicators
Rear seat head restraints
Integrated child seats
Anti-whiplash seats
Breakaway mirrors for pedestrian protection
Post Crash
Automatic notification to emergency providers during air bag deployment

    Senator Smith. You indicate pretty strongly you don't share 
the accusations of the consumer groups as to how you're treated 
in terms of ARTEMIS.
    Mr. Strassburger. That's correct. We don't.
    Senator Smith. Can you explain again your view of the tire 
pressure monitor issue? What's the appropriate outcome of a new 
NHTSA rulemaking?
    Mr. Strassburger. Sure. It was our position that when the 
TPMS requirements were first passed under the TREAD Act that 
essentially the Act was ratifying already actions that vehicle 
manufacturers were already taking to introduce TPMS systems. 
There are two types: indirect systems and direct systems. Our 
own analysis shows that both systems are able to provide 
comparable safety benefits, and on that basis we thought both 
systems should be allowed as compliance options.
    Senator Smith. As an Alliance, do you do any work with 
state legislatures to promote seatbelt usage or law?
    Mr. Strassburger. Yes, we do.
    Senator Smith. And with the issue of technology being key 
at this hearing, I know that the automobile manufacturers are 
perpetually focusing on new, innovative technologies to 
increase the safety of their vehicles. Can you tell us about 
some of the innovation that's currently being pursued and how 
it may help us build upon the TREAD Act?
    Mr. Strassburger. Sure. There are a number of--in fact, the 
vast majority of safety advancements over the years are actions 
that have been voluntarily taken by manufacturers without 
regulation, and in my written statement I include a list of 
those technologies.
    A number of technologies that are emerging now that you're 
seeing that show great promise, for example, are such things as 
electronic stability control to help people maintain control of 
their vehicles so they don't get into situations that might 
actually lead to rollovers. But if indeed there is a rollover, 
manufacturers are now also introducing enhanced head 
protection, air bags, and rollover curtains to help protect 
occupants in rollover crashes.
    The list could go on and on in terms of including enhanced 
vision systems, other enhanced occupant protection systems, et 
cetera.
    Senator Smith. Thank you very much, Mr. Strassburger. Mr. 
Shea.

    STATEMENT OF DONALD B. SHEA, PRESIDENT AND CEO, RUBBER 
                   MANUFACTURERS ASSOCIATION

    Mr. Shea. Good afternoon, Mr. Chairman, and thank you. My 
name is Donald Shea and I serve as President of the Rubber 
Manufacturers Association. I've submitted written testimony to 
the Committee and I ask that it be included in the record.
    Senator Smith. We will include it.
    Mr. Shea. Thank you. Mr. Chairman, as you know, 
implementation of the TREAD Act is well underway. This historic 
and far-reaching legislation has had a profound impact on the 
tire industry. RMA and its members supported enactment of the 
TREAD Act and have provided extensive input to NHTSA throughout 
several rulemaking processes. I should note that NHTSA has 
expended enormous efforts in promulgating the rules called for 
under this legislation.
    As we near the end of this process, the tire industry 
wishes to bring to your attention issues that will help ensure 
that this important safety measure will be fully and fairly 
implemented. A complete enforcement, compliance, and auditing 
program is necessary to ensure that the TREAD Act works as 
intended.
    RMA members have invested significant resources to comply 
with new rules. Those who comply will be at a stark 
disadvantage if other companies escape these requirements. The 
early warning reporting system is a first-of-its-kind program 
designed to help regulators and industry spot potential 
performance issues. Each year, tire manufacturers alone will 
report over 1 million pieces of data to NHTSA about our 
products. Any company failing to comply with this rule not only 
escapes the cost of compliance, but puts lives at risk by 
denying regulators information that may signal an emerging 
safety problem.
    Tire testing standards also will require a compliance 
program. RMA members alone will spend $1.6 billion to comply 
with this rule in the first year alone. Tire manufacturers who 
avoid compliance would have a significant cost advantage over 
companies that adhere to the rule. More importantly, new tires 
that do not conform to the revised testing standards will not 
give consumers the benefit of more robust performance these new 
standards demand.
    RMA urges Congress to set aside adequate funding for 
compliance and auditing work on early warning reporting and 
tire testing, and we'd welcome the opportunity to work with 
this committee and NHTSA to establish an appropriate, cost-
effective program of enforcement.
    In addition to compliance issues, the tire industry is 
faced with other matters. This industry has expended 
considerable resources to meet the new standards which are the 
most stringent anywhere in the world. New tire-related measures 
have been included in a NHTSA reauthorization bill. While we 
support fully the intent to address tire safety, RMA does not 
believe that these provisions are necessary at this time. Why? 
One provision calls for an accelerated aging test requirement. 
NHTSA is already addressing this issue. RMA and the auto 
industry are working to design a science-based accelerated 
aging test for tires. NHTSA should consider this work and 
thereafter on its own develop the appropriate test method and 
time line, thereby precluding the need for a new mandate.
    Other provisions for new strength and bead unseating tests 
will not assist the agency in assessing radial tire 
performance. NHTSA postponed consideration of these tests 
because the agency concluded that more research is necessary 
before adopting new or revised standards.
    I should also note that some TREAD Act issues have not been 
fully resolved. RMA filed timely petitions for reconsideration 
for several TREAD Act rules. We continue to await a response to 
our petition on tire testing and we hope that NHTSA will 
respond soon and accept our recommendations.
    Finally, in July 2002, RMA petitioned NHTSA to establish a 
tire pressure reserve based on the minimum pressure required to 
carry the vehicle maximum load. RMA's proposal would require 
that tires have a sufficient reserve inflation pressure so that 
a tire pressure monitoring system will warn motorists before 
tires are operated at inflation pressures below tire industry 
load pressure specifications. RMA urges NHTSA to accept this 
petition so that all interested parties can formally register 
their views with the agency.
    Mr. Chairman, I wish to thank you for the opportunity to 
provide these comments, and I'll be pleased to respond to any 
questions.
    [The prepared statement of Mr. Shea follows:]

       Prepared Statement of Donald B. Shea, President and CEO, 
                    Rubber Manufacturers Association
Executive Summary
    The Rubber Manufacturers Association (RMA) represents every major 
domestic tire manufacturer including Bridgestone Americas Holding, 
Inc., Continental Tire North America, Inc., Cooper Tire & Rubber 
Company, The Goodyear Tire and Rubber Company, Michelin North America, 
Inc., Pirelli Tire North America Inc., and Yokohama Tire Corporation. 
RMA and its members share NHTSA's goal of safer highways for the 
traveling public. RMA and its members have worked extensively with 
NHTSA on issues of tire safety, tire performance reporting, and 
consumer information. While rulemakings have been completed on all of 
the issues mandated by the TREAD Act except tire pressure monitoring 
and testing for commercial truck tires, RMA believes that there are 
significant challenges facing the agency and the industry.

  <bullet> It is important for NHTSA to make clear its position on a 
        number of issues associated with final TREAD Act rulemakings. 
        These include new regulations dealing with Tire Labeling and 
        Tire Testing.

  <bullet> RMA recommends that Congress set aside sufficient funding 
        for enforcement, compliance, and auditing systems for early 
        warning reporting and tire testing. RMA would welcome the 
        opportunity to work with this Committee and NHTSA to establish 
        an appropriate and cost-effective program of enforcement and 
        auditing.

  <bullet> RMA does not favor the tire related provisions in the Senate 
        NHTSA Reauthorization bill. We will be happy to work with 
        Congress on any provisions to enhance tire safety that are 
        based on sound science and are cost effective.
Written Statement
    The Rubber Manufacturers Association (RMA) is the national trade 
association for the tire and rubber products manufacturing industry. 
RMA represents more than 120 companies that manufacture various rubber 
products. These member companies include every major domestic tire 
manufacturer including Bridgestone Americas Holding, Inc., Continental 
Tire North America, Inc., Cooper Tire & Rubber Company, The Goodyear 
Tire and Rubber Company, Michelin North America, Inc., Pirelli Tire 
North America Inc., and Yokohama Tire Corporation. RMA is pleased to 
submit these comments on the status of Transportation Recall 
Enhancement, Accountability and Documentation (TREAD) Act.
    The tire industry is an integral part of the Nation's economy and 
transportation system. In 2003, RMA members manufactured over 230 
million tires in the United States. In this country, RMA tire 
manufacturing members operate 36 manufacturing facilities and employ 
almost 50,000 workers.
    Over 98 percent of all tires on passenger cars in the U.S. are 
radial tires. A radial tire is a highly engineered structure consisting 
of six major components, each with separate functions. These components 
include: the inner liner, the beads, the body plies, the steel belts, 
the tread, and the rubber sidewalls.
    Tire design and production involves sophisticated engineering in 
product design, testing, manufacturing, and analysis. Designing and 
building today's complex tires is no simple task. Producing a tire 
involves a combination of chemistry, physics, and engineering plus more 
than 200 raw materials including natural and synthetic rubbers, metals, 
fabrics, oils, pigments, and other chemicals.
    Tires and cars operate as an integrated system. Tires are designed 
and tested in accordance with the performance specifications of the 
original equipment manufacturer on a certain class of vehicle and type 
of service. For tires to perform properly, a delicate balance must be 
maintained with all characteristics such as wet and dry traction, 
handling, smooth ride, and noise.
    RMA's tire manufacturer members invest time, effort and resources 
to produce safe tires. Nearly 1 billion tires are on U.S. passenger 
vehicles today. By any measurement, tires today perform in a superior 
fashion, even when they are operated under-inflated, overloaded, in 
high-speed conditions, and in a variety of adverse road and 
environmental conditions.
    Despite the superior performance of these products, RMA has long 
sought to help consumers understand the importance of tire maintenance. 
RMA's tire care and safety education efforts were reinvigorated in 2000 
with the launching of the Be Tire Smart--Play Your PART program to help 
drivers learn the simple steps they can take to ensure that their tires 
are in good working condition. The term ``PART'' is an acronym that 
stands for Pressure, Alignment, Rotation and Tread--the four key 
elements of tire care. RMA's website, www.betiresmart.org, offers 
valuable tire safety information for consumers and includes a 
downloadable brochure in both English and Spanish. In the past three 
years, RMA has distributed over 6 million printed copies of the 
industry's Be Tire Smart brochure. This year, RMA's brochures have been 
made available to more than 8,000 tire retail outlets.
    In 2002, RMA launched National Tire Safety Week to give the tire 
industry an opportunity to focus on tire safety education. This year, 
National Tire Safety Week took place April 25-May 1. Since the launch 
of the program, RMA has held Tire Safety Days in over 20 cities in 
which RMA coordinated with industry partners like AAA and local tire 
dealers to help educate motorists about tire safety.
    RMA's Be Tire Smart program both complements and reinforces other 
tire care and maintenance efforts by RMA member companies and NHTSA's 
Tire Safety: Everything Rides On It program. RMA also is encouraging 
its members to promote seatbelt use by employing such messaging in the 
Be Tire Smart brochures and supporting passage of primary seatbelt 
enforcement legislation.
    RMA and its members have worked extensively with NHTSA on issues of 
tire safety, tire performance reporting, and consumer information. 
While work on most of the issues mandated by the TREAD Act has been 
completed, RMA believes that there are significant challenges facing 
the agency and the industry. However, NHTSA's program of work should be 
guided by three principles:

  <bullet> Motorist safety;

  <bullet> Sound science and data; and

  <bullet> Cost effectiveness.
Implementation of the TREAD Act
    RMA worked with Congress and supported passage of the 
Transportation, Recall, Enhancement, Accountability and Documentation 
(TREAD) Act that was signed into law on November 1, 2000. The TREAD Act 
required twelve separate rulemakings. To date, all of the rulemakings 
impacting tires have been completed except tire pressure monitoring and 
new testing requirements for commercial truck tires. New programs have 
been instituted and performance requirements for tires have been 
increased.
Tire Labeling for Light Vehicle Tires--FMVSS 139
    The final rule for labeling of light vehicle tires was announced 
November 18, 2002. This rule has a phased-in compliance schedule 
requiring forty percent of the tires manufactured on or after September 
1, 2004 and before September 2005 to comply with the rule. Seventy 
percent of the tires manufactured on or after September 1, 2005 and 
before September 1, 2006 must comply and all tires manufactured after 
September 2006 must comply.
    NHTSA's final rule requires the full tire identification number 
(TIN) to be on the intended outboard sidewall, if there is one, with a 
partial TIN on the opposite sidewall. RMA supports the new requirement 
to add a partial TIN to the opposite side from the full TIN. However, 
the new mandate to place the full TIN on the intended outboard side 
will not only force huge compliance costs on the industry, but will 
also expose tire industry employees to workplace safety hazards and 
significant risks of injury.
    The final rule would require workers to change the date code of the 
TIN on a weekly basis in a hot (300++) mold in mass production. Since 
the intended outboard sidewall is usually in the top half of the tire 
mold this change requires workers to climb or lean into the mold. The 
only way to comply with the rule and still eliminate the worker safety 
issue is either (a) to flip the molds over in the press or (b) to 
replace an existing mold with a new mold with the intended outboard 
sidewall in the bottom of the mold rather than the top. RMA member 
companies work with approximately 100,000 molds. The complexity of 
flipping a mold over in the press varies according to the type of mold 
and its configuration. It is not as simple as removing the mold from 
the press and reinstalling it upside down. In many, if not most cases, 
flipping the mold over is not possible, and consequently the mold would 
have to be replaced. RMA estimates that the compliance costs for these 
alternatives exceeds $220 million.
    RMA filed a timely petition for reconsideration on tire labeling on 
January 2, 2003. The agency has not responded to that petition. In that 
petition for reconsideration, RMA recommended that the full TIN be 
placed on one side of the tire with the partial TIN on the other tire 
sidewall. Using NHTSA's own estimates the RMA recommendation would 
allow a consumer to identify the family of tires that might be subject 
to a recall 87 percent of the time. The RMA recommendation has the 
added value of minimizing the adverse economic impact and eliminating 
the worker safety concerns.
Tire Testing for Light Vehicle Tires--FMVSS 139
    Existing tire testing regulations (FMVSS 109) were promulgated in 
1968. At that time, nearly all of the passenger car tires in the world 
were of bias or bias-ply construction. Tires have vastly improved since 
the 1968 regulations were promulgated. In January 1999 RMA petitioned 
NHTSA to update those standards. With the passage of the TREAD Act, 
NHTSA was required to promulgate new tire testing standards (FMVSS 
139).
    The final rule for light vehicle tire testing was announced on June 
26, 2003 and requires all tires to be in compliance by June 1, 2007. 
The new test standard applies to new radial tires used on powered motor 
vehicles with gross vehicle weight rating of 10,000 pounds or less. 
NHTSA did exempt certain specialty tires from the new requirements, 
including trailer tires, farm tires, temporary spares, and all bias 
light tires for highway use. Snow tires are required to meet the new 
standards.
    The new and revised regulatory requirements include:

  <bullet> Low pressure performance test--new

    <ctr-circle> Tires run at approximately 40 percent below maximum 
            inflation pressure.

  <bullet> High speed test--upgraded

    <ctr-circle> Maximum test speed raised from 85 mph to 99 mph

    <ctr-circle> Light truck tires are now required to be tested for 
            high speed and must meet the same minimum speed

  <bullet> Endurance test--upgraded

    <ctr-circle> Speed raised from 50 mph to 75 mph

    RMA supported these revised testing standards, which are now the 
most stringent set of requirements in the world.
    Two significant test method issues remain in the testing of light 
vehicle tires: testing tire pressure and chunking.

    Testing Tire Pressure

    In a petition for reconsideration filed with the agency, RMA 
recommended that tire pressure should be measured at least 15 minutes 
after completion of the tests. RMA also recommended that NHTSA allow a 
five percent pressure reduction at test completion. These modifications 
to the final rule are needed because when a tire's pressure is checked, 
the following occurs:

  <bullet> Some small amount of air is required to activate the tire 
        gauge;

  <bullet> Some small amount of air may escape in the process of 
        checking;

  <bullet> Some differential because of inelastic growth due to heat 
        during testing;

  <bullet> Some differential because of diffusion; and

  <bullet> Some variation caused by level of gauge repeatability.

    Chunking

    As promulgated, the final rule for FMVSS 139 will cause abnormal 
parasitic tread chunking for a significant number of existing light 
vehicle tires, particularly some deep tread, winter type snow tires and 
light truck (LT) tires. Tread chunking is the result of the cumulative 
effect of laboratory road-wheel curvature and test conditions, and is 
not indicative of real-world performance for these tire types. Tires on 
the road do not fail because of this type of tread chunking. Because of 
laboratory induced chunking some of the best performing snow tires and 
LT tires will have to be redesigned solely to pass the new endurance 
and low-pressure tests and may not perform as well for their primary 
function. Contrary to the intent of Congress and the TREAD Act, these 
design changes will not improve but rather will reduce snow traction as 
well as on-and off-road traction performance. RMA has recommended a 
series of alternatives to the agency to exempt laboratory dynamometer-
induced thermal chunking as a failure mode for the new testing regime. 
RMA has urged the agency to accept one of these alternatives.
    RMA believes NHTSA's adoption of these recommendations will enhance 
the effectiveness of the new tire testing standards.
Early Warning Reporting
    The final rule for light vehicle tires, motor vehicles, child 
seats, and motor vehicles parts was announced on July 10, 2002. The 
rule requires the tire industry to report claims of injuries and 
fatalities, lawsuits, warranty adjustments, property damage claims, and 
consumer advisories and campaigns to NHTSA on a quarterly basis for all 
tires with an annual U.S. production exceeding 15,000. The first 
quarterly report was filed on December 1, 2003 for claims received 
during the third quarter of 2003, and a one-time historical report, 
covering claims received from April 1, 2000 to March 31, 2003, was 
filed on January 15, 2004. The quarterly report for the fourth quarter 
of 2003 was filed on March 1, 2004. This data is voluminous and 
contains a great deal of technical information. It should not, however, 
be misinterpreted or misrepresented as ``defect data'' or any other 
indicator of tire performance. Instead, this data must be recognized as 
preliminary data designed to provide an ``early warning'' to the 
government agency charged with overseeing tire safety issues.
Tire Pressure Reserve
    NHTSA stated in the notice accompanying the final tire pressure 
monitoring rule, ``[M]any vehicles have significantly under-inflated 
tires, primarily because drivers infrequently check their vehicle's 
tire pressure.'' 67 Fed Reg. at 38713-38714. The agency also 
recognized, ``[A] significant majority of drivers would be less 
concerned, to either a great extent or very great extent, with 
routinely maintaining the pressure of their tires if their vehicle were 
equipped with a TPMS.'' 67 Fed. Reg. at 38706.
    The decision of the U.S. Court of Appeals for the 2nd Circuit in 
Public Citizen v. Mineta vacated and remanded the rule for further 
consideration. RMA has asserted repeatedly that tires will take an 
indeterminate, but not indefinite, amount of abuse. The agency has 
failed to be guided by this basic tire engineering principle. Under-
inflation of tires and overloading of vehicles will have an adverse 
effect on tire performance and may cause a tire to fail. If tire 
pressure monitoring systems cannot be designed to alert the driver when 
a vehicle is overloaded--that is, when the tire has insufficient air 
pressure to handle the vehicle's load--NHTSA must ensure that tires are 
not under-inflated.
    Consistent with this objective, RMA petitioned NHTSA on July 22, 
2002 to establish a pressure reserve based on two factors: (1) the 
minimum pressure required to carry the vehicle maximum load and (2) the 
activation pressure of the selected TPMS. A survey sponsored by RMA and 
presented to NHTSA found that the frequency of U.S. motorists checking 
tire pressure will likely drop by nearly 25 percent in vehicles 
equipped with tire pressure monitoring systems. Even motorists who 
exhibit the most responsible tire pressure checking behavior--checking 
tire pressure at least once a month--would likely show a significant 
decline in tire maintenance.
    The RMA proposed solution to assure all in-service light vehicle 
tires, including full-size matching spares when used in actual service, 
have sufficient pressure under all reasonable operating conditions, 
including at or near maximum load, is for NHTSA to require TPMS 
telltale activation before the tire load/pressure limits are exceeded. 
This can be accomplished in the following three ways, used either 
separately or in combination depending on individual vehicle 
circumstances: (1) raise the placard recommended tire inflation 
pressure, (2) increase the tire size, or (3) fit the vehicle with a 
more accurate TPMS device.
    The agency has not responded to this petition. RMA has urged NHTSA 
to grant this petition and commence a rulemaking forthwith so that all 
interested parties can register their views with the agency.
Enforcement, Compliance, and Auditing
    In the TREAD Act, Congress required NHTSA and the industry to work 
harder and faster to promote motor vehicle safety. These efforts will 
not be completely effective unless compliance can be insured. A 
complete enforcement, compliance, and auditing program are necessary to 
ensure that the TREAD Act will work. The 2003 Tire Guide indicates over 
80 manufacturers of passenger car tires alone. Many of these are 
private brand labels of major manufacturers of tires already in 
compliance with NHTSA regulations. However, without a vigorous 
enforcement, compliance, and auditing program, NHTSA will not be able 
to ensure that all of the manufacturers comply with the Federal law.
    RMA urges Congress to set aside sufficient funding for compliance 
and auditing work on early warning reporting and tire testing. The 
agency has begun compliance work on early warning reporting by sending 
out 8,000 letters to manufacturers that did not file early warning 
reports for the third quarter of 2003. However, NHTSA needs sufficient 
resources to follow up with non-filers. As more and more tires are 
manufactured overseas by manufacturers without a significant U.S. 
presence, and imported into the United States, this may require 
coordination with the U.S. Customs Service, the Department of Commerce, 
and other government agencies. These efforts will ensure a level 
marketplace and compliance with the TREAD requirements.
    The highway tire test standards in the United States allow the tire 
manufacturer to certify compliance with the regulation by stamping DOT 
on the tire. This system works well. However, this system depends on a 
vigilant audit and testing system. Funding must be established for this 
effort. RMA would welcome the opportunity to work with this Committee 
and NHTSA to establish an appropriate and cost-effective program of 
enforcement and auditing.
New Initiatives: Non-TREAD Act Issues
    During consideration of NHTSA reauthorization, the Senate included 
a number of mandated rulemakings pertaining to tire testing. Included 
are mandates for new safety performance criteria for strength and road 
hazard protection, bead unseating, and aging. In addition, the 
legislation would require the agency to reconsider the use of 
shearography analysis for regulatory compliance. RMA does not favor the 
tire related provisions in the Senate bill.
    Tire manufacturers, automobile manufacturers, and NHTSA are 
currently working on a tire age endurance testing method. A regulation 
will follow and a Congressional mandate is not necessary.
    Current light vehicle tire testing requirements contain strength 
and bead unseating tests. These requirements were designed for bias ply 
tires and do not provide any assistance in analyzing a radial tire's 
durability. Although NHTSA attempted to establish new testing regimes 
for strength and bead unseating in the new testing requirements, these 
proposed tests were not repeatable or cost effective, thereby making 
them inappropriate test requirements. In the final rule, NHTSA decided 
to postpone implementation of these proposals. The high speed, 
endurance, and low pressure tests required under FMVSS 139 provide 
sufficient and appropriate test requirements for today's radial tires. 
New strength or bead unseating tests will not assist the agency or the 
public in assessing radial tire performance.
Accelerated Tire Age Endurance
    Congress explicitly stated the need for some type of aging test on 
light vehicle tires in the TREAD Act. RMA supports this requirement but 
does not believe a new Congressional mandate is necessary. An 
accelerated tire age test does not currently exist and there is no 
industry-wide recommended practice for accelerating the aging of tires. 
Under the Final Rule for Federal Motor Vehicle Safety Standard Part 139 
(``FMVSS 139''), the National Highway Traffic Safety Administration 
(``NHTSA'') decided to defer the development of an aging test for 
approximately two years. Fed. Reg., Vol. 68 No. 123, at p. 38139. In 
developing the test, the agency will consider recommendations pursuant 
to refining the static and dynamic components of the test. 
Concurrently, NHTSA will assess the performance of test tires and tires 
in the field to assure that the test and field data correlate.
    The American Society for Testing and Materials (``ASTM'') 
International Committee F09 on Tires has spent the past year developing 
an accelerated aging design of experiment (``DOE''). The task group is 
made up of various representatives from tire and automotive 
manufacturers and test laboratories. Also, NHTSA staff has attended 
task group meetings as observers. The ultimate objective of the ASTM 
task group is to develop a scientifically valid, short duration tire 
aging endurance test standard, which correlates to field behavior, for 
light vehicle tires. The test standard development is broken into two 
projects: 1) laboratory accelerated aging DOE and 2) validation of the 
DOE. Data from real-world aged tires will be used to establish 
correlation with laboratory aging characteristics. Care will be taken 
to avoid laboratory-induced failure characteristics, such as road-wheel 
induced thermal tread chunking, which does not occur in real-world 
driving conditions.
    Ultimately this activity, which will include static and dynamic 
test components, will result in an industry-wide recommended test 
standard for evaluating tire age and can serve as a common means of 
evaluation by tire manufacturers, vehicle manufacturers and testing 
organizations. The ASTM F09 Committee also plans to formally submit the 
resulting test standard and pertinent data to NHTSA for consideration 
in defining an aged tire standard upgrade to FMVSS 139. NHTSA has 
indicated publicly that they are pleased with the cooperative effort 
between government and industry on developing this test method. The 
tire industry fully supports the efforts of the ASTM task group on 
aging. RMA has pledged considerable funding so that the first phase of 
the DOE project can commence very shortly. It is anticipated that the 
work of ASTM will be completed by August of 2005.
Tire Service Life for Light Vehicle Tires
    Tires are composed of various types of material and rubber 
compounds, which have performance properties essential to the proper 
functionality of a tire as it relates to its specified application. The 
serviceability of a tire over time is a function of the storage and 
service conditions (load, speed, inflation pressure, road hazard 
injury, environmental exposure, etc.) to which a tire is subjected 
throughout its lifetime. Furthermore, there are several characteristics 
that, if present, are cause for service removal such as 2/32 of an inch 
or less tread depth, non-repairable road hazard injuries, signs of 
damage (cuts, cracks, bulges), or signs of abuse (underinflation, 
overloading, etc.) Since service conditions vary widely, accurately 
predicting the serviceable life of a tire in advance is not possible 
simply based on its calendar age. The same reasoning applies to predict 
the service life of an automobile that is subject to varying service 
conditions.
    The tire industry has long supported the consumers' role in the 
regular care and maintenance of their tires. The monthly maintenance 
inspection for proper inflation pressure and tread wear is supplemented 
by recurring rotation, balancing and alignment services. Periodically, 
the condition of a tire should be assessed to determine if there are 
any tactile, or visual signs that replacement is necessary.
    The industry is currently engaged in dialogue with our counterparts 
in Europe and Asia on the subject of tire service life for light 
vehicle tires. Our hope is to achieve a global tire industry advisory 
regarding tire service life within the next few months.
Rolling Resistance
    The term ``rolling resistance'' refers to the force generated by 
tires that hinders the forward movement of a vehicle. The rolling 
resistance of a tire is influenced by many factors including tire 
inflation pressure, load and speed of the vehicle, tire condition, road 
conditions, and tire design. Lower rolling resistance is associated 
with higher fuel savings although any fuel saving is dependent on many 
factors.
    According to the Federal Government, only about 15 percent of the 
energy in the fuel that goes into a car's gas tank is used to move a 
car down the road or for other components, like power steering. The 
largest cost to fuel energy, 62 percent, is lost to engine friction, 
and other related engine losses. Just idling at stop lights or in heavy 
traffic, loses 17 percent. In contrast, just over four percent is lost 
to rolling resistance.
    Not unlike many consumer products, tires cannot be all things to 
all people. Design trends illustrate that when a tire is optimized for 
rolling resistance, tread wear and traction performance can be reduced. 
Since tire manufacturers will not compromise tire safety. i.e., 
traction, for improved rolling resistance, the design options available 
to achieve lower rolling resistance are limited. Typically, optimal 
rolling resistance is achieved at the expense of tread wear 
performance. Simply put, there is a fundamental relationship between 
rolling resistance, traction, and tread wear. One characteristic cannot 
be maximized without affecting the others.
    Great strides have been made in rolling resistance. However, there 
is no one test to measure rolling resistance performance. Additionally, 
there is a lack of collective data regarding rolling resistance on 
replacement tires and its impact on vehicle fuel efficiency, since the 
focus of rolling resistance data collection has been on the original 
equipment (OE) market. This does not suggest that low rolling 
resistance does not exist in the tire replacement market--it only 
implies that the exact measurements have not been made representative 
of the diversity of the tire replacement market. The limited data 
available for the tire replacement market simply reveal that no 
industry-wide information exists.
    As the National Academy of Sciences recognized in the 2003 report 
Effectiveness and Impact of Corporate Average Fuel Economy (CAFE) 
Standards, ``Continued advances in tire and wheel technologies are 
directed toward reducing rolling resistance without compromising 
handling, comfort, or braking. Improvements of about 1 to 1.5 percent 
are considered possible. The impacts on performance, comfort, 
durability, and safety must be evaluated, however.'' NAS at p. 39.
    Congress required the Secretary of Transportation through the 
National Academy of Sciences to develop and perform a national tire 
fuel efficiency study and literature review to consider the 
relationship that low rolling resistance replacement tires designed for 
use on passenger cars and light trucks have with fuel consumption and 
tire wear. The tire industry is committed to providing NAS with 
relevant information and expertise as it embarks on this study. RMA 
will continue to participate in the NAS process as a stakeholder and is 
hopeful that the results of the study will clarify the complex 
relationship among rolling resistance, fuel economy, tire wear, and 
other tire performance characteristics, including safety.
Steel Wire Rod
    Since the antidumping and countervailing duty cases were filed on 
imports of wire rod in 2001, the RMA has been concerned about the 
possible adverse impact of duties on the availability of the 
specialized tire-cord and tire-bead quality wire rod that is so 
important to the tire companies. Initially, RMA sought to have this 
specialized wire rod excluded from the investigations and, in pursuit 
of that objective, conducted intensive negotiations with counsel for 
the petitioning domestic wire rod producers. RMA was only able, 
however, to obtain counsel's consent to the exclusion of grade 1080 
tire-cord and tire-bead quality wire rod, and since petitioners' 
counsel has a virtual veto with respect to such issues, only grade 1080 
was excluded by the Department of Commerce.
    In October of 2003, one of the major domestic producers of wire 
rod, Georgetown Steel Co. in South Carolina, shut its plant and filed 
for and obtained Chapter 11 bankruptcy protection. That shutdown, 
coupled with the trade restrictions on imported wire rod, has caused 
significant increases in prices and delays in obtaining supplies of the 
specialized tire-cord and tire-bead quality wire rod needed for the 
production of steel-belted radial tires. Although Georgetown remains 
closed, recently an offer to acquire its plant was made by 
International Steel Group, and the Bankruptcy Court has now set a 
deadline of June 12 for any competing bids, with an auction to be held 
by June 15. A reopening of the Georgetown plant under new ownership, 
however, would not likely occur until the fall, at the earliest. 
Moreover, there can be no assurance that the resumption of operations 
would immediately include the production of such specialized products 
as tire-cord and tire-bead quality wire rod. Thus, increasing shortages 
and higher prices are likely to continue in the future if no action is 
taken.
    Domestic supply shortages, coupled with the unavailability of 
imports restricted by the outstanding antidumping and countervailing 
duty orders, have created a critical situation for the tire companies 
and the independent tire cord and tire bead producers. To avoid 
critical shortages and the resultant price gouging, RMA believes that 
all grades of tire-cord and tire-bead quality wire rod should be 
excluded from the scope of the antidumping and countervailing duty 
orders on wire rod. To this end, RMA will soon seek relief from what we 
believe to be an overly broad trade restraint.
Conclusion
    NHTSA has met many of the challenges it faced with the passage of 
the TREAD Act. Now is the time for Congress to provide clear guidance 
to the agency and the industry for completion of the tasks and for the 
next steps. With this guidance the agency will need sufficient 
resources to complete their tasks. RMA looks forward to working with 
this committee and NHTSA on these issues to promote safety.

    Senator Smith. Thank you. Mr. Shea, it's my understanding 
that most of the tire failures on the Ford Firestone recall 
failed because of warm weather affecting a compound in the 
rubber. Can you explain what has been done or is being done to 
make tires less prone to failure in warm climates?
    Mr. Shea. Tires by and large will perform as intended, 
providing the important ingredient of consumer participation 
takes place. Tires cannot inflate themselves. We can sell a 
tire, but we cannot on a regular basis make certain that the 
motorist has the tire inflated to the proper inflation 
pressure.
    Our association, our industry, has undertaken a 
considerable public information campaign. In fact, we just came 
off our fourth national tire safety week, reminding consumers 
that at least once a month, particularly before going on a long 
trip and particularly as we head into warm weather, you check 
all of your tires, including your spare, and make sure they are 
set to the vehicle manufacturer's recommended pressure. We're 
making some progress. There's still a lot of work to be done.
    Senator Smith. It seems to me I've heard that many, many 
times, and yet I wonder if people respond to it. Do you have 
any idea how many people actually pay attention to it?
    Mr. Shea. Actually, we've had a lot of success this year, 
perhaps for an anomaly of a reason, and that is gas prices 
soared just before National Tire Safety Week, and the media 
picked up our message, which is that if you properly inflate 
your tires, you're going to increase--or decrease I should 
say--your fuel consumption. The Department of Energy, in fact, 
did a study a few years ago which estimated that underinflated 
tires cost American consumer 4 million gallons of gasoline 
every day. That's 1.5 billion gallons of gasoline a year, or $3 
billion we as consumers are spending that we don't have to.
    Senator Smith. That's an incredible number, and if people 
don't like their gas prices, they ought to check their tire 
pressure.
    Mr. Shea. Not just for the gas prices, but clearly for 
safety, but the twofold reason, I think, is a double reason to 
get consumers involved, and we are seeing progress.
    Senator Smith. We're going to hear from Ms. Claybrook and 
I'm going to ask her the same question about her access to 
records. Do you have any comment about the question I've asked 
the other panelists about the ability for consumers to get 
information?
    Mr. Shea. My response would echo that of both Dr. Runge and 
Mr. Strassburger that the early warning reporting system in our 
assessment is operating as intended. That is, the agency is 
getting a wealth of data, wealth of information, so that it can 
identify emerging problems. It was never intended to be a 
potpourri of information which frankly could be misinterpreted 
so easily because the data hasn't been analyzed. The data is 
reporting incidences frankly which need further analysis. So I 
would support and echo the comments of Mr. Strassburger.
    Senator Smith. Do you have any familiarity with Mr. Starr's 
product and these color-coding----
    Mr. Shea. As of 4:30 yesterday afternoon, I had the 
privilege and pleasure to meet both State Senator Starr and his 
colleague, Mr. O'Brien. It was the first time we had an 
opportunity to meet.
    Senator Smith. So your Alliance doesn't have any position 
on this one way or the other?
    Mr. Shea. At this point, the Rubber Manufacturers 
Association--in fact, I said it's an interesting concept, and 
one that, because of its safety implications, I would be happy 
to welcome Smart Tread to an appropriate meeting of the 
association members so that individual companies could make an 
assessment of whether it makes sense from a cost-effective as 
well as a tire performance standards.
    Senator Smith. But I imagine that having participated in a 
lot of food processing association meetings that you'd probably 
rather see that evolve by market demand and regulatory action?
    Mr. Shea. Absolutely. We believe it ought to be market-
driven.
    Senator Smith. Thank you very much, Mr. Shea.
    Ms. Claybrook, welcome. We invite your testimony.

            STATEMENT OF JOAN CLAYBROOK, PRESIDENT,

            PUBLIC CITIZEN AND FORMER ADMINISTRATOR,

         NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Ms. Claybrook. Thank you very much, Mr. Chairman. It's a 
pleasure to be here and I appreciate the opportunity to 
testify. I would like to submit my full testimony for the 
record and some attachments so that I don't have to cover those 
in my statement.
    Senator Smith. We'll include it without objection.
    Ms. Claybrook. Thank you. We still have a very large number 
of people killed on our highways today, 118 people every day, 
the same as a major airline crash every day, and I dare say 
that when you look at the budget for this agency, if you 
compared it to what would happen if an airline crashed every 
day, the Congress would respond a little bit differently. But 
unfortunately, people are killed one by one across this 
country, or two by two. And so we do appreciate the opportunity 
to at least elaborate on this a little bit today.
    Dr. Runge said fairly recently that the total of people 
killed could reach 50,000 by the year 2008. This is a Vietnam 
War every year, he said. That's just not tolerable, and we 
agree with him on that.
    The TREAD Act, as you're aware, was enacted very quickly. 
The Firestone and Ford Explorer case broke very quickly in 
August of 2000. The Congress had hearings in September and they 
enacted a law by November, and this new law has focused on 
consumer information and the pre-crash area of auto safety, 
that is, trying to stop the crash before it occurs. And the 
TREAD Act did leave some core problems untouched dealing with 
vehicle rollover, which of course was the problem that occurred 
in those crashes.
    And since the TREAD Act was enacted in November 2000, 
40,000 people have been killed in rollover crashes. It's a huge 
issue. It's one that still needs to be addressed, and we agree 
that electronics-devoted control is a crucial issue, another 
pre-crash way of addressing it. But we also believe that the 
crash worthiness of these vehicles needs to be addressed and 
really hasn't ever been sufficiently.
    That's why Senator McCain, when the TREAD Act passed, 
alerted his colleagues, because the Congress really didn't have 
time to go into a lot of these issues, that the issue wasn't 
over and he would be back again. And he has, with Senator 
DeWine and Hollings and Snowe, introduced a bill that has now 
passed the Senate and is now in conference committee on the 
highway bill as 1072, and that bill would address rollover 
survivability, also ejection, vehicle compatibility, another 
major issue because of the increase in the number of SUVs on 
the highway and light trucks, and also prevention of rollover.
    And these areas are very close to the priorities in the 
documents that have been released by the National Highway 
Traffic Safety Administration in terms of its own priority 
plans. It has already issued the advance notice for side 
impact. It has said that it's going to issue a rule at some 
point for roof crush, and many of the other issues in this bill 
are on their list.
    One that is not, I would say, that concerns us, even though 
it's a small number of people, deals with power windows, and I 
just wanted to mention that one particularly because since 1996 
when a petition was filed with the agency to change the way 
that power windows are allowed to go up and down on American 
cars compared to foreign cars, 28 children have been strangled 
to death. And that's because instead of lifting up the window, 
as in foreign cars now, not always, but in more recent ones, 
the U.S. manufacturers still have a system where you push it 
down to go up and you push it down to go down, and so children 
inadvertently strangle themselves.
    Also, as the New York Times article on Sunday made very 
clear, a father who had lost his child in a crash involving the 
lack of compatibility between two GM vehicles said that you 
shouldn't have to be rich not to die in auto crashes. And that 
really is the underlying feature or factor behind the McCain 
bill, which is that this should be across the board and not 
just in luxury cars--these kinds of protections. It shouldn't 
just be for people who drive Mercedes Benz or BMWs that survive 
a rollover crash.
    In terms of the TREAD Act itself, this is a terrifically 
important piece of legislation and it--we give the agency a 
high mark for moving quickly to try and implement the various 
pieces and parts of the legislation, and they're quite 
different so it took a lot of different kinds of expertise 
within the agency to do this.
    On the other hand, we are quite critical of the outcome of 
some of the rules, particularly the tire monitoring rule, where 
OMB got involved and said, well, you have to offer two options, 
one of which essentially covers one tire and the other covers 
four tires. Public Citizen did sue, as you heard, and the court 
has ordered them to reissue it. It has been 9 months now since 
that court order, or 10 months now, so we hope that Dr. Runge 
and the Administration will be able to move quickly, because 
150 to 175 people are killed every year from tire 
underinflation, and you've just heard what happens in terms of 
fuel use. And I think if the consumer is better informed about 
whether the tires are underinflated, they're more likely to 
keep them better inflated.
    In terms of the early warning rule, which you've asked a 
lot of questions about, it's our view that the intent of 
Congress as we read it was that this information should be made 
public, and indeed, under the Freedom of Information Act, the 
kinds of information described here is readily available 
publicly. And of course when the agency does an investigation, 
this kind of information, whether it's warranty data or 
consumer complaints, that information is made available when 
the agency evaluates a particular defect. We see no difference 
between whether they're evaluating defects or whether they're 
getting early warning data, and certainly I don't see that the 
Freedom of Information Act makes the distinction. And as Dr. 
Runge said, this will be resolved in the courts because it is a 
legal issue.
    Then with regard to consumer reimbursement, this is a small 
issue in the scheme of things, but it's a really irritating 
one. The Congress realized that some people in the Ford 
Firestone example had actually fixed their vehicles before the 
recall, and so they put a provision in the law that says that 
people have to be reimbursed if they fixed their vehicle ahead 
of time and then there's a later recall. And that's only fair, 
it makes sense, but the way that the agency issued the rule, 
you have to know when the engineering analysis was opened in 
the agency and it's a very narrow time-frame for qualifying for 
it and applying for it, and we think that if there's a 10-year 
statute of limitations in the law, which there is and was put 
in the TREAD Act, for the period of time over which a 
manufacturer from data manufacture has to recall the vehicle, 
that there shouldn't be this little tiny period of time that 
consumers have to get a reimbursement if they are very safety 
conscious and they act in advance of a recall. And we've been 
waiting 18 months for our petition for reconsideration to be 
answered and we see no light at the end of that tunnel.
    So the rest of my testimony will describe in a little more 
detail the other items of our concern. We do appreciate, of 
course, the tire manufacturers supporting the same position 
that we took on the tire inflation device. I just wanted to 
mention that and appreciate that you did that even though we 
disagree on other matters. I don't want to hurt your 
reputation.
    [Laughter.]
    Ms. Claybrook. Then finally I'd just like to say that we 
believe it is now time for the Congress to act on the McCain 
bill because of the huge death rate, and some of these issues 
have been pending for 30 years. The last time that we've--was 
updated it was--issued, the first one issued was 1971. It has 
never been changed since then. There is no provision for a 
rollover prevention standard. There is no provision for 
preventing children with the kinds of power windows that we 
have. And so we are very hopeful that the Congress and yourself 
will be supportive of this legislation. Thank you very much for 
the opportunity to testify.
    [The prepared statement of Ms. Claybrook follows:]

Prepared Statement of Joan Claybrook, President, Public Citizen; former 
     Administrator, National Highway Traffic Safety Administration
    Thank you, Mr. Chairman and members of the Senate Competition, 
Foreign Commerce and Infrastructure Committee, for the opportunity to 
offer this written testimony on the importance of improvements in 
vehicle safety. My name is Joan Claybrook and I am President of Public 
Citizen, a national non-profit public interest organization with over 
150,000 members nationwide. We represent consumer interests through 
lobbying, litigation, regulatory oversight, research and public 
education.
    I am testifying before you with shocking news that has, over time, 
sadly become hum-drum fact. Vehicle crashes are the leading cause of 
death for Americans from 4 to 34--killing 118 people every day of the 
year--the same as a major airline flight crashing each and every day. 
The National Highway Traffic Safety Administration (NHTSA) estimates 
the direct cost in economic losses from vehicle crashes is $230 billion 
each year (in 2000 dollars), or $820 for every man, woman and child in 
the U.S.\1\
    Dr. Jeffrey Runge, Administrator of NHTSA, predicted last year that 
the total dead could reach 50,000 annually in 2008. ``This is a Vietnam 
War every year,'' he said. ``That's just not tolerable.'' Mr. Chairman, 
I agree.
    The Transportation, Recall Enhancement, Accountability and 
Documentation Act, called the TREAD Act, was passed by Congress in 
November 2000 after a reporter in Houston, Texas, grabbed the attention 
of the Nation with her story that Ford Explorers with Firestone tires 
were experiencing sudden tire blowouts, rolling over and killing the 
people inside.
    In the two months before Congress adjourned in November 2000, it 
held numerous hearings and passed legislation. Members were upset that 
auto safety regulators had been asleep on the beat, and that automakers 
had covered up the problem, and reacted swiftly with new authority for 
NHTSA. The major thrusts of the new law were to secure an early warning 
of safety defects by requiring automakers to submit defect information 
to NHTSA and enhancing crash avoidance, or pre-crash, factors--such as 
a requirement for new tire standards, tire pressure monitoring systems 
and better consumer information on rollover stability.
    Yet the TREAD Act left the core problems in vehicle design 
untouched, and more than a third of people who die on the roads are 
still dying in rollover crashes. NHTSA's early statistical assessment 
for 2003 found that the number of people killed in motor vehicles 
increased once again to the highest level since 1990. A major source of 
this increase was deaths in rollovers in SUVs, which increased 10 
percent from 2002 to 2003. In fact, between 2000, when the TREAD Act 
was passed, and the end of 2003, 41,462 people lost their lives on 
American roads in rollover crashes alone--a stadium full of people--and 
more than 200 times the number of people killed when Congress jumped 
into action in 2000.
    As Sen. John McCain (R.-AZ), Chairman of the Commerce, Science and 
Transportation Committee, said on the floor on October 11, 2000 during 
the close of debate on the TREAD Act, major safety issues would have to 
be revisited.
    I say to my colleagues again that this issue isn't over. 
Tragically, I am in fear that there will be more deaths and injuries on 
America's highways before we finally make it much safer for Americans 
to be on America's highways.
    The Chairman's words were tragically prophetic. And his call to 
action is being answered by this Congress as part of the highway 
funding bill. The bi-partisan, reasonable McCain-Hollings-Snowe-DeWine 
vehicle safety provisions in Title IV of S. 1072, the Safe, 
Accountable, Flexible, and Efficient Transportation Equity Act of 2003 
(SAFETEA), would prevent thousands of these needless deaths on the 
highway each year.
    The bill focuses on crash survival, and includes rollover 
survivability safeguards, and ejection prevention and vehicle 
compatibility measures. Also important are crucial new protections for 
15-passenger vans and child safety in and around vehicles. All of these 
areas provide obvious, common-sense fixes where many precious lives may 
be saved cost-effectively with readily available safety technology and 
design improvements. In addition, the bill would require NHTSA to push 
forward with its work on the most well-established of any new crash 
avoidance technology through an evaluation of electronic stability 
control, in keeping with Dr. Runge's recent interest in this area.
    The priorities in S. 1072 are nearly identical to those highlighted 
in NHTSA's own priority plans, and are the right priorities given the 
level of preventable death on the road today. The bill's deadlines 
provide a framework for action by NHTSA by a date certain, while the 
content and phase-in period for all rules is left to the expertise of 
the agency.
    At a recent press event, Dr. Runge noted the agency's response to 
the clear timetable provided in TREAD for its 21 rulemakings in two 
years, saying that NHTSA had completed its new proposed side impact 
standard in record time because the agency was in ``the TREAD mode of 
turning out rules.'' We envision similar success with the timetable in 
S. 1072. In fact, TREAD is a terrific example of the agency's 
efficiency in accomplishing many complex assignments from Congress 
within an exceedingly short time-frame. S. 1072 similarly would address 
vehicle safety priorities that have long languished, some for more than 
three decades, such as rollover prevention, rollover survival and 
ejection mitigation, and would produce a timetable for action valuable 
to both the agency and industry by setting a clear and reliable agenda 
for the future.
    But while the TREAD Act rulemakings were accomplished mainly within 
their statutory deadlines, the content of the rules actually is a case 
study in the grave importance of clear and precise direction from 
Congress. While we would award the agency an ``A-'' on its relatively 
quick turnaround of rules, many of the major rules, as issued, fall far 
short of their real potential for improving safety. Our scorecard on 
key TREAD rulemakings is below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In many cases, the agency punted on the issues that would have 
greatly increased the benefits from the rule; in others, the agency 
used arcane reasoning to undermine the protection the rule could have 
provided. In several cases, NHTSA had to be taken to court on the 
merits of a rule by Public Citizen and other consumer groups. In 
general, the rules NHTSA has developed are characterized by more 
responsiveness to auto industry objections than public safety.
    For example, the new early warning database for submission of 
information by manufacturers on developing defects, which was the heart 
and soul of NHTSA's new authority under TREAD, is plagued with 
mismanagement and cost over-runs. Yet real oversight of the program is 
virtually impossible because NHTSA, in a separate rulemaking which 
utterly contradicts the clear intent of Congress and the President upon 
signing TREAD, as well as the agency's early statements in the record 
and its then-current policies, deemed the vast majority of information 
collected for the database to be ``proprietary'' and therefore exempt 
from all disclosure to the public.
    Congress, in passing the TREAD Act, was certainly incensed about 
the agency's failure to act in a timely manner in discovering safety 
defects, and required the creation of an early warning database as a 
public resource that would also provide a much-needed check on the 
industry's information monopoly concerning developing defects. Even the 
information on deaths and injuries, which was deemed publicly 
releasable by NHTSA, still remains unavailable, showing a lack of 
competent management of the database. We are currently suing the agency 
over its distortion of the Freedom of Information Act to withhold 
consumer complaints and other information concerning the public's 
experience in motor vehicles as reported by manufacturers.
    In another ongoing and egregious example, after Public Citizen sued 
the agency, three judges on the Second Circuit Court of Appeals agreed 
unanimously in August 2003 that the agency had badly botched the rule 
on tire pressure monitoring systems that tell car owners whether their 
tires are dangerously under inflated with a warning light on the 
dashboard. Under pressure from the Office of Management and Budget 
(OMB) and the auto industry, NHTSA had crafted a standard that 
permitted installation of shoddy systems.
    In November, officials in the General Counsel's office told us that 
a revised final rule would be soon forthcoming. Seven months later, a 
revised rule has not yet been issued, meaning that no rule is currently 
in force, and the agency's internal calendar indicates that the agency 
intends to re-issue a notice of proposed rulemaking, rather than a new 
final rule. We recently complained in a letter to Secretary Mineta 
about the unreasonable delay in re-issuing a new, legitimate final 
rule, and have attached that letter and its response. The rule would 
save 142 lives a year, according to the agency's own analysis, making 
this further delay unconscionable.
    In general, the record on the agency's implementation of TREAD 
reflects an effort to undermine the lifesaving possibilities of the 
mandates given to the agency by Congress. Details on each of these 
disappointments are provided below.
Early Warning Database Turned Into an Industry-Agency Secret
    The TREAD Act's new authority for NHTSA to collect ``early 
warning'' safety defect information was the result of a clear 
determination by Congress to make the automotive industry publicly 
accountable for its decisions not to recall dangerous and defective 
vehicles by mandating disclosure of potential safety defects to both 
the agency and public.
    The law followed upon shocking media and Congressional revelations 
of secret company memoranda and actions, including communications to 
dealers in foreign companies and foreign recalls that should have been 
given to U.S. regulators. Congress also called in the NHTSA 
Administrator for hard questions, upset that the Federal auto safety 
watchdog was asleep on the beat. A State Farm investigator had given 
the agency a slew of fatal cases from Ford/Firestone rollovers in 1998, 
but the agency had done nothing to investigate. Nearly 200 people died 
and 700 people were badly injured from the defects in the U.S. alone.
    The public availability of information in that case would have 
saved lives and prevented a catastrophic loss of faith in both the 
industry in general and the reputation of Ford and Firestone 
specifically. The solution in the TREAD Act was to require automakers 
to submit information as it develops to a new NHTSA early warning 
database showing the industry knowledge of, and the consumer's 
experience with, vehicle safety. Like adverse drug reaction information 
collected by the Food and Drug Administration, the information was 
intended to be available to the public.
    In working on the TREAD Act, Public Citizen and the many Ford/
Firestone survivors who bird-dogged the bill anticipated that the 
industry would attempt to maintain the secrecy of the information, and 
raised several concerns about the disclosure provision in the proposed 
bill, predicting that the industry would attempt to use the proposed 
new language to undercut the scope of authority clearly granted by 
Congress. We protested the possible misuse of the statute vigorously to 
the Congress and to the agency.
    In order to assure that this interpretation of the pending law was 
a consensus opinion with the committee and was one held by its 
Chairman, Rep. Markey (D.-Mass.) conducted a colloquy on the subject 
with Rep. Billy Tauzin (R-LA) on the floor of the House during debate 
on the bill. In that colloquy, Rep. Tauzin affirmed Rep. Markey's 
statement that the ``special disclosure provision for new early stage 
information is not intended to protect [information] from disclosure 
that is currently disclosed under existing law.'' See 146 Cong. Rec. 
H9629 (Oct. 10, 2000). In addition, when signing the law on November 1, 
2000, the President stated that he was directing NHTSA ``to implement 
the information disclosure requirements of the [TREAD] Act in a manner 
that assures maximum public availability of information.''
    The disclosure provision, Section 30166(m)(4)(C), as enacted, 
states that:

        None of the information collected pursuant to the final rule 
        promulgated under paragraph (1) [the early warning rule] shall 
        be disclosed pursuant to section 30167(b) unless the Secretary 
        determines the disclosure of such information will assist in 
        carrying out sections 3011(b) and 30118 through 30122 of this 
        title.

    Before receiving these assurances, on October 19, 2000, Public 
Citizen sent a letter to Secretary Slater warning that the industry 
would very likely attempt to bootstrap a secrecy requirement onto the 
pending bill.
    Following passage of the bill and in an apparent response to our 
letter raising the issue of a worst-case scenario, the agency issued an 
interpretive legal memorandum regarding the impact of the new 
disclosure provision upon the agency's obligations under TREAD and 
FOIA. In light of the legislative record, the President's statement 
upon signing the bill, and the legal meaning of the statute, the Senior 
Assistant Chief Counsel, officially reviewed the TREAD Act provisions 
and concluded, from a legal perspective, that the section ``will have 
no effect on the disclosure of documents received by NHTSA.''
    The agency's advance notice of proposed rulemaking (ANPRM) on early 
warning contained a brief section on the disclosure provision under 
TREAD, in which the agency noted that ``we believe that section 
30166(m)(4)(C) will have almost no impact . . . Historically, NHTSA has 
not invoked Section 30167(b) in deciding to release information to the 
public.'' Although the early warning rule expanded the universe of 
information available to NHTSA, principles governing its disclosure 
would be similar to those applying to information already collected in 
the course of defect investigations, which is routinely disclosed by 
NHTSA:

        The primary differences between pre-TREAD and post-TREAD Act 
        reporting are likely to be in the mechanisms for reporting and 
        amount of information reported. Before the TREAD Act, other 
        than material submitted pursuant to 49 CFR 573.8, information 
        in NHTSA's possession relating to a possible defect that was 
        not the subject of an ongoing investigation was primarily in 
        the form of consumer complaints. Under the TREAD Act, 
        information will also be generated through periodic reports to 
        NHTSA of information that a manufacturer might not otherwise 
        have disclosed unless specifically asked by NHTSA to provide 
        it. However, most of this information is likely to be similar 
        to the types of information that NHTSA regularly obtained 
        during its investigation pursuant to information request or 
        special orders.

    In our comments to the ANPRM, Public Citizen stated that the agency 
should address the issue of manufacturer and agency secrecy in the 
rulemaking, asking that ``the agency's disclosure policy . . . be 
treated as a critical part of its obligation to honor the objectives of 
Congress and the President in making the TREAD Act a law.''
    The agency's notice of proposed rulemaking (NPRM) on early warning 
also unequivocally supported the public disclosure of early warning 
information. Although the agency stated that ``TREAD does not affect 
the right of a manufacturer to request confidential treatment for 
information that it submits to NHTSA,'' the agency went on to review 
the categories of information that would likely be submitted under the 
agency's final rule and noted that:

        Historically, these types of information generally have not 
        been considered by the agency to be entitled to confidential 
        treatment, unless the disclosure of the information would 
        reveal other proprietary business information, such as 
        confidential production figures, product plans, designs, 
        specifications, or costs. Light vehicle production information 
        is generally not confidential, unlike production data on child 
        restraint systems and tires.

    The agency continued, stating that, ``[a]ccordingly, the agency 
does not expect to receive many requests for confidential treatment for 
submissions under the early warning requirements of the TREAD Act.''
    In its ANPRM and NPRM, NHTSA also reduced the scope of the 
information it would require automakers to submit for the database. In 
its final form, the database will include summaries of the numbers of 
consumer complaints submitted to the manufacturer, deaths and injuries, 
field reports by dealers, warranty claims and past production numbers 
by make and model.
    The secrecy issue was even more important to industry. Seeing that 
the early warning docket was rife with statements upholding disclosure, 
the agency pulled a bait and switch. Without any notice in the early 
warning docket, and prior to issuing the final rule on early warning, 
on April 30, 2002, NHTSA published a notice in the Federal register 
concerning the agency's sua sponte plans to amend the procedures that 
it uses to process confidentiality requests under 49 CFR Part 512.
    At first glance, this arcane rulemaking notice barely appeared to 
affect the early warning rulemaking, as the discussion of the rule was 
virtually non-existent. Yet the manufacturers seized upon this opening 
as an opportunity to argue that the information collected as a part of 
the early warning rule should be kept from the public. And in marked 
contrast to its notice, NHTSA's final confidentiality rule focuses 
almost entirely on the secrecy of the early warning database, and 
announced the agency's policy that all the information--with the 
exception of deaths and injuries--will remain secret and be withheld 
from the public even after a specific request under the Freedom of 
Information Act.
    Members of Congress who authored portions of the TREAD Act, such as 
Rep. Henry Waxman (D.-Calif.), have indicated that the agency's 
decision to maintain this information in secret gravely undermines the 
law. This novel use of FOIA to undermine information about public 
health and product safety is the subject of a petition for 
reconsideration by consumer groups, which was recently denied y NHTSA, 
and is now the focus of a lawsuit currently pending in Federal court 
and brought by Public Citizen.
    As the agency noted in its rulemakings on early warning, this kind 
of information has been routinely collected--and publicly released--in 
defect investigations over almost 40 years by Federal regulators. The 
defect file on the Ford and Firestone investigations contain such 
detailed information as consumer complaints, warranty claims, 
production numbers and field reports. For another example, consumer 
complaints submitted by consumers directly to NHTSA are published on 
its website.
    As we anticipated, the most difficult and fundamental struggle over 
the fair implementation of the TREAD Act concerns the public 
availability of early warning information regarding defects. 
Unfortunately, NHTSA has subordinated the interests of the public, who 
are routinely injured or killed by vehicle safety defects, to the 
interests of the industry in a cover-up, despite the obvious importance 
of this assignment from Congress.
    Ever since the Ford Pinto case in the late 1970s highlighted the 
deeply cynical nature of the industry in measuring costs against saving 
lives, the public has been all too well aware of the practice of bean-
counting by automotive manufacturers. Indeed, American motorists have 
been provided with consistent examples in which the cost of the fix, 
rather than the seriousness of the safety defect and the risk it poses 
to human life, determines the automakers' decision-making process on 
remedies. Good information would be the most effective tool for 
consumers to defend themselves against this practice.
    Now that Congress acted to remedy this tragic information inequity 
and market failure, the industry and agency has sought to undermine the 
best of Congressional intentions with subterfuge. Consumers should be 
empowered to make their own decisions regarding the hazards posed by 
the products that they use, and yet may only do so with clear and 
available information on safety.
    And NHTSA should be held accountable by the taxpayers for its 
decisions regarding whether to pursue a defect investigation. The 
secrecy of the database will do nothing to correct the flaws 
highlighted in a 2002 DOT Office of Inspector General audit, which 
concluded that defect investigation methods are unnecessarily haphazard 
and that agency could use greater transparency.\2\
    The secrecy of the information also greatly reduces the 
effectiveness of the new safety tool, as a public database would serve 
as an information portal, an invitation to public participation, and a 
quality improvement program for the industry. Consumers would be both 
motivated and able to ``add their story,'' making the new database a 
living resource for the agency and public, instead of an unaccountable 
black hole.
Tire Pressure Monitoring Systems: Even When Consumers Win, They Lose
    The TREAD Act required NHTSA to develop, within one year, a 
standard for a warning system in new vehicles to alert operators when 
the vehicle's tires are seriously under-inflated. After extensive 
study, NHTSA determined that a direct tire pressure monitoring system 
should be installed in all new vehicles. But in a ``return letter'' 
issued after meetings with the auto industry, the Office of Management 
and Budget (OMB) demurred, claiming its cost-benefit calculations 
provided a basis for delaying a requirement for direct systems. The 
final rule, issued May 2002, would have allowed automakers to install 
ineffective TPMS and would have left too many drivers and passengers 
unaware of dangerously under inflated tires.
    In June 2002, Public Citizen joined with other consumer safety 
groups to sue NHTSA because its final rule would have allowed 
manufacturers to choose to install the inferior (indirect) system. A 
year later, in August 2003, a unanimous three-judge panel of the United 
States Court of Appeals for the Second Circuit ordered NHTSA to rewrite 
the rule, agreeing with Public Citizen and others that NHTSA acted 
contrary to the express requirements of the Act and in an arbitrary and 
capricious manner by allowing installation of a clearly faulty indirect 
system.
    In its decision, the Court reminded NHTSA that the notion that 
``cheapest is best'' is contrary to Supreme Court precedent that safety 
improvements are a core responsibility of Federal regulators. The court 
also reminded NHTSA that, in doing its cost-benefit calculations, the 
agency is supposed to ``place a thumb on the safety side of the 
scale.'' \3\
    In the ten long months since the rule was overturned by the Court, 
NHTSA has also failed to re-issue the rule, despite the substantial 
factual record collected by the agency in rulemaking which should make 
a new final rule an easy matter. NHTSA's internal rulemaking calendar 
\4\ disappointingly indicates that the agency anticipates it will 
publish a new NPRM, rather than a revised final rule, as agency 
officials had indicated.
    Until a rule is again made final, the agency's delay means that no 
rule is on the books, despite very clear directions from Congress to 
protect consumers from the harmful effects of tire under inflation. For 
each year of continuing obfuscation and delay, NHTSA's own cost-benefit 
analysis shows that 142 lives are needlessly lost on the highway.
Dynamic Rollover Consumer Information Tests Used by NHTSA to Pad 
        Industry's Scores
    Following passage of the TREAD Act, in January 2001, NHTSA for the 
first time began to publish a rollover rating as part of its Web-based 
New Car Assessment Program (NCAP) star rating program.\5\ The 2001 
scores were based on a static metric called ``static stability factor'' 
that is essentially a ratio of a vehicle's track width and height. 
While the auto industry had protested for years that SSF had no bearing 
on rollover propensity, the agency's final rule established a clear 
correlation between SSF and rollover in real-world crashes.
    The agency, however, stopped short of setting a minimum safety 
standard, or ``floor,'' for rollover propensity. Unlike the other 
ratings that are part of NCAP, including frontal and side crash tests, 
which award stars to vehicles which perform over and above a minimum 
standard, the absence of a minimum standard means that even the 
tippiest vehicles start out with an inflated score of at least one 
star. In comments, Public Citizen has also pointed out that NHTSA's use 
of stars, rather than another metric, such as ``A through F'' letter 
grades, is inherently inflationary and far less informative for 
consumers.
    The TREAD Act required NHTSA to conduct an additional rollover 
consumer information dynamic test. In its rulemaking, NHTSA developed 
an on-road driving test mimicking emergency maneuver driving 
conditions, called a ``fishhook maneuver.'' A two-wheel lift of two 
inches or more is a failure on the test; however, the manner in which 
the test is combined with the static metric fundamentally undermines 
its usefulness for consumers.
    In the final scores awarded to vehicles, the dynamic test results 
are a one-way ratchet only--meaning that tip-up in the test has no 
negative impact on test results, while the absence of tip-up is, 
according to NHTSA, ``worth half a star.'' As Rae Tyson, NHTSA 
spokesman, explained, ``If there's no tip-up, you get a benefit, but if 
there is tip-up, there's no penalty.'' \6\ While many commenters, such 
as Public Citizen, favored combining the static and dynamic metrics 
into a single score, to ease use by consumers, we never anticipated 
that NHTSA would use the dynamic test to inflate the already-
misleadingly inflated NCAP scores, and that the major indicator of 
rollover propensity--tip-up of vehicles--would be undermined in the 
score.
    NHTSA also has yet to issue a critical second stage rulemaking for 
vehicle handling. In its dynamic test rulemaking, the agency expressed 
clear concern that automakers would comply with the new consumer 
information test by tweaking vehicle suspension, tire inflation or 
other areas, thereby improving test performance at the expense of real-
world safety in the vehicle's handling for consumers. The agency is now 
behind the schedule it outlined in the final rule for its dynamic test. 
Timely issuance of the handling test is needed to assure that 
manufacturers do not make dangerous changes to vehicle handling just to 
earn the half-star now available on the dynamic NCAP test.
Reimbursement Rule Undermined by Arcane, Anti-Consumer Restrictions; 
        Public Citizen's Petition for Reconsideration of Rule 
        Unanswered by NHTSA since January 2003
    In the TREAD Act, Congress amended the Motor Vehicle Safety Act to 
extend the time from 8 years to 10 during which manufacturers of motor 
vehicles or motor vehicle equipment must provide a remedy without 
charge. The expanded period was a direct response to manufacturers' 
failure to adequately address the need for a recall in the Ford/
Firestone case.
    In a similar vein, the TREAD Act also required manufacturer to 
reimburse an owner who has already incurred the cost of a repair prior 
to being notified of a defect. By expanding the Act's original time 
limits and requiring NHTSA to issue a new rule as to the reimbursement 
period, Congress clearly intended to expand consumers' rights with 
regard to both recalls and reimbursement. Providing a consumer with a 
reimbursement for a repair made as soon as a safety defect is noticed 
by the consumer is the best way to insure that consumers are not killed 
or injured by vehicle defects.
    Yet NHTSA's final rule established an incredibly arcane time 
schedule for consumer eligibility to be reimbursed. In a typical 
recall, NHTSA decided, consumer should only be reimbursed for expenses 
for fixing faulty equipment if the repair is made after one of two 
things occurs: (1) NHTSA opens an engineering analysis into that defect 
on that make/model; or (2) the repair is one year prior to the date the 
manufacturer tells NHTSA about the defect (whichever is earlier). To 
know whether they are eligible, consumers must know the date of the 
manufacturer's notification to NHTSA of the defect or must know to go 
to the NHTSA Website and look up whether an engineering analysis has 
been opened by the agency.
    Of course, most consumers do not know what an engineering analysis 
is, much less that its opening date affects their pocketbooks. Under 
NHTSA's rule, they must know to go to NHTSA's monthly report and keep 
checking it as it is updated. A recent search on May 28 of defect 
investigations added since April 27, 2004 indicated that 231 new 
records had been added since that time.
    In contrast to this absurd exercise, a vehicle's manufacture date 
is obvious and clear to consumers. Consequently, the 10-year limit on a 
manufacturer's responsibility to provide a remedy without charge should 
be the only applicable time limit.
    Congress intended to provide options for consumers and encourage 
timely recalls by removing a financial incentive for manufacturers to 
save money from delay, not cause consumers further headaches, as NHTSA 
has done here. Under NHTSA's new rule, the industry actually has a new, 
additional financial incentive to delay notification of the defect.
    Hundreds of consumers send letters to Public Citizen every year 
concerning possible defects in their vehicles. Below is our best 
attempt to explain the workings of this obscure rule in a typical 
response. It is a sad day when consumers must contact a public interest 
group to secure a decent explanation of their own rights under the law.
                                 ______
                                 
     Reimbursement Information Given to Consumers by Public Citizen
    In November 2000, following the highly publicized Ford/Firestone 
debacle, Congress passed a law requiring establishment of a 
manufacturer reimbursement program. This law called on NHTSA to issue a 
regulation to assure consumers would be reimbursed if they fixed a 
defective vehicle or piece of equipment that was later included in a 
recall. In October 2002, NHTSA issued a final rule that Public Citizen 
believes is only a partial and begrudging response to this command from 
Congress.
    The rule went into effect on January 5, 2003. You and other 
consumers could potentially now claim a reimbursement for repairs made 
to your vehicle if you follow the specific guidelines set out in the 
rule. Essentially, the rule says that once NHTSA or the manufacturer 
announces a defect recall, you can submit documentation of your repair 
and be reimbursed. Keep your eyes open for communications from the 
manufacturer of your vehicle--the communication should tell you where 
to send this reimbursement information.
    The information you will need to provide the manufacturer to 
receive your reimbursement is:

  1.  Your name and address.

  2.  Identification of your product--either the vehicle or the piece 
        of equipment.

  3.  Proof of the recall. This can be, for example, a photocopy of the 
        notice sent to you by the manufacturer or a printout of the 
        recall notice from the NHTSA website. (NHTSA recalls can be 
        found at http://www.nhtsa.dot.gov/cars/problems/)

  4.  The receipt for the work you had done on your vehicle or piece of 
        equipment. This could be, for example, a photocopy of an 
        invoice from the mechanic or the receipt from an auto parts 
        store.

  5.  Proof of ownership of the vehicle. This could be, for example, a 
        photocopy of the title for the vehicle or a photocopy of the 
        insurance for the vehicle with your name listed as owner.

  6.  If the remedy was obtained within the period you were covered by 
        the manufacturer's warranty, you must explicitly document why 
        the repair was not/could not have been done under the warranty. 
        For example, you could provide a copy of a denial of warranty 
        service from a dealership or some paperwork explaining why the 
        warranty work did not fix the problem addressed in the defect 
        (that was fixed by work you had done beyond the warranty.)

    There is a small window of time during which repair work will be 
eligible for this reimbursement program. There are two ``openings'' to 
this window:

  1.  The most common defect to is one in which the vehicle or 
        equipment has a safety-related problem. In case of a safety-
        related defect, the reimbursement window is opened when NHTSA 
        opens an engineering analysis--or--one year prior to the date 
        the manufacturer tells NHTSA about the defect (whichever is 
        earlier). To determine whether or not an engineering analysis 
        has been done on the defect in your vehicle, visit NHTSA's 
        ``Monthly Defect Investigations Report'' website at http://
        www.nhtsa.dot.gov/cars/problems/defect/monthly/. There, 
        engineering analyses (action #'s beginning with the letters 
        ``EA'') are listed along with the dates they were opened and 
        any comments that NHTSA has collected on them regarding status 
        of recalls.

  2.  A less likely defect scenario involves a vehicle or piece of 
        equipment that fails a NHTSA standard. In this situation, the 
        reimbursement window is opened after the observation of this 
        failure by either NTHSA or the manufacturer.

    Similarly, there are two ``closures'' of this reimbursement window:

  1.  If the defect was in your vehicle, the reimbursement window is 
        open until ten days following the date the manufacturer mailed 
        the last of its notices to owners about the defect.

  2.  If the defect was in a piece of equipment, the reimbursement 
        window is open until ten days following the date the 
        manufacturer mailed the last of its notices to owners about the 
        defect--or--30 days after the conclusion of the manufacturer's 
        initial efforts to provide public notice of the existence of 
        the defect or noncompliance (whichever is later.)
Omitting Key Safety Issues from a New Standard for Tires
    In June 2003, in response to a mandate in the TREAD Act, NHTSA 
issued a rule updating safety performance standards for tires, the 
first major action on tire safety since the late 1960s, when the safety 
standard was initially issued, and prior to widespread use of radial 
tires. However, counter to Congressional intent, NHTSA left serious 
holes in the updated standard. Despite the clear mandate, the new rule 
failed to adequately address tire strength and road hazard protection, 
or to establish minimum standards for bead unseating resistance and 
aging. S. 1072 would upgrade the tire standards to respond to the TREAD 
directives by requiring NHTSA to improve tire resistance to bead 
unseating and aging.

    Key shortcomings and omissions included:

  <bullet> No upgrade to the road hazard impact test, despite a 
        proposal in the NPRM;

  <bullet> No test for tire strength included in the final rule;

  <bullet> Retention of the old test for resistance to bead unseating, 
        yet results from the agency's 1997-1998 rollover testing 
        provided a strong rationale for upgrading this area of the 
        standard; and

  <bullet> The effect of tire aging over use and time remains 
        unaddressed pending further research.

    In all of the above areas, proposals in the NPRM met with 
substantial protest by industry. The agency's progress on the omitted 
priorities remains slow. Members of Congress specifically raised the 
issue of tire aging and the resulting degradation in safety during the 
Ford/Firestone hearings, yet the agency is still conducting research as 
a precursor to a rulemaking, promised in the tire standards final rule 
to occur within two years.
TREAD Act's Criminal Penalties Ridiculously Ineffective, as NHTSA 
        Agrees
    The new criminal penalties created by the TREAD Act are useless by 
Congressional design, not NHTSA's, due to the enormous ``safe harbor'' 
provision ensconced in the statute by the House Energy and Commerce 
Committee. Essentially, the burden of proof needed to prosecute under 
this provision is unreasonable in the extreme, rendering any 
prosecution both untenable and highly unlikely.
    As NHTSA noted in its interim final rule on the provision, little 
use, if any, is expected to be made of the provision, which is already 
a virtual dead-letter:

        We believe that there will be very few criminal prosecutions 
        under section 30170, given its elements. Accordingly, it is not 
        likely to be a substantial motivating force for a submission of 
        a proper report.

    Under the law, the penalties would apply only to persons who 
violate section 1001 of Title 18, an existing criminal statute and 
applies to only a very small class of actions. To prosecute, the state 
must prove that someone: (1) violated 18 U.S.C. 1001 (meaning that the 
lie or cover-up to the government was both knowing and willful); (2) 
violated 18 U.S.C. 1001 in reporting as required by the early warning 
rule; (3) had ``the specific intention of misleading the Secretary'' 
about a motor vehicle or motor vehicle equipment safety defect (not 
noncompliance with a safety standard or recall directive); and (4) the 
defect had already caused death or grievous bodily harm to someone at 
the time of the false report or failure to report. In addition, the law 
created a huge safe harbor, providing that no penalties will apply if 
the perpetrator ``corrects any improper reports or failure to report 
within a reasonable time.''
    In short, while the section increases the rarely-applied maximum 
penalty for a violation of Federal law concerning reports made to the 
government, at the same time it completely undercuts this new authority 
by prohibiting application of criminal penalties if the person who lied 
eventually recants. Because prosecutors always retain the ability to 
grant immunity, and to place case-specific limits on that immunity for 
witnesses or participants to secure testimony, the broad language of 
the ``safe harbor'' provision creates a much larger window for illegal 
activity than existed under current law. In addition, this law requires 
a request from the DOT to the Justice Department prior to prosecution, 
a highly unusual potential pitfall for enforcement of any criminal 
liability.
    One of the great losses in the negotiations between the two houses 
of Congress in 2000 was the Senate bill's very workable approach to a 
new criminal penalty authority for NHTSA. Those provisions, authored by 
Sen. McCain, were far superior because they did not create an 
additional form of immunity, applying criminal penalties to a knowing 
failure to recall a defective vehicle or part prior to its introduction 
into interstate commerce, if that defect later causes grievous harm to 
a person. This statute would have been an effective deterrent to cover-
ups on defects, in contrast to the language in the TREAD Act, which, as 
NHTSA has made clear, accomplishes nothing.
Conclusion: Congress Now Able to Complete TREAD Act's ``Unfinished 
        Business''
    While the TREAD Act focused on information collection on defects 
and other crash prevention measures, such as upgrades to the tire 
safety standard, fixing the tires was not even half of the battle. Many 
serious vehicle-related hazards remain unaddressed. The vehicle safety 
provisions in Title 4 of SAFETEA 2004 would establish rollover 
prevention and protection standards, anti-ejection standards, a 
standard to prevent the extensive harm from vehicle mismatch, and other 
crucial, long-overdue safeguards.
    The measures in the Senate highway bill would save thousands of 
lives:

  <bullet> A new roof crush resistance standard: 1,400 deaths and 2,300 
        severe injuries, including paraplegia and quadriplegia, would 
        be prevented each year by a more stringent standard.\7\

  <bullet> Improved head protection and side air bags: 1,200 lives 
        saved, and 975 serious head injuries prevented, would be saved 
        by a new requirement each year.\8\

  <bullet> Side window glazing (``safety glass''): A requirement would 
        save 1,305 lives and prevent 575 major injuries each year.\9\

  <bullet> Upgrade to door locks and latches standard: An upgrade would 
        prevent hundreds of the 2,500 door-related ejection deaths each 
        year.\10\

  <bullet> Rollover prevention standard that examines use of electronic 
        stability control (ESC): Several comprehensive studies estimate 
        that ESC technology reduces deaths and injuries by as much as 
        one-third by preventing crashes for occurring in the first 
        place.\11\

  <bullet> Compatibility standards for light trucks: NHTSA research 
        estimates 1,000 lives a year could be saved.\12\

  <bullet> Stronger seatback design: 400 lives saved, and 1,000 serious 
        injuries prevented, each year.\13\

  <bullet> Effective seat belt reminders in all seats: 900 lives each 
        year would be saved by such a requirement.\14\

    Preventing these deaths would save taxpayers billions of dollars in 
direct costs alone, and prevent untold trauma and suffering. 
Requirements for the issuance of new and upgraded rules in all of these 
areas are contained in the lifesaving NHTSA Reauthorization bill in S. 
1072 that passed the full Senate and is now pending in conference.
    Too many decades have passed without any meaningful action on these 
practicable safety provisions. While consumer groups, including Public 
Citizen, have raised objections to the implementation of rules under 
the TREAD Act, we still believe that this agency could, if given 
sufficient direction and focus by Congress, marshal its expertise to 
accomplish ``Phase Two'' of the safety goals highlighted by the Ford/
Firestone tragedy, but as yet unaddressed and unresolved.
    Below I have included some details on the core facts that support 
passage of S. 1072.
    It is time to ask American automakers to build a safer, better 
vehicle. Thank you, Mr. Chairman, for the opportunity to testify on 
these life and death matters.
                                 ______
                                 
               Fact #1: Title 4 of SAFETEA is Data-Driven
    Motor vehicle fatalities remain at an historic high and are the 
leading cause of death for Americans ages 2 to 34--every 10 seconds an 
American is injured in a crash and someone is killed every 12 
minutes.\15\ The death toll on the road is equivalent to two fully 
loaded 747s (with 400 passengers) going down each week.
    The problem is only getting worse. In 2002, highway deaths reached 
42,815, the highest level since 1990. An astounding 82 percent of the 
increase in deaths between 2001 and 2002 occurred in rollover crashes. 
Rollover-prone SUVs and pickups, combined with vans, now are 49 percent 
of new passenger sales and 36 percent of registered motor vehicles--a 
70 percent increase between 1990 and 2000.\16\
    A recent Federal study found that fatalities in rollover crashes in 
light trucks threaten to overwhelm all other reductions in fatalities 
on the highway, an astonishing fact when we consider that rates overall 
are improving: air bags are now a requirement for new vehicles and seat 
belt use keeps going up. NHTSA explained that ``the increase in light 
truck occupant fatalities accounts for the continued high level of 
overall occupant fatalities, having offset the decline in traffic 
deaths of passenger car occupants.'' \17\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Moreover, in many areas the hazards are inter-related--for example, 
rollover crashes involve interactions among vehicle factors such as 
rollover stability, ejection, side impact air bags, safety belt 
pretensioners, and door locks and latches. For that reason, NHTSA 
should be asked to examine problems as a whole, and to address, at the 
same time, all of the design and technology issues which can improve 
the survivability of rollover crashes. A comprehensive approach is also 
more cost-effective for manufacturers, as any re-design can be phased 
in at the same time over the life of the model cycles.
    In short, Title 4's comprehensive approach will produce the most 
cost-effective and scientifically sound new safety standards.
    Congressional Mandates Are Appropriate
    The Administration's plan for reviewing safety standards outside of 
its ``priority areas'' is for a cyclical, 7-year review. While a more 
regular review of standards is a good idea (some have been on the books 
for more than thirty years!), such an approach is hardly ``data-
driven.''
    The number of lives that would be saved by Title 4 dwarfs the 
still-tragic number of people killed in the Ford-Firestone tragedy, yet 
NHTSA's Administrator, Dr. Jeffrey Runge, suggested at a Mar. 18, 2004, 
hearing in the House of Representatives that asking NHTSA to act in a 
timely way in these areas is unreasonable. In response to questions, 
Dr. Runge also said that, in contrast, ``[l]egislative mandates are 
important when we have a crisis situation like in the TREAD [Act].''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Fact #2: NHTSA's Priorities Are Title 4's
        None of the major SAFETEA provisions establishes new priorities 
        for NHTSA--and many are identical to NHTSA's stated goals. The 
        bill merely gives many of NHTSA's already-planned actions a 
        timely certainty. The Administration's per se objection to a 
        requirement in these areas is both misguided and misplaced.

------------------------------------------------------------------------
         SAFETEA Provision               NHTSA's Plans: On the Record
------------------------------------------------------------------------
Rollover prevention: A rollover      Rollover, including prevention, is
 prevention standard to improve       one of the agency's four major
 vehicles' resistance to rollover     priority areas. NHTSA has plans to
 and a study of electronic            research ESC in 2004-05 and will
 stability control.                   also evaluate a vehicle handling
                                      test for the New Car Assessment
                                      Program (NCAP).
------------------------------------------------------------------------
Rollover survival: An upgraded roof  NHTSA plans to upgrade the roof
 crush standard; improved seat        crush standard soon. NHTSA is
 structure and safety belt design     currently researching belt
 (including belt pretensioners),      pretensioners and side-window
 side impact head protection          ejection mitigation and is plans
 airbags, and side head protection    to upgrade the door lock standard.
 airbags and upgraded door locks.     NHTSA also plans to upgrade the
                                      side impact test to require head-
                                      protection side-impact airbags.
------------------------------------------------------------------------
Front Impact: Upgrade the frontal    NHTSA's on-record priorities
 impact test procedure, consider      include an upgrade of crash-test
 new barriers and head impact and     dummies now used in frontal
 neck injuries, as well as offset     crashes and evaluation of a
 barrier testing.                     frontal offset barrier test during
                                      2004.
------------------------------------------------------------------------
Side Impact: Upgrade the side        NHTSA's priorities include an
 impact standard by considering new   upgrade of the side-impact
 barriers and measures of occupant    standard to address light trucks
 head impact and neck injuries and    and upgrade of injury criteria and
 upgrade to dummy tests.              data from second-generation side
                                      impact dummies.
------------------------------------------------------------------------
Aggressivity/Compatibility:          NHTSA published a ``Priority Plan''
 Standard to reduce vehicle           on vehicle compatibility, another
 incompatibility; a standard rating   of the agency's four major
 metric to evaluate compatibility     priority areas, and plans to
 and aggressivity and a consumer      evaluate the feasibility of a
 information program to communicate   compatibility requirement by 2004
 this information.                    and to develop an aggressivity
                                      metric thereafter.
------------------------------------------------------------------------
15 Passenger Vans: Include 15-       NHTSA will continue public
 passenger vans in relevant safety    education on the hazards of 15-
 programs, require 15-passenger       passenger vans, require lap and
 vans to comply with relevant         shoulder belts in the vans, and
 safety standards, and evaluate       include them in the upgraded roof
 technologies to assist drivers in    crush rule. NHTSA also plans to
 controlling the vans.                evaluate ESC for 15-passenger
                                      vans.
------------------------------------------------------------------------
Tire Safety: Upgrade tire safety to  NHTSA plans to research tire
 improve strength, road hazard,       strength and aging (2003-2004).
 bead unseating and aging
 performance criteria--all as asked
 for once in TREAD, and discarded
 by the agency.
------------------------------------------------------------------------
Child Safety--Booster Seats,         NHTSA is developing a 10-year-old
 Backover Avoidance, Power Windows,   child crash dummy and looking into
 Test Dummies and Rollover:           developing a three-year-old child
 Establish a state incentive for      dummy. NHTSA is also establishing
 booster seat laws. Increase the      performance requirements for
 use of child dummies, develop a      booster seats and planning to
 new child dummy for rollover         compile death certificates to look
 testing, develop a consumer          at off-road vehicular deaths,
 information program relating to      including driveway incidents.
 child safety in rollover crashes,
 and report on the performance of
 safety belts for children in
 rollovers. Report on technologies
 used to prevent injuries and
 deaths caused by automatic windows
 and a standard to ensure safer
 switches, and study methods to
 reduce injury and death outside
 parked vehicles.
------------------------------------------------------------------------
Safety Belt Reminder Systems: NHTSA  NHTSA plans a study of the
 to address alternate means to        effectiveness of belt minders and
 encourage increased belt use         evaluation of possible rulemaking
 including consideration of audible   (2003-2005).
 or visual reminders.
------------------------------------------------------------------------

                                      <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                      
    Yet action is uncertain without deadlines. As the chart at the end 
of Chapter One shows, there is a long history of unfortunate slippage 
between plans and promises--and NHTSA's record on all of these issues 
is one of unreasonable delay and many broken promises to act. A mandate 
will assure that NHTSA's activities achieve the greatest possible 
savings in lives.
    Some critics of the bill have suggested that safety belt use should 
be the only focus of efforts to save lives. Critical provisions relate 
to safety belt and child restraints in the bill, such as; 1) changes 
regarding safety belt reminder systems; a report on technologies to 
improve the performance of safety belts for children between the ages 
of 4 and 8; and establishment of a grant state incentive program for 
states that enact laws mandating booster seats for children who are too 
big for child safety seats.
    And while increasing safety belt use is a critical goal, the 
statistics do little to explain the high death rates in SUVs. In fact, 
SUV occupants are just as likely as car occupants to wear safety belts:

  <bullet> NHTSA statistics show that 78 percent of SUV and van 
        occupants, and 77 percent of passenger car occupants, wear 
        their belts.\18\

  <bullet> In fatal rollovers, the most deadly of crashes, SUV and 
        passenger car belt-use rates are virtually identical, yet these 
        crashes are 61 percent of SUV occupant deaths but comprise only 
        24 percent of car occupant deaths.\19\
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        Fact #3: Major Title 4 Measures Are Thirty Years Overdue
        As demonstrated by the 10 chronologies in Chapter Two, NHTSA 
        and the auto industry have known about the risks areas 
        addressed by Title 4 for more than thirty years.

Case Study: Rollover
    Despite years of improving belt use, rollover fatalities are at 
their highest level in a decade, mostly due to the rising rates of 
rollover deaths.

  <bullet> Vehicle rollovers cause more than 10,000 fatalities each 
        year--a full third of vehicle occupant deaths.\20\ \21\

  <bullet> The 2002 highway death toll was the highest in over a 
        decade--and rollover crashes accounted for over 80 percent of 
        these increased deaths.\22\

  <bullet> SUV and pickup rollovers account for nearly half of the 
        increase in annual occupant fatalities.\23\

  <bullet> Sixty-one percent of sport utility vehicle occupant 
        fatalities occur in rollover crashes,\24\ and SUVs roll over in 
        fatal crashes at 3 times the rate of cars.\25\

  <bullet> Shockingly, more than 20 percent of people killed in 
        rollover crashes were restrained by safety belts at the time of 
        the crash.\26\
Rollover: Stymied Efforts Since 1973
    In April 1973, NHTSA first proposed a rulemaking for a rollover 
resistance standard, which was never finished.
    Thirteen years later, in September of 1986, Congressman Tim Wirth 
called on NHTSA to pass a life-saving rollover standard. His petition 
to the agency was denied. In 1988, Consumers Union and the Center for 
Auto Safety again asked NHTSA to act, as rollovers killed 9,500 people 
each year.
    In 1991, Congress passed the Intermodal Surface Transportation 
Efficiency Act, which required NHTSA to address means of protecting 
motorists from ``unreasonable risk of rollovers'' in passenger 
vehicles.\27\
    But in 1994, the agency terminated its work on a rollover 
propensity minimum standard, promising that a series of new standards 
for rollover crashworthiness and a consumer information program were 
forthcoming.\28\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Case Study: Vehicle Compatibility
    The design of light trucks--and large SUVs and pickup trucks in 
particular--with a high center of gravity, high bumpers, and steel bars 
and frame-on-rail construction, makes these vehicles act like battering 
rams in a crash.
    The problem is a serious one:

  <bullet> When an SUV strikes the side of a passenger car, the car 
        driver is 22 times more likely to die than is the driver of the 
        SUV. When the striking vehicle is a pickup, the car driver is 
        39 times more likely to be killed.

  <bullet> NHTSA's Administrator estimated as long ago as 1997 that the 
        aggressive design of light trucks kills 2,000 additional people 
        needlessly each year.\29\

  <bullet> Another analysis found that 1,434 passenger car drivers who 
        were killed in collisions with light trucks would have lived if 
        they had been hit instead by a passenger car of the same weight 
        as the light truck.\30\

    Yet, auto manufacturers continue to build ever-more heavy and 
aggressive SUVs and to market them as such. The chief designer of the 
2006 Toyota Tundra recently bragged that his threatening design for the 
huge pickup truck is intended to highlight ``the power of the fist.'' 
\31\
    Despite shocking highway statistics and mounting research, in its 
June report NHTSA focused on only the struck vehicle--bulking up 
protection in cars, but ignoring the equally important challenge of 
changes to reduce the aggressiveness of pickups and SUVs. While 
improving occupant protection is critically important, the total crash 
dynamic can and must be considered.
Resisting Real Action: Promises, Promises by Manufacturers, Ratified by 
        NHTSA
    In December 2003, auto manufacturers announced a voluntary 
initiative to address incompatibility and aggressivity. The plan, 
currently to be phased-in on most vehicles by September 2009, would add 
side-impact air bags and lower the bumpers of SUVs or add a barrier to 
prevent them from riding over cars.
    Yet the Alliance makes no specific commitments to redesign vehicles 
to be less aggressive. Moreover, there is no requirement that all 
vehicles become compliant with the plan, and no outside body will 
verify vehicle compliance. Voluntary ``commitments'' violate core 
principles of democratic accountability and transparency by involving 
closed, secret deliberations, no procedural or judicial oversight, no 
mechanisms for accountability, and no baseline for safety.
    Even this new set of promises is only the latest in a series on 
compatibility issues. In 1998, the auto industry promised NHTSA 
Administrator Dr. Ricardo Martinez that it would make modifications to 
achieve safer designs, mainly by adjusting vehicle suspension. The 
industry refused to provide any details of their plans and there is 
little evidence that any substantial design changes were made. 
Consequently, the latest set of industry promises also raises 
questions, as vehicles continued to be designed to be large and 
aggressive, and the highway carnage continues.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Fact #4: Title 4 Closes Safety ``Design Gap'' with Feasible 
                        and Available Solutions

        In spite of the absence of Federal standards to improve 
        occupant protection, there is a wide array of cost-effective 
        safety technologies already available from automotive suppliers 
        that could reduce deaths and injuries in crashes.

    Chapter Three of this report contains supporting detail on the 
range of safety equipment available for 2004 model year vehicles, 
including: side impact airbags, laminated side-window safety glass, 
rearview cameras, backover prevention technologies, and rollover safety 
belt pretensioners.
    Forty-seven percent of 2004 model-year vehicles offered head-
protection side air bags, but only 27 percent offered the protection as 
standard equipment.\32\ In the 2003 model year, 40 percent of vehicle 
models offered head-protection side air bags, but only 24 percent 
offered it standard.\33\
    Of model year 2003 cars tested by NHTSA in the New Car Assessment 
Program (NCAP), electronic stability control (ESC) was standard on 22 
percent of cars and optional on 17 percent. At least six model year 
2004 cars offer a rearview camera as an option, and at least one 2004 
model offers as standard a rollover safety belt pretensioner in all 
seating positions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Case Study: The Miracle of ESC
    Electronic stability control (ESC) is an active safety system that 
helps drivers to maintain control of the vehicle and stay on the road. 
The system's sensors compare the vehicle's behavior in relation to the 
steering wheel position. When ESC detects a discrepancy, it intervenes 
to bring the vehicle's direction back into line by transmitting the 
right commands to the antilock braking system and sometimes reducing 
the engine torque.
    The core benefit of ESC is increased driver control, which 
translates into crash prevention. Studies conducted by DEKRA Automotive 
Research, DaimlerChrysler, Toyota, the University of Iowa and others 
indicate that ESC could positively influence as much as 25 to 43 
percent of fatal rollover crashes in the U.S., not to mention lives 
saved other crash types.
    For example, one study showed a 27-percent reduction in fatalities 
in single-vehicle rollover crashes when vehicles had ESC, meaning that 
installing ESC in all vehicles could save more than 2,100 lives in the 
U.S. annually in rollovers alone, not including fatalities that could 
be prevented in other types of crashes.
    Even with all this evidence, Title 4 allows NHTSA to draw its own 
conclusions on ESC, asking that NHTSA issue a rollover resistance 
standard, but merely consider additional technologies to improve 
vehicle handling, including electronic stability control systems.
Case Study: The Feasibility of a Superior Dynamic Roof Crush Test
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The image above depicts the fixture used to conduct roof crush 
dynamic testing in a testing laboratory in Salinas, California. The 
road surface moves along the track, contacting the roof of the vehicle 
as it rotates on the spit. The test surface impacts both sides of the 
roof on a single run, imitating the first roll of a vehicle in a 
rollover crash. The picture shows a 1994 Chevrolet Suburban (vehicle in 
white).
    The current Federal test is a static test using a platen, or plate, 
on the roof, and measures the impact of force on only one side of the 
roof with the steady exertion of pressure.
    A dynamic test is far superior because:

  (1)  It measures the survivability of the rollover crash--the human 
        impact;

  (2)  It includes the lateral, or sliding, velocity of the road as it 
        moves beneath the vehicle;

  (3)  It tests both sides of the roof--the current test only tests one 
        side, with the windshield intact. Yet research shows that 
        passengers sitting in the seat below the second, or trailing 
        edge, of the roll, are the ones severely injured or killed. At 
        the second impact, the roof, already weakened, crushes 
        downwards toward the occupants' heads.

  (4)  It shows the harm after the windshield shatters in the first 
        impact. Although a windshield breaks on the first impact with 
        the roof, it typically provides up to one-third of the roof's 
        strength in the static test.

  (5)  The test shows the real dynamic of crush as a function of roof 
        geometry (roundness, curvature, etc.). Because the static test 
        is not designed to include roof geometry, it omits a major 
        factor for survivability.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Dynamic drop tests for roof strength are repeatable. As a 2002 
engineering paper states:

        The automotive industry and researchers have used drop testing 
        for years to evaluate roof strength. In the late 1960s, SAE 
        developed a standardized procedure to perform full vehicle 
        inverted drop testing. Many domestic and import auto 
        manufacturers have utilized the inverted drop test technique as 
        far back as the 1960s and 1970s to evaluate roof strength.\34\
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
               Fact #5: Title 4 Will Save Jobs and Money

        ``Overall, the U.S. automotive supplier industry employs 
        approximately two million workers with operations and 
        facilities in nearly all 50 states. Sales in the U.S. 
        automotive supplier industry totaled approximately $370 billion 
        in 2002.''

        --Testimony of Jason Bonin, V. P. of Lighting Technology, Hella 
        North America, before House Subcommittee on Commerce, Trade, 
        and Consumer Protection.\35\

Job Creation Benefits
    An analysis of SAFETEA by the Enhanced Protective Glass Automotive 
Association (EPGAA) concluded that between 10,000 and 12,000 jobs would 
be created by the bill at both major manufacturers and safety 
suppliers.
    Enhanced safety will also help to assure the longer-range 
competitiveness of the automotive industry. Recent books, such as The 
End of Detroit, by Michelin Maynard, point out that unless the domestic 
auto industry acts quickly to improve safety and quality, they will 
keep losing market share to foreign manufacturers.
American Consumers Value Vehicle Safety

  <bullet> According to a JD Power and Associates 2002 study, nine of 
        the top 10 features consumers most desired for their next new 
        vehicle improve vehicle or occupant safety.\36\

  <bullet> A study by Maritz Research found that more than two-thirds 
        of consumers say they would definitely or probably buy high-
        tech safety equipment on their next vehicle.\37\

  <bullet> ``We've learned that safety sells. It sells today. It 
        clearly will sell tomorrow,'' National Transportation Safety 
        Board vice chairman Mark Rosenkar told automakers in January 
        2004.\38\
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
A Comprehensive Approach Lowers Costs for Consumers and Society
    Highway crashes cost the U.S. economy, in direct costs only, $230.6 
billion a year (in 2000 dollars), or $820 for every man, woman and 
child in the U.S. The average direct economic cost to society of each 
death is over $977,000 and is $1.1 million for each critically injured 
member of society.\39\ The figures do not include the costs to 
families, the untold suffering, or stress of family dissolution 
following the death of a child.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Improved Safety Costs Pennies Per Vehicle
    Some safety improvements, such as enhancing roof strength, cost 
very little, because they require mere improvements in design, rather 
than any new technologies. Others cost mere pennies. In contrast, 
automaker profit on SUVs is very high, as much as $8,000 for each Ford 
Explorer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Fact #6: Title 4 Defers to NHTSA's Judgment on the Substance 
                            of Safety Rules

        The clear language of SAFETEA invests NHTSA with substantial 
        discretion over the content of tests to meet safety goals and 
        recognizes the agency's expertise.

    While Title 4 does specify goals, such as improving the safety of 
occupants in rollovers, nothing in Title 4 predetermines an outcome or 
baseline for the new studies, test or safeguards. The heart and soul of 
each new standard is entrusted to NHTSA. For example:

    On ejection: ``The Secretary of Transportation shall prescribe a 
safety standard . . . to reduce complete and partial occupant ejection 
from motor vehicles . . . In formulating the safety standard, the 
Secretary shall consider the ejection-mitigation capabilities of safety 
technologies, such as advanced side glazing, side curtains, and side 
impact air bags.''

    On compatibility: ``The Secretary of Transportation shall issue 
motor vehicle safety standards to reduce vehicle incompatibility and 
aggressivity . . . In formulating the standards, the Secretary shall 
consider factors such as bumper height, weight, and any other design 
characteristics necessary to ensure better management of crash forces . 
. . in order to reduce occupant deaths and injuries.''

    On rollover: ``The Secretary of Transportation shall prescribe a 
motor vehicle safety standard . . . for rollover crashworthiness . . . 
In formulating the safety standard, the Secretary shall consider . . . 
a roof strength standard based on dynamic tests . . . and shall 
consider safety technologies and design improvements such as (A) 
improved seat structure and safety belt design, including seat belt 
pretensioners; (B) side impact head protection airbags; and (C) roof 
injury protection measures.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Title 4 does not dictate effectiveness dates for any rule, allowing 
NHTSA to write phase-in schedules that allow manufacturers considerable 
lead time to integrate changes into their platform re-design plans. 
Wherever safety technologies are mentioned in the bill, Title 4 asks 
only that NHTSA consider or evaluate them. Whether to require the use 
of any technology is, in each instance, left to the agency's judgment 
and discretion.
    Many vehicle safety issues, in the real world, are interrelated. 
For example, occupant protection in a rollover crash is related to: 
rollover propensity; ejection; side-impact airbags; window glazing; 
belt performance; and door latch and lock performance. For this reason, 
Title 4 contemplates a holistic approach to vehicle safety, to 
encourage the agency to resist tradeoffs that compromise occupant 
problems, and to reduce the risk of unintended consequences. The agency 
is also invited to apply current and available science on crash 
protection.
    In short, a clear Congressional mandate on the inter-related 
priorities in Title 4 will avoid a piecemeal, scatter-shot approach by 
NHTSA, and allow vehicle manufacturers to most cost-effectively design 
safer vehicles. Agency discretion is actually enhanced by legislation 
which enables NHTSA to target safeguards that have long been the focus 
of concerted opposition from the auto industry.
    Lastly, setting priorities for executive agencies is a core 
democratic responsibility of elected officials in Congress. Congress 
has fulfilled its duty in many recent laws, including ISTEA, and TEA-
21. The history of ISTEA is instructive: when Congress failed to direct 
NHTSA to issue a final rule, the result was either no rule or a very 
weak one, diminishing the impact of the law.
 Fact #7: Reliance on Voluntary Safety Standards Provides No Assurance 
                    of Safety and Is Anti-democratic
Give us a ``Commitment'' Instead of a Rule
    In December 2003, automakers announced a voluntary initiative to 
address incompatibility and aggressivity. The plan, currently to be 
phased-in on most vehicles by September 2009, would gradually increase 
the numbers of side impact air bags in vehicle and lower the bumpers of 
SUVs or add a barrier to prevent them from riding over cars.
    Yet the Alliance made no specific or time-bound commitments to 
redesign these stiff vehicles to protect consumers, despite the fact 
that light trucks act as battering rams in crashes, and that the height 
and stiffness of SUVs makes them devastating on the highway.
    Moreover, there is no requirement that all vehicles become 
compliant with the plan, and no outside body will verify vehicle 
compliance. While the commitment may increase occupant protection, it 
does little to address the violence that will be inflicted by the 
striking vehicle in crashes, ignoring the need to reduce stiffness and 
address ever-larger vehicle weights.
    A voluntary ``commitment'' is a particularly inapt solution where, 
as here, thousands of lives are at stake. In fact, Congress rejected 
them almost three decades ago when it passed the National Traffic and 
Motor Vehicle Safety Act in 1966.
    As the Senate Committee Report stated:

        The promotion of motor vehicle safety through voluntary 
        standards has largely failed. The unconditional imposition of 
        mandatory standards at the earliest practicable date is the 
        only course commensurate with the highway death and injury 
        toll.\40\

    The 1966 Congressional legislators were right. The historical path 
of automakers' voluntary efforts is paved with broken promises.
    From General Motors' promises in 1970 to voluntarily put air bags 
in all its vehicles by the mid-1970s (GM installed just 10,000 in model 
year 1974 and 1975 vehicles, and then discontinued the program), to 
Ford, DaimlerChrysler and GM's recent recanting of their widely 
publicized 2001 promises to voluntarily improve the fuel economy of 
their light trucks by 25 percent (withdrawn after the threat of 
Congressional action on fuel economy receded), ``voluntary'' is often 
just another name for tactical maneuvering and delay.
    Moreover, government reliance on voluntary ``commitments'' violates 
core principles of democratic accountability and transparency, because 
such voluntary agreements:

  <bullet> Contain no mechanisms for accountability: If the program 
        proves dangerously deficient, there is no recourse for injured 
        consumers, nor for the government to initiate a defect 
        investigation or compel the industry to perform a recall;

  <bullet> Involve closed, secret processes and meetings: The public, 
        which is at risk, is shut out of development of the proposal, 
        which is in secret by industry working groups not subject to 
        oversight, compliance with statutory requirements, a 
        responsibility to explaining their decisions, or judicial 
        review of decisions;

  <bullet> Lack transparency: The public has no means to secure an 
        independent evaluation of the quality of the industry's 
        voluntary tests or standards. The public gets no verification 
        that a particular vehicle complies with the voluntary tests, 
        unlike a government standards;

  <bullet> Lack a baseline for safety: High-income purchasers, who can 
        afford safety extras may be protected, but low-income 
        purchasers remain vulnerable to cost-related decisions by 
        manufacturers;

  <bullet> Produce weak and non-binding results: Proposals are 
        invariably weak because they represent the lowest common 
        denominator among companies looking out for their own costs and 
        product plans, and there is no obligation to be or remain in 
        compliance, so companies may change their minds at will and 
        withdraw any protection offered;

  <bullet> Are replete with exemptions and limited remedies: Voluntary 
        ``commitments'' usually have exemption clauses permitting 
        manufacturers to opt out of ``compliance'' because of marketing 
        considerations, costs, or for other reasons. Voluntary 
        ``fixes'' also do not help many drivers. For example, the Ford 
        Explorer 2-door ``Sport'' was never re-designed to lower its 
        rollover propensity, although it is more popular and more 
        rollover-prone than the 4-door model which was subject to a 
        well-publicized re-design.

  <bullet> Undermine the efforts of regulatory agencies: Voluntary 
        efforts often sideline agency involvement and research into 
        safety policy by allowing willing agencies to defer or avoid 
        regulation in a timely and vigorous manner.

    While automakers have spoken ominously about delay in their 
voluntary ``commitments'' if standards are enacted, withdrawing safety 
protections from consumers, once they have been made available, would 
be both unwise and uncompetitive, in view of the strong consumer demand 
for safety technologies.
    In addition, Title 4 asks NHTSA to handle related vehicle safety 
issues as a package, and outlines a vigorous rulemaking schedule, to 
ensure that there will be little delay in achieving these crucial steps 
forward in safety.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Endnotes
    \1\ Blincoe, L., A. Seay, E. Zaloshnja, T. Millar, E. Romano, S. 
Luchtner, R. Spicer. The Economic Impact of Motor Vehicle Crashes, 
2000. (DOT HS 809 446). Washington: NHTSA, May 2002.
    \2\ Office of Inspector General, ``Review of the Office of Defects 
Investigation,'' National Highway Traffic Safety Administration, Jan. 
3, 2002.
    \3\ Public Citizen v. Mineta, 340 F.3d 39, (2nd Cir. 2003).
    \4\ See http://regs.dot.gov/rulemakings/200404/report.htm.
    \5\ See http://www.nhtsa.dot.gov/cars/testing/NCAP/.
    \6\ Consumer Reports, ``Where the Rollover Scores Go Wrong,'' April 
2004, at 6.
    \7\ Plungis, Jeff. ``Lax auto safety rules cost thousands of 
lives.'' Detroit News 3 March 2002.
    \8\ ``NHTSA's New Head Protection Rule Puts New Technology on Fast 
Track.'' Press Release. Washington: NHTSA, 30 July 1998.
    \9\ Willke, Donald; Stephen Summers; Jing Wang; John Lee; Susan 
Partyka; Stephen Duffy. Ejection Mitigation Using Advanced Glazing: 
Status Report II. Washington: NHTSA and Transportation Research Center, 
August 1999.
    \10\ Plungis, Jeff. ``Lax auto safety rules cost thousands of 
lives.'' The Detroit News 3 March 2002.
    \11\ Schopf, Hans-Joachim. (2002). Analysis of Crash Statistics 
Mercedes Passenger Cars Are Involved In Fewer Accidents. Germany: 
DaimlerChrysler AG. 11.
    \12\ Joksch, Hans. Fatality Risks in Collisions Between Cars and 
Light Trucks. Final Report. Ann Arbor: Transportation Research 
Institute, Sept 1998.
    \13\ Plungis, Jeff. ``Lax auto safety rules cost thousands of 
lives.'' Detroit News 3 March 2002.
    \14\ The UCS Guardian & Guardian XSE: A Blue Print For A Better 
SUV. Washington: Union of Concerned Scientists, 2003. <http://
www.suvsolutions.org/blueprint.asp>.
    \15\ See United States General Accounting Office, ``Research 
Continues on a Variety of Factors That Contribute to Motor Vehicle 
Crashes,'' GAO-03-436 (Mar. 2003).
    \16\ U.S. Environmental Protection Agency, ``Light-Duty Automotive 
Technology and Fuel Economy Trends: 1975 Through 2003,'' EPA420-R03-
006, April 2003.
    \17\ National Center for Statistics and Analysis (NCSA), 
Characteristics of Fatal Rollover Crashes, DOT HS 809 438, at 22 (Apr. 
2002), at 13 (emphasis added).
    \18\ See National Center Statistics and Analysis, Safety Belt and 
Helmet Use in 2002--Overall Results, Sept. 2002, at 8.
    \19\ National Center for Statistics and Analysis, Characteristics 
of Rollover Crashes, April 2002, at 47 and National Center for 
Statistics and Analysis Motor Vehicle Traffic Crash Fatality and Injury 
Estimates for 2002 at 50.
    \20\ 2002 Annual Assessment of Motor Vehicle Crashes. Washington: 
NHTSA, July 2003. 64.
    \21\ Initiatives to Address the Mitigation of Vehicle Rollovers. 
Washington: NHTSA, 2003. 5.
    \22\ Hilton, Judith; Umesh Shankar. Motor Vehicle Traffic Crash 
Injury and Fatality Estimates. (DOT HS 809 586). Washington: National 
Center for Statistics and Analysis, 2003. 8.
    \23\ Id. at 1.
    \24\ 2002 Annual Assessment of Motor Vehicle Crashes. Washington: 
NHTSA, July 2003. 60.
    \25\ Characteristics of Rollover Crashes. (DOT HS 809 4398). 
Washington: NHTSA, April 2002. 21.
    \26\ Occupant Fatalities in Vehicles in Crashes with Initial Side, 
Rear, and Frontal Impact, and Rollover, by Year, Restraint Use, 
Ejection, and Vehicle Body Type. FARS 1992-2001 FINAL & 2002 ARF. Data 
Request. Washington: NCSA, Sept. 2003.
    \27\ See the Intermodal Surface Transportation Efficiency Act of 
1991: USCA Sec. 1392 at sec. 2503.
    \28\ See 59 F.R. 33254, 33255 (June 8, 1994).
    \29\ Bradsher, Keith. High and Mighty: SUVs--The World's Most 
Dangerous Vehicles and How They Got That Way. New York: Public Affairs 
2002, at 193 (Referring to Hans C. Joksch, ``Vehicle Design versus 
Aggressivity,'' (April 2000), DOT HS 809 194. p. 40-42).
    \30\ Joksch, Hans C. ``Vehicle Design versus Aggressivity,'' at 41. 
Further calculations contained in an electronic mail communication 
between Public Citizen and safety researcher Hans Joksch stated: ``In 
1996, 890 car occupants died in collisions with SUVs. If the risk in 
collisions with cars of the same weight had been half as high, as 
estimated at that time, 445 deaths would not have occurred if SUVs had 
been replaced by cars of the same weight.'' E-mail from Hans Joksch to 
Laura MacCleery of Public Citizen, on Feb. 24, 2003 (on file with 
Public Citizen).
    \31\ Rechtin, Mark. ``Toyota Concept Truck hints at next Tundra.'' 
Automotive News 4 Jan. 2004. www.autonews.com/
news.cms?newsId=7421&bt=fist
    \32\ O'Donnell, Jayne. ``Study: Side Air Bags Should Shield Head.'' 
USA Today, August 26, 2003.
    \33\ Insurance Institute for Highway Safety Status Report, Vol. 38, 
No. 8, Aug. 26, 2003, at 2.
    \34\ Brian Herbst, Stephen Forrest, Steven E. Mayer and Davis Hock, 
Alternative Roof Crush Resistance Testing with Production and 
Reinforced Roof Structures, 2002-01-2076, SAE 2002.
    \35\ Hearing on Reauthorization of the National Highway Traffic 
Safety Administration, Washington D.C., March 18, 2004.
    \36\ Testimony of Robert Strassburger, Vice President, Safety & 
Harmonization Alliance of Automobile Manufacturers on the 
Reauthorization of the National Highway Traffic Safety Administration, 
before the Subcommittee on Commerce, Trade, and Consumer Protection, 
Mar. 18, 2004.
    \37\ Edward Lapham, ``Most drivers want safety over 
entertainment,'' Automotive News, Feb. 20, 2004.
    \38\ Omar Sofradzjia, ``Automakers Told Features Necessary,'' Law 
Vegas Review-Journal, Jan. 31, 2004.
    \39\ Blincoe, L., A. Seay, E. Zaloshnja, T. Millar, E. Romano, S. 
Luchtner, R. Spicer. The Economic Impact of Motor Vehicle Crashes, 
2000. (DOT HS 809 446). Washington: NHTSA, May 2002.
    \40\ Committee Report on S. 3005, The Traffic Safety Act of 1966, 
June 23, 1966, at 271, 273, 274.

    Senator Smith. Thank you. Did I understand you correctly 
that you think the Smart Tread technology is a good idea or 
not?
    Ms. Claybrook. I think it's a terrific idea. The only 
concern I have is that we'll never see it.
    Senator Smith. And why would you----
    Ms. Claybrook. My concern is because I've seen so many 
great inventions over the years for improvements in safety and 
there are many that today have never been adopted. It took 25 
years to get air bags in cars, 25 year battle, and that was 
even with the involvement of NHTSA issuing the standard several 
different times. So I just hope that it is made available, 
because I think it's one of those kinds of technologies that's 
so simple and so easy for the public to understand and by using 
color codes of yellow and then red it's so clear, warning and 
then danger, that we'd just like to see it adopted. I hope that 
manufacturers will do it voluntarily, but if they don't, I 
think that at some point in time in not-too-distant future it 
would be nice to have it regulated.
    Senator Smith. The side air bags, how does that relate to 
the rollover concern you have? Obviously many, many car 
manufacturers are pursuing that on a range of vehicles now. Is 
that something that you're encouraging? Where does that fit in 
in your view?
    Ms. Claybrook. I think it's terrific. Side impact head air 
bags particularly are very, very important, and the standard 
that has been--the advance notice for a standard that's been 
issued by NHTSA is very promising and I think that it's really 
great that Dr. Runge has pursued this as vigorously as he has. 
The side head air bag is very important not only for a side 
impact crash, but for a rollover crash and to prevent ejection.
    Our one concern is that missing from the--I believe missing 
from the advance notice is any requirement or discussion of 
requirement for the head air bag to inflate when the rollover 
starts to occur. You need a sensor so that when that rollover 
starts to occur, the air bag inflates, not just when you're hit 
in the side, if it's going to be useful in a rollover 
protection. So we will certainly comment on that and I hope 
that that will be added.
    Senator Smith. Do you think NHTSA's doing enough with state 
legislatures on the Click It or Ticket programs? Do you see 
progress in that field?
    Ms. Claybrook. I think that it's great that--the Click It 
or Ticket program, I think it has gotten a lot of public 
attention and it does help with police enforcement, public 
information, and the laws. If you didn't have all three of 
those, NHTSA many years ago found that the way to get people to 
act is to have all three, a really good law, enforcement of 
that law, and public information, and that's what the ``Click 
It or Ticket'' program does. It adds the public information 
element to that.
    However, we were very disappointed that Dr. Runge did not 
endorse the Warner Amendment to the highway bill, which would 
have eventually required that states enact the primary 
enforcement laws, and that makes it much, much easier for the 
police to enforce. The states that have it, like Oregon and 
Washington, have a much higher rate of belt usage and we 
thought that if Ronald Reagan could endorse a mandatory 
requirement for age 21 for drinking that George Bush could 
endorse one for primary belt use, but that didn't happen.
    Senator Smith. Maybe it will.
    Ms. Claybrook. Maybe it will.
    Senator Smith. Well, thank you all so very much. Your 
testimony is important and what I'd like to do because I know 
that a number of my colleagues wanted to be here, I'm going to 
leave the record open for them to submit written questions. I 
may even have a few of my own. But this is a very important 
issue. I hope, Ms Claybrook, we get a transportation bill.
    Ms. Claybrook. Thank you so much.
    Senator Smith. I understand the House is pursuing it right 
now pretty vigorously and so there may be a showdown on that 
issue, but we do need a highway bill, it needs many of these 
provisions, and we're close but not quite there yet.
    Ms. Claybrook. Thank you so much.
    Senator Smith. With that, ladies and gentlemen, we thank 
you for your attendance, apologize again for the delay, and 
we're adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

                 Prepared Statement of Consumers Union
    Consumers Union\1\ appreciates this opportunity to share our views 
on the landmark auto safety legislation which is the subject of this 
hearing, the ``TREAD Act.'' (Transportation Recall Enhancement, 
Accountability, and Documentation Act of 2000).
---------------------------------------------------------------------------
    \1\ Consumers Union is a nonprofit membership organization 
chartered in 1936 under the laws of the state of New York to provide 
consumers with information, education and counsel about goods, 
services, health and personal finance, and to initiate and cooperate 
with individual and group efforts to maintain and enhance the quality 
of life for consumers. Consumers Union's income is solely derived from 
the sale of Consumer Reports, its other publications, and from 
noncommercial contributions, grants and fees. In addition to reports on 
Consumers Union's own product testing, Consumer Reports, with more than 
4 million paid circulation, regularly carries articles on health, 
product safety, marketplace economics and legislative, judicial and 
regulatory actions which affect consumer welfare. Consumers Union's 
publications carry no advertising and receive no commercial support.
---------------------------------------------------------------------------
    Consumer Reports has been testing and rating motor vehicles and 
automotive products since 1936, the year our magazine was first 
published. We have always made safety a top priority in our product 
ratings, and the safety of automobiles is no exception. CU has a long 
history of working with the National Highway Traffic Safety 
Administration (NHTSA) and Congress to press for improvements in 
automobile safety to identify safety priorities and insure that NHTSA 
is fulfilling its mandate to protect consumers.
    Each year, CU conducts comprehensive tests of some 40 to 50 new 
vehicles that we buy anonymously at retail, and we provide consumers 
with ratings about performance, routine handling, fuel efficiency, 
reliability, comfort, braking, emergency handling, and safety features 
of these vehicles. CU also tests tires each year for their performance 
in braking, handling, cornering, and traction characteristics on dry, 
wet, snow-covered, and ice-covered surfaces. Each month, an estimated 
17 million consumers read and consider our published test reports, 
product ratings, and buying advice as they ponder their choices.
TREAD's Rollover Consumer Information Program
    The TREAD Act included a number of important safety measures that 
have benefited consumers, but we want to focus here on a vitally 
important provision in TREAD requiring NHTSA-after years of failing to 
address the rollover problem-to develop and conduct dynamic driving 
tests it had developed to measure vehicle rollover resistance and 
report those findings to consumers.
CU's History in Rollover Prevention Efforts
    Consumers Union has spent years working to get NHTSA to address the 
problem of vehicle instability; during that period, the rollover 
problem has grown steadily worse each year. NHTSA's preliminary data 
for 2003 showed that while passenger car fatalities declined by 778, 
SUV fatalities increased by 456. SUV fatalities in rollover crashes 
increased 10 percent in a single year from 2,448 to 2,701. As NHTSA's 
press release noted, ``This increase was partially accounted for by 
increases in SUV sales.'' However, notwithstanding sales volume, SUVs 
and pickup trucks as classes of vehicles have unusually high rollover 
rates due to their high centers of gravity.
    CU's history in working on rollover issues dates back to 1988, when 
we asked NHTSA to set a stability standard to reduce rollover using 
dynamic testing. NHTSA granted that petition but ceased work on the 
standard in 1994. Finding resistance within the agency to setting such 
a standard, in 1996 Consumers Union asked NHTSA to at least develop a 
dynamic test for rollover resistance, conduct tests of SUVs using that 
test, and make the information available to consumers.\2\ NHTSA granted 
CU's petition for such a consumer information program, calling CU a 
``welcome partner'' in the quest for improved rollover safety.
---------------------------------------------------------------------------
    \2\ In 1973, NHTSA announced its intention to consider a standard 
``that would specify minimum performance requirements for the 
resistance of vehicles to roll over in simulations of extreme driving 
conditions encountered in attempting to avoid accidents.'' But NHTSA 
backed away from setting a standard. In fact, in 1994 NHTSA halted 
rulemaking on a universal minimum-stability standard, concluding that a 
standard applicable to all vehicles would require the redesign of 
nearly all SUVs, vans and pick-up trucks-at an unacceptably high cost.
    The agency never set such a standard, despite considering the 
rollover issue for the next 31 years.
---------------------------------------------------------------------------
    The end of this long saga is that not until Congress mandated in 
TREAD that NHTSA develop and implement a dynamic test for a rollover 
consumer information rating program did NHTSA follow through. Today 
NHTSA uses a ``fishhook'' maneuver to evaluate vehicle rollover 
resistance. Our auto engineers support the use of the fishhook test 
because they believe it is rigorous enough to do a good job of 
assessing the rollover resistance of a range of vehicle designs--
provided that the test is used to its fullest potential.
NHTSA's Perplexing System of the Rollover Consumer Information Ratings
    However, we remain greatly disappointed and utterly perplexed at 
the way NHTSA has implemented its use of the test and formation 
program. When NHTSA released its first ratings on rollover in February 
of this year, using the new test on 2004 models, two of the 14 vehicles 
tested had tipped up.
    NHTSA's head of public affairs said this about the scores: ``If 
there's no tip-up, you get a benefit, but if there is a tip-up, there's 
no penalty. The rule of thumb is that not tipping is worth half a 
star.'' We were concerned about that result, and addressed the issue in 
the April 2004 Consumer Reports in an article entitled, ``Where the 
rollover scores go wrong.''
    We believe that when a vehicle tips up on two wheels in NHTSA's 
rollover testing program, that should drop its rollover resistance 
score below that of vehicles that did not tip up. Not so, according to 
NHTSA. But tipping up in this test is a serious performance 
consideration.
    Much of the disconnect between the dynamic test and the new overall 
star ratings lies in how the ratings attempt to estimate a vehicle's 
overall rollover risk. NHTSA has changed the statistical methodology it 
uses to estimate that risk. It also weighs a vehicle's static stability 
factor (SSF) much more heavily than the dynamic test, which we think is 
a mistake. The SSF relates primarily to field data on ``tripped'' 
rollovers, which typically occur when a vehicle's wheels slide sideways 
against a curb, for example. The dynamic test probes a vehicle's 
ability to stay upright when making emergency maneuvers. The former is 
based on the history of all rollover accidents, the latter on how the 
test vehicle performs in an emergency maneuver. They give important but 
separate information.
    NHTSA's static measurement may be a helpful predictor of tripped 
rollovers, but the overall result as currently provided is not helpful 
to consumers--it virtually masks the dynamic behavior of the vehicle.
Getting Information On Vehicles That Tipped Up From NHTSA's Website is 
        Difficult and Confusing
    NHTSA's Website-where this information is stored but not easily 
found--shows the overall rollover scores for the two test vehicles that 
tipped up, the Ford Explorer Sport Trac and the four-wheel drive Toyota 
Tacoma extended-cab pickup, with vehicle ratings of two stars and three 
stars respectively out of a possible five stars. Compared with other 
vehicles, two and three stars sound pretty good to most consumers. 
However, even more frustrating is the difficulty in finding which 
vehicles failed the test. In order to learn whether the vehicle tipped 
up, the consumer has to click on the vehicle's name, and from there 
scroll down to the very bottom of the page and look for the word 
``tip'' in a small box under the heading ``rollover.'' This new and 
vital information is virtually buried, out of sight, away from 
consumers seeking safety information.
    Further, an enterprising consumer seeking more information on 
NHTSA's Website would be surprised to learn that if he or she went back 
to the press release the agency sent out in February with rollover 
rating data, the press release says nothing about the tip ups at all. 
Instead, the two vehicles that are designated ``tip'' in NHTSA's 
Website, are described as ``under review and [information about them] 
will be released at a later date.'' This befuddling conflict of 
information is at best, not helpful to consumers.
    Meanwhile, the rating section of the Website includes no discussion 
of what ``tip'' means, whether the vehicles tested had electronic 
stability control (a relatively new technology that our engineers have 
found to be quite effective in reducing rollover), or at what test 
speed the vehicles tipped up.
    The net effect of the new ratings program is to bury the new 
dynamic test information and prevent consumers from obtaining any 
really useful information regarding which vehicles are the more stable 
and forgiving in an emergency situation. NHTSA's consumer-unfriendly 
treatment of rollover ratings information also means that most vehicles 
will look alike when it comes to rollover propensity, including SUVs, 
which we know have a far greater propensity to roll over than passenger 
cars. The information program has great potential, but needs to be 
redesigned to make dynamic rollover test information more accessible, 
more accurate, and more useful.
Additional Concerns About Rollover Testing and Rating Program
    We raise for your consideration two additional concerns regarding 
rollover. The first is that when NHTSA first released these ratings in 
February, it promised more test results in the ``spring.'' To date, the 
test results of only 14 vehicles have been released. Second, NHTSA's 
current dynamic rollover test remains only part of the picture. 
Consumers Union has consistently recommended that a viable rollover 
testing program must include handling tests in order to prevent 
automakers from passing the fishhook test while degrading handling 
elsewhere, say by using tires that allow a vehicle to slide too easily. 
NHTSA officials appear to agree, saying they intend to add handling 
tests to complete the rollover testing protocol. However, we have seen 
no indication that they are developing these handling tests and without 
them, holding all the other problems aside, the rollover testing 
program is simply incomplete.
    CU has struggled to determine how best to advise our readers on 
what we regard overall as confusing and even misleading information 
about a vehicle's tendency to roll over. Currently we tell our readers 
that any vehicle that tips up in NHTSA's fishhook maneuver testing 
should be regarded as falling below the minimum performance in NHTSA's 
test for rollover resistance. Consumer Reports will not recommend any 
vehicle that tips up in NHTSA's fishhook test.
    In light of the problems with NHTSA's rollover rating system, we 
urge this Subcommittee to insist that NHTSA overhaul its rollover 
ratings system and delivery of consumer information to reflect 
completely, accurately, and in a consumer-friendly manner the relative 
stability of the vehicles tested and rated.
NHTSA's Work on TREAD and Beyond: Overall Observations
      and Recommendations
    The Administrator of the National Highway Transportation 
Administration (NHTSA), Dr. Jeffrey Runge, has rightly proclaimed as a 
proud accomplishment the agency's completion of final rules in over a 
dozen different rulemakings since the passage of the TREAD Act in 2000. 
While each of these final rules was developed as a result of a 
Congressional mandate under TREAD, we agree with Dr. Runge that there 
is much take pride in. NHTSA's ability to put in place in a short time 
period a number of new regulatory standards is admirable.
    We wish to make some observations and raise several other areas of 
concern in our comments.

        A. The first observation is that auto safety gets faster, more 
        comprehensive regulatory action from NHTSA when Congress gives 
        the agency a broad roadmap for addressing longstanding safety 
        problems and for developing new regulations, including mandates 
        with specific dates. We are not suggesting that Congress engage 
        in micromanagement of this Federal agency, but history has made 
        clear that the public benefits when Congress gives the agency 
        general directives for reducing risks and improving safety, 
        like calling on NHTSA to update a 30-year-old tire testing 
        standard or developing a dynamic test for rollover resistance. 
        The safety organization Advocates for Highway and Auto Safety 
        has documented NHTSA's history of action--or inaction--when a 
        Congressional mandate is in place. With four different laws, 
        the Intermodal Surface Transportation Efficiency Act of 1991 
        (ISTEA); the Transportation Efficiency Act for the 21st Century 
        (TEA-21); the Transportation Recall Enhancement, 
        Accountability, and Documentation Act of 2000 (TREAD); and 
        Anton's Law (2002), there is a clear pattern of NHTSA adopting 
        a rule when there is a Congressional mandate to do so, and 
        failing to solve problems on their own when Congress does not 
        require action.

        B. The second observation is that NHTSA has the ability to act 
        expeditiously to put in place competent and well-developed 
        mandatory regulations when given the road map and sufficient 
        directive by Congress to do so. TREAD is the most recent and 
        best example. On the other hand, the auto industry and even Dr. 
        Runge argue that voluntary standards developed by industry, in 
        contrast to mandatory ones, are often preferable because they 
        can be adopted in a shorter timeframe. This argument is belied 
        by recent events. In February 2003, Dr. Runge asked the auto 
        industry to engage in a voluntary process, whereby they would 
        commit as an industry to reducing the special hazards posed by 
        larger vehicles--SUVs, pickup trucks, and other large 
        vehicles--crashing into smaller ones. The auto industry, 
        working with the Insurance Institute for Highway Safety and 
        with a NHTSA representative participating, adopted voluntary 
        requirements to address occupant head protection in front-to-
        side crash protections. The date this voluntary standard is to 
        go into effect, however, is September 2009. Consider this: 
        NHTSA developed over 12 mandatory regulations in four years, 
        several with immediate implementation dates, while the industry 
        developed a single voluntary standard that from the time of its 
        inception to expected full compliance will take over six years.

        Voluntary standards can be slow to take effect, and they also 
        exclude the public from the vital process of reviewing proposed 
        actions and having meaningful input into their development. 
        Industry members too often develop voluntary standards behind 
        closed doors. Voluntary standards also leave consumers unsure 
        whether the vehicles they are buying comply with a voluntary 
        standard-they need not comply, since the standard is voluntary. 
        Moreover, consumers can't know whether an automaker might 
        decide to stop complying if the cost of doing so becomes too 
        great, as has happened in the past.

        C. While the rulemakings accomplished under TREAD were 
        unprecedented and NHTSA accomplished a great deal in a short 
        amount of time, much of the rulemaking under TREAD dealt with 
        long overdue updates of regulations. Prominent among them was 
        getting the agency to focus on detecting warning signals of 
        product hazards and defects sooner rather than later, updating 
        a three-decade old tire testing program, and requiring the 
        agency to include dynamic testing for rollovers into the 
        consumer information program discussed above. With all of 
        TREAD's important provisions, it wasn't the final word on auto 
        safety. There is much still to be done to make vehicles safer, 
        particularly in light of the changing nature of the automobile 
        fleet over the past fifteen years.

        Americans drive many more SUVs and pickups trucks than in the 
        past-over 50 percent of vehicles sold fall into the category of 
        light truck, and their size and weight present new hazards to 
        smaller vehicles in a crash.

    We know that we may be preaching to the choir here-after all, the 
full Commerce, Science and Transportation Committee passed TREAD and 
Title IV of S. 1072, the NHTSA reauthorization bill. But we need the 
strong support of members of this Subcommittee and the full Committee 
in the coming weeks, as the House has chosen not to adopt the Senate 
provisions. Consumers Union reiterates our support for the motor 
vehicle safety provisions contained in Title IV of S. 1072, the Safe, 
Accountable, Flexible, and Efficient Transportation Equity Act of 2003 
(SAFE-TEA).
    As many of you know, Title IV calls for the establishment of safety 
standards for a number of long-overdue National Highway Traffic Safety 
Administration (NHTSA) safety initiatives, including vehicle rollover 
crash prevention, side impact crash protection, occupant ejection 
prevention, vehicle-to-vehicle crash compatibility, 15-passenger van 
safety, child safety measures, and improved consumer access to safety 
information. Each of these individual provisions is designed to set 
goals for action while giving NHTSA flexibility in setting effective 
dates for the safety measures to be implemented, and to give motor 
vehicle manufacturers the freedom to choose the design or technology 
that best meets the performance standards that are adopted.
    For years, and in some cases decades, these safety measures have 
been under consideration by NHTSA, but have not been implemented. Title 
IV of S. 1072 provides an effective roadmap to complete action on these 
important life-saving measures, and will offer much needed protection 
for the driving public, in much the same manner as TREAD.
    Thank you for taking the time to consider our views.
            Respectfully Submitted,

Sally Greenberg
Senior Product Safety Counsel
  
R. David Pittle, Ph.D.
Senior Vice President
Technical Policy
      
                                 ______
                                 
   Prepared Statement of the Association of International Automobile 
                          Manufacturers, Inc.
    The Association of International Automobile Manufacturers (AIAM) is 
a trade association representing 14 international motor vehicle 
manufacturers who account for 40 percent of all passenger cars and 20 
percent of all light trucks sold annually in the United States. AIAM 
members have invested over $26 billion in U.S.-based production 
facilities, have a combined domestic production capacity of 2.8 million 
vehicles, directly employ 75,000 Americans, and generate an additional 
500,000 U.S. jobs in dealerships and supplier industries nationwide. 
AIAM members include: Aston Martin, Ferrari, Honda, Hyundai, Isuzu, 
Kia, Maserati, Mitsubishi, Nissan, Peugeot, Renault, Subaru, Suzuki and 
Toyota. AIAM also represents original equipment suppliers and other 
automotive-related trade associations.
    AIAM appreciates the opportunity to offer its views regarding the 
implementation of the Transportation Recall Enhancement, 
Accountability, and Documentation (TREAD) Act by the National Highway 
Traffic Safety Administration (NHTSA), the subject of the 
Subcommittee's June 3, 2004, hearing.
    In this statement, AIAM will address three matters raised at the 
hearing--the appropriateness of mandated vehicle safety rulemaking 
proceedings specified in the Senate version of pending highway 
reauthorization legislation (S. 1072, as incorporated into H.R. 3550), 
the agency's ongoing program to address rollover crashes, and the 
agency's rule regarding the treatment of confidential business 
information submitted as part of ``early warning'' reports mandated by 
the TREAD Act.
Rulemaking Mandates
    In September 2002, NHTSA announced four priority safety areas for 
in-depth staff review of possible mitigation measures: safety belt use, 
impaired driving, rollover mitigation, and vehicle crash compatibility. 
Building on that work, the agency last year announced a four-year 
priority plan for safety rulemaking and supporting research. NHTSA has 
developed this priority agenda based on its analysis of which aspects 
of safety have the potential to provide the greatest public benefit in 
terms of reduction of fatalities and serious injuries from motor 
vehicle crashes.
    In our view, there is no justification for Congress to establish a 
rulemaking agenda and schedule for NHTSA's vehicle safety standards 
program. We are aware of no evidence suggesting that the agency has 
failed to select appropriate rulemaking priorities. Moreover, under Dr. 
Runge's direction the agency has substantially expedited the timing for 
developing major rules. We urge the Subcommittee to consider supporting 
the deletion of these provisions as part of the Senate-House conference 
on the Highway Bill.
    AIAM fully supports the agency's approach of establishing its 
priorities on the basis of safety data, so as to target for early 
action those areas with the greatest life-saving potential. NHTSA's 
approach reduces the likelihood that vehicle manufacturers will be 
forced to direct staff and budget resources to research and development 
activities with a limited safety benefit.
    To assist the agency in establishing appropriate priorities, 
Congress should fully fund the agency's research program. In 
particular, AIAM urges long-term full funding for the agency's Fatality 
Analysis Reporting System (FARS) and National Automotive Sampling 
System (NASS) crash databases and the planned, long-overdue updating of 
a comprehensive crash causation study. These data sources are critical 
to agency efforts to identify appropriate safety priorities. Another 
research priority that should be fully funded is agency work to develop 
safety standards appropriate for new technology vehicles (e.g., fuel 
cell vehicles, fully electronic ``by-wire'' systems, etc.) and such 
matters as post-collision crash notification and emergency response. 
Manufacturers are already developing designs and prototypes for such 
new technologies. Without knowing what standards will apply or how to 
interpret current standards in the context of the new technology, 
manufacturers will generally not be able to economically incorporate 
standards compliance into their designs.
NHTSA Program to Address Rollover Crashes
    Section 4156 of the Senate version of the Highway Bill (S. 1072) 
would require near term rulemakings to adopt standards on rollover 
crashworthiness and rollover resistance. The agency has recently issued 
upgraded consumer information requirements relating to rollover, in 
response to a Congressionally mandated 2002 study by the National 
Academy of Sciences (see http://books.nap.edu/html/SR265/SR265.pdf) and 
section 12 of the TREAD Act. NHTSA has found over the course of several 
years that the consumer information approach is superior to standard-
setting as a means of addressing the rollover propensity matter, and 
recent experience with NHTSA and the Insurance Institute for Highway 
Safety consumer information programs supports the effectiveness of a 
consumer information approach. One concern has been that establishment 
of a rollover propensity standard could effectively ban some categories 
of SUVs or significantly impair their functional utility while having 
no beneficial impact on the majority of vehicles; by contrast, the 
consumer information approach promotes improvement in all types of 
vehicles. In addition, the consumer information approach has the 
potential to achieve quicker results at lower cost. We see no basis for 
the need to overlay a regulatory program on the newly enhanced consumer 
information program.\1\ Congress, having mandated the new rollover 
consumer information, should give the program a chance to prove itself.
---------------------------------------------------------------------------
    \1\ Public Citizen in its written testimony states that NHTSA is 
``behind the schedule it outlined in the final rule for its dynamic 
test'' to issue a supplemental vehicle handling test. However, the 
dynamic test final rule states only that a handling test is not part of 
the TREAD requirements and that the agency is still soliciting 
information on the matter. See 68 Fed. Reg. 59257, October 14, 2003. We 
are aware of no schedule, whether established by Congress or the 
agency, for a handling test and no definitive determination by the 
agency that a handling test is needed.
---------------------------------------------------------------------------
Confidentiality
    AIAM supports NHTSA's determination to maintain the confidentiality 
of significant portions of the information submitted by manufacturers 
under the agency's early warning report rule. In our view, the agency's 
decision is both legally justified and consistent with the practice 
throughout government with regard to the confidentiality of 
manufacturer-submitted product quality competitively sensitive 
information.
    In response to the agency's 2002 rulemaking on the confidentiality 
matter, AIAM surveyed Federal and state agencies that administer 
programs analogous to the NHTSA safety program, to determine what 
policies those agencies follow regarding public access to the 
manufacturer-submitted data. Several regulatory agencies receive 
product quality related information from regulated parties for 
compliance evaluation purposes. These agencies consistently follow 
policies of withholding such information from public disclosure as 
described below:

  <bullet> California Air Resources Board (CARB)--CARB administers a 
        program under which vehicle manufacturers must report 
        information on warranty claims relating to emission-related 
        components. See Title 13 Code of California Regulations, 
        sections 2144-5. Under this program, manufacturers must report 
        counts of unscreened and screened warranty claims, categorized 
        by engine family and specific component. When the number of 
        warranty claims exceeds a threshold level, the manufacturer 
        must submit a report containing the counts of claims CARB. This 
        information may be used by the Board as the basis for ordering 
        a recall based on the failure to meet emissions standards. 
        Based on our discussion with CARB legal staff, we found that 
        the Board treats the reports of warranty claims as 
        confidential. The basis identified by the legal staff for this 
        policy is to be found in California Government Code, section 
        6254.15, a provision of the California Public Records Act. 
        Under that provision, ``corporate financial records, corporate 
        proprietary information, including trade secrets,'' are exempt 
        from public disclosure. The legal staff cited concerns 
        regarding public confusion associated with premature release of 
        such information as a subsidiary reason for their policy.

  <bullet> U.S. Consumer Product Safety Commission (CPSC)--Under 15 
        U.S.C. 2064(b), each manufacturer of consumer products is 
        required to report to the CPSC in the event one of the 
        manufacturer's products fails to meet an applicable safety 
        standard, contains a defect, or presents an unreasonable risk 
        of serious injury or death. Under 15 U.S.C. 2055(b)(5), the 
        CPSC may not disclose this information unless the Commission 
        has issued a complaint involving the product, entered into 
        remedial settlement agreement involving the product, or 
        received the manufacturer's consent to release the information.

  <bullet> Food and Drug Administration (FDA)--The FDA requires drug 
        product manufacturers to report ``adverse drug experiences'' 
        claimed to result from their products. See, e.g., 21 CFR 
        314.80, 314.81,510.300. The adverse drug experience information 
        is generally released to the public. See, e.g., sections 
        314.430 and 514.11. However, sales or production data involving 
        the drug products is not released. See section 314.430(g)(2) 
        and 514.11(g)(2). In this way, the information relating to 
        individual adverse drug experiences is disclosed, but the 
        confidentiality of the sales or production data prevents 
        competitors from calculating ``claims'' rates (i.e., the 
        numerator of the rate fraction is disclosed, but not the 
        denominator). For competitive purposes, the rate information is 
        critical, in that it enables comparisons and extrapolations 
        among different manufacturers, products, and production 
        processes. FDA legal staff informed us that the sales/
        production information is withheld on the basis of FOIA 
        exemption 4, as confidential commercial or financial 
        information.
Conclusion
    AIAM members stand at the forefront of technological advances to 
improve vehicle performance, efficiency, and safety. AIAM appreciates 
the opportunity to submit this statement for the Subcommittee's 
consideration and would be pleased to respond to any questions the 
Subcommittee may have regarding this statement.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                      Hon. Jeffrey W. Runge, M.D.
    Question 1. What opportunities do you think exist for the expanded 
use of nitrogen tire inflation to help address safety and other tire 
performance issues in the future?
    Answer. The potential benefits of nitrogen tire inflation are very 
attractive for commercial vehicles, including aircraft, heavy trucks, 
heavy duty off-road construction vehicles, racing machines and other 
specialty equipment. As you mentioned in your letter, these vehicles 
have had nitrogen-inflated tires for many years and it appears that the 
benefits of nitrogen-inflated tires offset the cost burdens for these 
applications. In many cases, these vehicles are privately owned but 
commercially operated, so vehicle-operating costs are often mitigated.
    For the passenger car, light truck, and multipurpose passenger 
vehicle market, the realistic opportunities available to expand the use 
of nitrogen-inflated tires are much harder to estimate. Private vehicle 
owners are generally responsible for the maintenance of their vehicles 
and are less likely to be aware of the technology or the benefits of 
nitrogen-inflated tires. Currently, there are few service facilities 
for private citizens to inflate their tires with nitrogen. Hence, we 
believe that the opportunities to expand the use of nitrogen tire 
inflation appear to be unlimited, if a consumer-oriented market is 
created for such a product. Manufacturers of machines that generate 
and/or store nitrogen and tire dealers would be the segment of the 
marketplace with the incentive to promote nitrogen inflated tires. The 
costs would include the investment in infrastructure as well as the per 
tire inflation costs. Tire pressure monitoring systems would still be 
needed on vehicles to inform drivers when their vehicle's tires are 
under-inflated, since nitrogen-filled tires would still become under-
inflated, albeit at a slower rate than air-filled tires.

    Question 2. If you think there is an impediment to expanding the 
use of nitrogen tire inflation in the United States, what steps do you 
think would be needed to overcome it?
    Answer. We do not believe that there are impediments to expanding 
the use of nitrogen tire inflation in the United States. The use of 
nitrogen for tire inflation is expanding at a reasonable pace, 
especially for commercial and off-road vehicles. However, for light 
passenger vehicles used by the general public, we believe that limited 
availability of nitrogen inflation facilities and associated equipment, 
such as high pressure tanks and nitrogen generators, represents a 
potential challenge to expanding the use of nitrogen for tire 
inflation. Also, we expect that service stations and tire dealers that 
provide nitrogen for tire inflation to the general public may charge a 
nominal fee to cover the cost of operating and maintaining the nitrogen 
generating equipment.

    Question 3. What should NHTSA's role be in promoting greater use of 
nitrogen inflation technologies in the Federal fleet and in the private 
sector?
    Answer. NHTSA could conduct a Federal fleet operational study of 
the costs and safety benefits of inflating passenger car, light truck, 
and multipurpose passenger vehicles tires with nitrogen. Such a study 
could provide the agency with a better understanding of the potential 
costs and safety benefits of this technology, as it relates to 
improving the tire performance requirements in our safety standards. 
However, we do not believe that the agency should have an active role 
in promoting greater use of nitrogen tire inflation technologies in the 
private sector. The agency's safety standards are performance-oriented 
whenever possible and the tire safety standards currently do not 
include specifications for the tire inflation gas.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
